<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2015 Wednesday, March 12, 2014.</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




             STATE, FOREIGN OPERATIONS, AND RELATED 
                PROGRAMS APPROPRIATIONS FOR 2015                                 
______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION
                                   ______

     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS

                      KAY GRANGER, Texas, Chairwoman

  FRANK R. WOLF, Virginia          NITA M. LOWEY, New York
  MARIO DIAZ-BALART, Florida       ADAM B. SCHIFF, California   
  CHARLES W. DENT, Pennsylvania    BARBARA LEE, California     
  ANDER CRENSHAW, Florida          DEBBIE WASSERMAN SCHULTZ, Florida  
  KEVIN YODER, Kansas              HENRY CUELLAR, Texas  
  THOMAS J. ROONEY, Florida             

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
              Susan Adams, Jamie Guinn, and Clelia Alvarado,
                             Staff Assistants
                                  ______


                                  PART 5

                                                                   Page
Department of State..............................................     1
U.S. Agency for International Development........................   431
United Nations and International Organizations 
 Budget..........................................................   597
U.S. Assistance in Africa........................................   691
U.S. Assistance to Promote Freedom and Democracy 
  in Countries with Repressive Environments......................   785
U.S. Assistance to Combat Transnational Crime....................   839
                                                                    839
                                  ______ 

          Printed for the use of the Committee on Appropriations
                                  ______
 
                     U.S. GOVERNMENT PRINTING OFFICE

  92-737                    WASHINGTON : 2015

 
 
 
 
 
 
 
 
 
                        COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia               NITA M. LOWEY, New York
 JACK KINGSTON, Georgia                MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey   PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                      JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama           ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                    JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho             ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas           DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida               LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                 SAM FARR, California
 KEN CALVERT, California               CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                    SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida            BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania         ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                   MICHAEL M. HONDA, California          
 KEVIN YODER, Kansas                   BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas                TIM RYAN, Ohio       
 ALAN NUNNELEE, Mississippi            DEBBIE WASSERMAN SCHULTZ, Florida         
 JEFF FORTENBERRY, Nebraska            HENRY CUELLAR, Texas        
 THOMAS J. ROONEY, Florida             CHELLIE PINGREE, Maine    
 CHARLES J. FLEISCHMANN, Tennessee     MIKE QUIGLEY, Illinois  
 JAIME HERRERA BEUTLER, Washington     WILLIAM L. OWENS, New York 
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California          
 ANDY HARRIS, Maryland                 
 MARTHA ROBY, Alabama                 
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah     

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2015
                                  _______
   
                                         Wednesday, March 12, 2014.

                          DEPARTMENT OF STATE

                                WITNESS

HON. JOHN F. KERRY, SECRETARY, U.S. DEPARTMENT OF STATE

                Opening Statement of Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    Mr. Secretary, I want to welcome you back to the 
subcommittee. We look forward to your testimony. During our 
time with you today there are many new issues that members want 
to address. In Ukraine, the situation continues with no 
resolution in sight in spite of your personal engagement to try 
to bring this crisis to an end. In Afghanistan, even after 
intense negotiations, the government refuses to sign a 
bilateral security agreement with the United States, putting 
our troop presence and diplomatic footprint in doubt and 
increasing the risk that extremists will return.
    In Africa, new conflicts have broken out, deepening human 
suffering in areas that have struggled for so many years. All 
of these troubling developments must be addressed, yet most of 
the topics we discussed last year are still relevant today.
    The members of this subcommittee, like you, continue to 
watch the situation in Egypt, even while the country is 
tackling significant security and economic challenges. We know 
Egypt is moving toward elections later this year. During this 
critical time, the United States must continue to work with the 
government of Egypt and support the Egyptian people.
    The Syrian crisis continues, even though through your 
intense efforts last year, there was hope that the regime would 
give up its chemical weapons. In spite of all the work of the 
U.S. Government and our international partners, the efforts to 
remove chemical weapons have stalled, extremists are taking the 
upper hand, and more lives are lost every day because of the 
violence and blocking of humanitarian aid.
    The Syrian crisis is affecting the whole region. Its 
neighbors are now bearing the burden of 2-1/2 million refugees. 
These neighboring countries continue to do all they can to help 
the Syrians pouring over their borders, but we must do all we 
can to help them. Because of the flow of refugees from Syria, 
Jordan's population has increased by nearly 10 percent, and 
Lebanon's population has increased by an estimated 20 percent.
    Over the last year, you have worked with your international 
partners to put in place an interim agreement with Iran that 
allows for some sanctions relief if Iran takes steps to 
dismantle its nuclear program. There is no doubt that sanctions 
brought Iran to the table, and the United States must keep the 
pressure on as a final deal is negotiated. We all know too well 
that the security of the United States and the security of our 
steadfast ally Israel is at stake here.
    In addition to these policy issues, we have questions about 
the administration's budget request. The base funding level 
requested for State and USAID is roughly the same as last year, 
but you sacrificed some of the priorities of the members of 
this committee to make room for the administration's 
initiatives. Many programs that we support in a bipartisan way 
have been reduced below last year's level, such as global 
health and democracy funding. We will be seeking additional 
information so we understand your proposal.
    Another difficult budget issue we need to address together 
is embassy security. We need assurance that the proposed 
funding level is adequate to address the recommendations in the 
Benghazi Accountability Review Board report.
    Next, I want to mention an issue that I know is a priority 
for you, and that is Middle East peace. You have made countless 
visits to the region to try to move the Israelis and 
Palestinians toward peace, and I want to be clear, achieving 
peace is our priority, too, and this Congress is unwavering in 
our bipartisan support for Israel. You and the President have 
recently made some strong statements about Israel's role in the 
peace process. You raised the issue of boycotts if a peace 
agreement is not reached, and the President has said that 
Israel needs to articulate an alternative approach if an 
agreement is not possible. I hope you will give us an update on 
peace talks during your testimony today and explain those 
comments to the committee.
    I also want to mention an issue that is a priority for me 
in my own backyard and ours. Mexico is our neighbor, and we 
want our neighbor to be prosperous and also to be safe. This 
can only be achieved if we have a true partnership. I hope you 
will comment on the current relationship between our countries 
so the subcommittee knows if the funding provided is making a 
difference.
    And finally, I want to raise a concern I know I share with 
you, Mr. Secretary. We must stop the international crisis of 
wildlife poaching and trafficking. Criminal networks are 
destroying species and using the funds for illegal activities 
around the world. I thank you for what you have done in this 
area since we talked about it last year, and I hope the funds 
in the final year, the fiscal year 2014 bill will be used to 
bring an end to this crisis. However, the budget materials that 
the committee has received so far don't reflect fiscal year 
2015 funding for wildlife poaching and trafficking, and the 
committee expects that level of detail as soon as possible.
    In closing, I want to thank you and the thousands of 
diplomats, development officers, and implementing partners for 
what you do every day to promote U.S. interests abroad. As you 
have said, in an increasingly interconnected world, global 
leadership is not a favor we do for other countries, it is a 
strategic imperative for the United States of America. We all 
agree with you on that point and want to continue to work with 
you.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. I will now turn to my ranking member and 
partner in this, Mrs. Lowey, for her opening remarks.

                    Opening Statement of Mrs. Lowery

    Mrs. Lowey. Thank you, Madam Chair, and welcome, Secretary 
Kerry. I join Chairwoman Granger in welcoming you back to our 
subcommittee. Let me also say I know the chairwoman joins me in 
congratulating you on the birth of your granddaughter.
    Secretary Kerry. Thank you.
    Mrs. Lowey. Our country is fortunate to have your 
thoughtful, effective, and respected leadership, with so many 
grave challenges around the world, from the crisis in Syria to 
the Middle East peace process, from nuclear negotiations with 
Iran, to human rights abuses and conflicts throughout the 
world, and of course, urgent concerns in Ukraine. Today we 
expect updates and insights into how your budget request will 
address these and other threats to peace, stability, and 
security.
    Mr. Secretary, I have often hoped for Middle East peace in 
my lifetime, and I strongly support your efforts to facilitate 
a two-state agreement that ensures security for our ally 
Israel, understanding there are very difficult issues yet to be 
resolved. We look forward to your assessment of the Israeli-
Palestinian negotiations.
    We all agree we must make it impossible for Iran to make a 
nuclear bomb, but the clock is ticking on reaching a final 
agreement. Do we have a set of hard requirements, a bottom line 
that we need in order to get to an agreement? I remain 
skeptical of Iran's intentions, especially given their 
unyielding position against any dismantlement of their nuclear 
infrastructure. Would any final agreement prohibit Iran from 
having a heavy water reactor at Arak, or advanced centrifuges 
that require Fordow to be closed?
    Additionally, I hope you will address our relationships 
with Egypt and Saudi Arabia, two important allies in the Gulf. 
While the United States cannot compromise our principles, we 
must acknowledge the difficult and volatile circumstances in 
the region and work to ensure our actions do not alienate our 
long-standing strategic partners.
    With regard to Syria, there seems to be a stalemate. 
Destruction of chemical weapons has not occurred per the 
agreed-upon schedule. The Assad regime continues to commit 
despicable atrocities against innocent civilians. Jordan, 
Lebanon, and Turkey are burdened under the strain of refugees. 
Please tell us about contingency planning in light of the very 
real potential of a completely destabilized region and renewed 
sectarian violence in Iraq.
    In Afghanistan, as the administration considers reducing 
our military footprint, I hope you can reassure us about our 
ability to sustain the gains in security, health, education, 
and women and girls empowerment so that countless lives will 
not have been lost in vain.
    Last week, the House worked quickly to pass Chairman 
Rogers' and my loan guarantee bill to support Ukraine. It 
appears the markets are already punishing Russia, and actions 
by the IMF and EU may soon exacerbate the repercussions. While 
Russia's overarching foreign policy goals are not entirely 
clear, I hope to hear details on the prospects for deescalating 
this crisis, the future of the United States' relationship with 
Russia, and the impact of these tensions on both negotiations 
with Iran and the situation in Syria.
    Mr. Secretary, it is clear that the administration's robust 
diplomacy and development request is needed now more than ever 
before to address these challenges and countless other global 
priorities. Our investments in education, health, women's 
political participation, climate change, food security, public 
diplomacy, bilateral family planning assistance, and UNFPA 
activities, to name just a few, improve lives, expand economic 
opportunity, and inherently make us more secure. That is why I 
urge you to rectify one critical shortfall in the budget 
request--the failure to prioritize international basic 
education. I will state the obvious. Education is fundamental 
to all other development outcomes, and is the cornerstone of 
strong, stable societies. No country has reached sustained 
economic growth without achieving near universal primary 
education. Health and child survival, poverty reduction, and 
women's advancement all leap forward with a strong educational 
foundation. With 57 million primary school-age children around 
the world out of school, our job simply is not done.
    With great respect for your wisdom, integrity, and hard 
work, thank you again for joining us. We look forward to your 
testimony.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Granger. I will now yield to the chairman of the 
Appropriations Committee, Mr. Rogers, for his opening 
statement.

                  Opening Statement of Chairman Rogers

    Chairman Rogers. Thank you, Madam Chairwoman. Mr. 
Secretary, thank you for being here. I am not sure you know 
what time it is, given the schedule that you are under around 
the world. Thank you for your service. It must be very tiring, 
but challenging.
    Mrs. Lowey and I are determined as chairman and ranking 
member of the full committee to pass all 12 individual bills 
this year, to save you the tyranny of these continuing 
resolutions, which are herky-jerky, and your staff can't make 
proper plans on how to spend the money and the like. So we are 
determined to pass those 12 bills through both bodies and have 
them signed by the President to allow contemporary needs to be 
addressed rather than putting spending on automatic pilot based 
on last year's needs, whatever they were at that time. So it 
will be a challenge, but we are determined to work with Ms. 
Granger and all the other subcommittee chairs to get these 
bills out of here.
    Unquestionably, the time that you are serving in in the 
world has got to be one of the most difficult periods we have 
been through, with problems seemingly on every corner, in Syria 
and the neighboring countries, in Iran, regional instability, 
challenges with the transition in Afghanistan, the need for a 
peace agreement in the Middle East that has eluded so many 
Secretaries before you, and continued drug trafficking, and 
violence in South and Central America. There are no easy 
answers to these complex international challenges. Certainly, 
each of these unique situations calls for strong U.S. 
leadership, and in particular, we are all concerned these days, 
of course, about Ukraine and its territorial integrity.
    As Ms. Lowey has said last week, the House passed $1 
billion loan guarantee for Ukraine, and we are waiting now on 
the Senate, and I would hope and trust that the Senate would 
send back an unencumbered loan guarantee bill, as clean as we 
sent it to them. This is no time to try to attach riders to 
something of this importance, and I would hope that the 
Secretary would talk to his colleagues in the Senate and speak 
to them of the wisdom of sending a clean bill back over to us.
    We will be working hard to try to figure out with you the 
proposed spending of the $48.5 billion in discretionary funds 
in this subcommittee's jurisdiction to help you achieve these 
disparate goals around the world this year. We look forward to 
working with you to prioritize your most important needs, and 
we would hope that you would communicate to us that 
information. All of us know that this is a difficult period of 
time financially for our country, not to mention the 
difficulties you face internationally.
    On a more personal note, let me take a moment to thank you 
and those under your charge for assisting a constituent of mine 
whose young daughter is a victim of international parental 
child abduction. This incredibly strong mother testified last 
week before the Senate Foreign Relations Committee about how 
this growing challenge has impacted her family and so many 
others similarly situated. Last year over a thousand children 
were reported abducted from or retained outside the U.S., so I 
appreciate both your attention and efforts by the Department to 
engage bilaterally and multilaterally with foreign governments 
to encourage the safe and timely return of American children to 
their homes.
    We have some difficult choices ahead on our side of the 
bench, as do you on that side. We hope that we can move in 
parallel to help solve the difficulties that you face. Thank 
you, Mr. Chairman.
    Ms. Granger. Secretary Kerry, please proceed with your 
opening remarks. Your full written statement will be placed in 
the record, so feel free to summarize your statement.

                  Opening Statement of Secretary Kerry

    Secretary Kerry. Thank you very much, Chairwoman Granger 
and Ranking Member Lowey, Mr. Chairman Rogers of the full 
committee. Let me just thank all of you, first of all, for your 
very generous comments of understanding of the complications of 
the world we are living in today, but also I just want to thank 
you for your thoughtful and substantive consideration of all of 
these issues that face us. We are deeply appreciative for the 
leadership that this committee brings to the country.
    I, as you all know, have spent a lot of time up here, 29-
plus years, and in that time, I have learned that choosing to 
be on the Foreign Relations Committee or the Foreign 
Appropriations Committee, et cetera, is not necessarily 
automatically the easiest thing to explain at home, and it 
doesn't always result in some of the direct claims that you can 
make about ways in which you have assisted your district, but 
on the other hand, I think it does because you assist them by 
advancing the values and the interests of the country and by 
helping us to increase American security and stability in the 
world, all of which comes home to roost one way or the other, 
either in jobs for districts, States, for the country, but also 
in the safety and security that we are able to achieve as a 
result of that.
    Let me just say that I am privileged to lead a remarkable 
department with men and women all over the world. We have just 
held our several days' conference of all of our chiefs of 
mission called back to Washington. Susan Rice spoke to them 
yesterday. I spent a fair period of time doing a sort of open 
meeting with them as well as other meetings we have had, and it 
is really intriguing to see the energy and interest and passion 
that they all bring to the effort to represent our country 
abroad, and some remarkable 70,000 people in total in various 
ways, civil service, foreign service, local employees, 
particularly local employees make a huge difference to our 
ability to do our job, and I want to salute all of them.
    You have each, in your opening comments, focused on the 
complications of the world we are living in today, different 
from anything any of us might have imagined. Vastly different 
from the world as bipolar East-West, Cold War, and even 
different from the early years of exuberance in the fall of the 
Berlin Wall. Now there are sectarian, religious extremists, 
terrorists and other challenges released as a consequence of 
the fall of those countries and the changes in those countries, 
and so we are challenged, and I believe it is important for us 
to get caught trying to change things.
    That is who we are in the United States. And I cannot tell 
you how much it has been impressed on me in all of the journeys 
I have made on behalf of the President and our country how much 
people do look to the United States of America. I hear it again 
and again and again everywhere. It is our responsibility to 
help to make a difference in lots of different situations, and 
we have to be clear-eyed about the challenges, and obviously 
the environment has to be ripe for a breakthrough in one place 
or another, but particularly, for instance, in Ukraine.
    Congresswoman Lowey, you mentioned the need to try to find 
a diplomatic solution, and our interest is in protecting the 
sovereignty, the independence, and the territorial integrity of 
Ukraine with our European partners and others, and we have a 
responsibility to be engaged, and we are engaged. We also have 
to be willing to try to sit down and deescalate the situation, 
as you said, Congresswoman Lowey. That is why President Obama 
has asked me to leave tomorrow evening and fly to London to 
meet with Russia's Foreign Minister Sergei Lavrov on Friday, 
and I will do that, and we have had previous conversations. As 
you know, we spoke earlier this week. The President has talked 
several times to President Putin.
    I will make clear again, as I have throughout this crisis, 
that while we respect obviously that Russia has deep 
historical, cultural, and other kinds of interests with respect 
to Ukraine and particularly Crimea, nothing justifies a 
military intervention that the world has witnessed. There are 
many other legitimate ways to address Russia's concerns, and we 
are trying to make that very, very clear. In my discussions 
with Minister Lavrov I have made it clear that there are many 
reasons for Russia to choose a path of deescalation and of 
political solution here. We believe that interests can be met 
and that, most importantly, the desires of the people of 
Ukraine can be respected and that the international law can be 
respected. We do not seek a world in which we have to apply 
additional costs to the choices that have been made thus far.
    We don't think anybody is more served, better served not 
for the interests of our efforts in Iran, not for the interest 
of our efforts in Syria, not for the interest of our efforts 
with nuclear weapons or Afghanistan or many other places by 
isolating Russia, but we will do what we have to do if Russia 
cannot find the way to make the right choices here, and our job 
is to try to present them with a series of options that are 
appropriate in order to try to respect the people of Ukraine, 
international law, and the interests of all concerned.
    So we will offer certain choices to Foreign Minister Lavrov 
and to President Putin through him and to Russia with hopes, 
and I think the hopes of the world that we will be able to find 
a way forward that defuses this and finds a way to respect the 
integrity and sovereignty of the State of Ukraine.
    It couldn't be any clearer. What you all do here and what 
we talk about here today really matters, and when I think about 
that, I can't help but recall standing in Kiev just a few days 
ago near the Maidan on Institutska Street right at the spot 
where so many were struck down by the snipers, looking at the 
bullet holes up and down lampposts, looking at these 
extraordinary memorials that people have spontaneously built, 
stacks of flowers, candles, photographs, and juxtaposed to the 
street which was filled with these extraordinary barricades of 
bedposts and tires and all kinds of detritus, and a street that 
was covered in a film of the results of the fires that had been 
lit and the burning that had taken place and the chaos that had 
ensued.
    What came through to me were the voices of the people I 
talked to on the street, telling me how much they wanted to be 
able to determine their own future and how grateful they were 
for our support and assistance and how they just wanted to be 
able to live like other people. One man particularly struck me, 
he had come back from Australia, and he said, you know, I saw 
how other people are living, and we just want to be able to 
make the same choices and live the same way. What we do is true 
not just for Kiev, but it is true in so many places, and some 
places that don't always get the headlines.
    It matters in a place like South Sudan, a nation that Frank 
Wolf and some of you helped to give birth to, a nation that is 
now struggling and needs our support in order to be able to 
have a chance to survive its infancy. It matters in the Maghreb 
where the State Department is coordinating with France to take 
down al Qaeda, making sure that French forces have the 
technology and the weapons that they need. What we do matters 
to us in terms of what we do in central Asia, where we are 
working with several nations to stop the trafficking of 
narcotics, to keep more heroin off our streets, and to cut off 
financing for terrorists and extremists.
    What we do matters in the Korean peninsula, where we are 
working with our partners from the Republic of Korea to make 
sure that we can meet any threat from North Korea and to 
continue to push for the denuclearization of North Korea. I was 
just in China, we can talk about that a little later if you 
want. But thanks to the State Department's work, the South 
Koreans are now making the largest financial contribution to 
these efforts in the peninsula in the history of our joint 
security agreement. What we do matters from Bosnia to Indonesia 
in our work with NGOs and civil society groups to defend 
religious freedom, protecting the universal rights of people to 
practice their faith freely and working to bring an end to the 
scourge of Anti-Semitism.
    This isn't just what we do in this budget, this is an 
essential part of who we are as Americans. I firmly believe 
that in this increasingly interconnected world, global 
leadership isn't a favor that we do for other countries, as you 
mentioned, Madam Chair, it is vital to our own strength. It is 
vital to our security and the opportunities that we can provide 
for our children.
    Now, I have spent enough years here to know that you 
shouldn't call anything that costs billions of dollars an 
automatic bargain, but when you consider that Americans, the 
American people pay just one penny of every tax dollar for the 
$46.2 billion in investments in this request, I believe the 
American people are getting an extraordinary return on their 
investment.
    We have kept our funding request in line with what was 
appropriated to the Department and USAID in fiscal year 2014 
within our base request of $40.3 billion, and the additional 
part of our request for OCO, Overseas Contingency Operations, 
totals $5.9 billion. With OCO funding we support programs, as 
you know, in Iraq, Afghanistan, and Pakistan as we continue to 
right-size those commitments. These resources also provide the 
U.S., the State Department and USAID with the ability to 
respond to the humanitarian crisis in Syria and flexibility to 
meet unanticipated peacekeeping needs.
    I know it is easy for some in Congress to support larger 
cuts in the budget, but what is impossible to calculate 
completely is the far greater price our country would pay for 
inaction on many of the things that we are facing today. It is 
impossible to calculate the dangers in a world without American 
leadership and the vacuum that that would create for extremists 
and ideologues to exploit, but I am telling you without any 
doubt more deeply than I ever believed it before when I chaired 
the Foreign Relations Committee, this year has impressed on me 
the degree to which if we aren't engaged in these things, we 
will pay the price somewhere down the road for the vacuum that 
will be created and for the dangers that will come to our 
country as a result.
    For me it is no coincidence that the places where we face 
some of the greatest national security challenges are also 
places where governments deny basic human rights to their 
nation's people, and that is why development assistance, 
investing in our partnership with our allies, and supporting 
human rights and stronger civil societies is so critical. These 
are the surest ways to prevent the kind of tragedy that we are 
seeing unfold in Syria today.
    Now, I know that Frank and others of you have seen these 
horrors firsthand, as have I. You have looked into the eyes of 
refugees. There is simply no way to articulate how important it 
is for the richest, most powerful Nation on this planet to do 
its part to try to make the world a safer and a better place. 
For the Syrian people, for Lebanon, Turkey, and for Jordan 
coping with how to keep their societies running and keep 
extremists at bay while they host millions of now refugees, our 
support is critical to that. We are the largest donor in the 
world, and that helps us because it is critical to us that 
Lebanon and Jordan remain stable.
    With our assistance to one of our oldest allies in the 
Pacific as it recovers from one of the worst natural disasters 
in history, Typhoon Haiyan, we are also leading the way. 
Through an $56 million contribution from State and USAID to the 
Philippines, we are working with our partners so that hundreds 
of thousands of people literally can put their lives back 
together, and I visited that devastation and saw how it just 
flattened that community in a matter of minutes.
    With our core budget request, there is a $1.35 billion 
contribution to the Global Fund to Fight AIDS, Tuberculosis and 
Malaria and the goal that President Obama has set today for an 
AIDS-free generation would have been absolutely unthinkable 10 
years ago--it was, I am telling you--because I wrote the 
legislation with Bill Frist in the Senate that created the 
first effort on AIDS, and we got the support of Jesse Helms, 
and the story since then with President Bush growing it into 
PEPFAR and all of the things that have happened is an amazing 
story for the United States of America and for the world, and 
an accomplishment, and we are now working to transition the 
leadership of these life-saving programs to local hands, with 
Rwanda, Namibia, and SouthAfrica, some of the first to take the 
reins.
    Because of our leadership, children are waking up today in 
Sub-Saharan Africa who face a very different future from what 
they did only 10 years ago, and just as our partners in Asia 
and Europe make a transition from being recipients of American 
aid, 11 of the 15 countries that we used to give aid to, the 
biggest aid recipients, are now donor countries. Remarkable 
story. Korea, a donor country, was a major recipient of aid and 
so forth. We can be proud of this. Americans, I think we need 
to talk about it more. We need to get people to see the huge 
benefit of this one penny on the dollar investment, and part of 
making sure that African nations and many other emerging 
markets make the most of opportunities in approving reforms to 
the International Monetary Fund is going to be a critical part 
of that.
    I think all of you know the IMF has been a central part of 
the transformation of so many countries, and it is also 
important to greater trade with people in our own hemisphere as 
well as right here at home, and particularly for trade with 
Brazil, Chile, Colombia, India, Korea, Mexico, Peru, the 
Philippines, Thailand, all of whom once borrowed from IMF and 
now are some of the most powerful traders in the world.
    So I will just close by saying to you that Ukraine's 
struggle for independence, particularly its financial 
independence, will depend on Congress ratifying reforms that 
will help Ukraine borrow through the IMF's rapid financing 
instrument. Our $200 million investment and sovereign loans are 
needed urgently, but it is only through the IMF, a reformed IMF 
that Ukraine is going to receive the additional help it needs 
in order to stand on its own two feet.
    We are doing, I think, amazing stuff out of many of our 
embassies, consulates around the world, and I just say to you, 
look at the advocacy from Embassy Lusaka that helped a New 
Jersey-based firm win an $85 million contract to build 144 
bridges in Zambia with the potential to grow to $250 million 
contract. That is jobs at home. That is U.S. tax benefit, and 
strengthening of our economy.
    Our consular staff in Calcutta helped bring an Illinois-
based Caterpillar together with Sasan Power Limited on a $500 
million deal to develop 396 megawatt power plant. Embassy 
Wellington and Embassy Apia in Samoa helped TE SubCom, a 
company based in New Jersey, land a $350 million contract to 
lay fiber optics across the Pacific. When 95 percent of the 
world's consumers live outside of our market and when foreign 
governments are out there aggressively backing their own 
businesses, believe me, this is the kind of advocacy that 
American workers need to compete, and that is why I have said 
since day one of becoming Secretary of State, economic policy 
is foreign policy, and we have just talked about that with all 
of our embassy chiefs and mission chiefs who come back to 
Washington. We have put in place a very strong economic team, 
and we believe that it is critical to be able to strengthen 
that.
    So Madam Chairwoman, this budget keeps our ironclad 
partnership with Israel intact, $3.1 billion in security 
assistance, and as we make these investments around the world, 
we can never eliminate every risk, especially in a world where 
our vital interests are not confined to secure and prosperous 
capitals, but we can and will mitigate these risks, and we have 
been in implementing the ARB and working off the lessons 
learned in Benghazi. This budget does that, and it does more. 
It implements all of the recommendations of the independent 
Benghazi Accountability Review Board, and it makes additional 
investments that go above and beyond that.
    Every week I am sitting with our team to evaluate the 
threats against a number of different embassies, the levels we 
have drawn down, we have added back, we have had authorized 
departures, we have had mandatory departures. It is a constant 
challenge, but I believe we are meeting that challenge 
appropriately and allocating our resources in a way that best 
protects the men and women serving our country.
    I believe this budget strikes a balance between the needs 
to sustain long-term investments in American leadership and the 
political imperative to tighten our belts here at home. I 
believe the budget is a blueprint for providing the minimum our 
people need to be able to carry out their mission, and to 
enhance national security and promote global stability.
    I will just close by saying to you it is never, and that is 
not a budget that we would like to have, this is the budget we 
have to have under the circumstances of the budget agreement, 
and that is a longer conversation. Maybe we will get into some 
of that today. Thank you, Madam Chairwoman.
    Ms. Granger. Thank you, Mr. Secretary.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you for your detailed discussion on 
Ukraine. This subcommittee and the Congress also understands 
the urgency, which is why we passed so quickly the $1 billion 
loan guarantee, and we understand that the administration is 
also going to redirect existing funds to provide technical 
assistance to the government ministries. My concern I would 
like you to discuss first is the funding for Europe and Eurasia 
that is reduced in your fiscal year 2015, it goes down by 18 
percent from the levels in fiscal year 2013. So how does your 
budget request help to support other countries in the region 
that may also feel threatened and want to continue to work with 
the United States and the western partners?
    Secretary Kerry. Well, Madam Chairwoman, we actually 
believe the fiscal year 2015 request includes $1.4 billion, 
which is 8 percent above 2013 for operations and assistance 
programs in the Asia-Pacific region to do a number of things: 
Deepen the alliances, expand and strengthen partnerships, 
support ongoing operations. We have had to do some trade-offs, 
but where we have done some trade-offs there is money we 
believe in the pipeline, and we are able to keep up the current 
efforts, so we don't believe it is a reduction in effort at 
all. We think it is an increase overall because of the way in 
which we have been able to shift additional support. So, you 
know, in our judgment we are positioned as powerfully as we 
have ever been within the region. I literally just left a 
meeting with our East Asia-Pacific, all of our representatives 
talking about how we are dealing with Japan, South Korea, 
China, North Korea, ASEAN, enforcing our interests with respect 
to the South China Sea and dealing with additional efforts.
    Ms. Granger. My concern was Europe and Eurasia.
    Secretary Kerry. Well, in Eurasia we have 217.8 million, 
which is 44 percent of the EUR bureau's entire request, 44 
percent, and we are going to prioritize funding for Georgia, 
Ukraine, Moldova, supporting reforms necessary for European 
integration and so forth.
    In the Balkans we have 27 percent of the EUR entire bureau 
request, and our European partners represent about 10 percent 
of the EUR request. So I think we are targeting this to support 
democratic, the democratic transformation process and reforms, 
economic, military, justice sector. We really believe while it 
is a decrease, the largest dollar amount decreases are in 
Poland and Kosovo, where we think we have made up for it 
through both European presence as well as the success that has 
taken place there.
    Ms. Granger. I would like to talk to you about the later 
also. But I will go on. The other concern has to do with Egypt 
and there are a lot of changes that have occurred. One of the 
changes that hasn't occurred is the importance of our 
relationship with Egypt, and the administration's policy to 
withhold the delivery of the military equipment has brought a 
lot of questions from the Egyptians to this subcommittee and 
certainly to me. It sent a message to the Egyptians, but they 
are not sure what the message is. So it has left members of 
this committee wondering what the policy is, especially when 
the peace treaty with Israel is being upheld.
    In fact, the Egyptians and Israelis are communicating 
better, they say, than they ever have. The Egyptian military 
continues to cooperate with the United States and is taking 
actions that really are very encouraging, destroying the 
smuggling tunnels in Gaza. So as this continues, I am concerned 
and members of the subcommittee are concerned that we have not 
resumed our assistance and what is happening to Egypt in the 
relationship, which has been so important having to do with 
this equipment.
    Secretary Kerry. Well, Madam Chairwoman, you raise a lot of 
very important points about what Egypt is doing and about the 
importance of the relationship. We don't disagree at all about 
the importance of the relationship. Egypt is a very vital 
relationship. It is a quarter of the Arab world. It has always 
been sort of the hub of the region, if you will. It faces some 
enormous challenges right now, and we are well aware of that.
    We want this interim transitional government to succeed. We 
are committed to try to help make that happen, but they need to 
help us to help them at the same time by implementing some of 
the reforms that we have been talking with them about with 
respect to inclusivity, journalists, some of the arrests and so 
forth. We have had these conversations. I met with the foreign 
minister of Egypt just this past week abroad. We had a very 
good conversation about it. I have had a number of telephone 
conversations, including with him, with foreign ministers as 
well as with Field Marshal Al Sisi most recently. It is our 
hope to be able to make that transfer providing there is a 
conclusion drawn by our team with respect to some of the things 
we have been anticipating them doing, but I can't deny that 
their efforts on security in the Sinai, their efforts on 
security in enforcing the peace, the truce with Hamas and Gaza 
has been very, very important, and we have a strong security 
relationship with them, strong military-to-military 
relationship. They want that to be strong, we want it to be 
strong, and I am hopeful that in the days ahead I can make the 
appropriate decision, and when I say days ahead, I mean short 
term.
    Ms. Granger. So you----
    Secretary Kerry. It is up to me. I have the certification, 
thanks to you. You all worked very hard with us on the 
language, we are very appreciative of the language that, the 
standard you have adopted, and I am very, very hopeful that in 
very short order we will be able to move forward.
    Ms. Granger. So we won't wait for a new President, new 
parliament, we will do it before that?
    Secretary Kerry. I can't absolutely say with certainty, but 
it is our hope to be able to do that very soon.
    Ms. Granger. My last question, and this is also on Egypt, 
has to do with the extremist groups that are based in the 
Sinai, the level of sophistication, what is happening there. 
Hundreds of Egyptian police and military have been killed. So 
now the way we understand it is that these terrorists are also 
targeting tourists, which of course hurts Egypt, hurts us and 
hurts Egypt's progression. Can you tell me what we are doing 
about that or any updates on the situation?
    Secretary Kerry. We are cooperating very, very closely, and 
I am pleased, you know, that cooperation has never changed in 
this process. It is security cooperation. We cooperate with 
Israel also on it. Israel is very engaged in also dealing with 
this it is a challenge for the region. The principal group 
there is a Ansar Bayt al-Maqdis, which is engaged in not just 
attacks against interests in the Sinai itself, but there is 
some evidence that they are playing outside of that and into 
Cairo and other parts of Egypt itself.
    So it is a serious threat. We all take it seriously. That 
is one of the reasons why we would like to be able to get the 
Apaches up here and meet this standard. They have some 33 
Apaches, not as many are flying; unfortunately, there are very 
few that are flying capable right now, which is why that is a 
pressing issue, and they need them with respect to the 
prosecution of our counterterrorism efforts in that region. But 
we are deeply engaged providing different kinds of assistance, 
some of which I can talk about here and some of which we would 
have to talk about in a classified session.
    Ms. Granger. You can see why it's confusing, however, we 
understand there is a problem, and this equipment could help 
the problem. Mrs. Lowey.
    Secretary Kerry. I get it, and I have talked to them very 
directly about that. I think they understand things that need 
to happen here, and I think my hope is, again, that in the next 
days, we will be in a position to be able to move forward.
    Ms. Granger. Thank you. Mrs. Lowey.
    Mrs. Lowey. Thank you, again, Mr. Secretary, and I 
particularly appreciate your activity with regard to Ukraine, 
but of course there are many other questions we have to ask. I 
would ask for you to keep us up to date on your conversations 
with Foreign Minister Lavrov. I can remember meeting with you 
in July and asking what does Russia want with regard to Syria? 
What does Russia want with regard to Iran? And I have a feeling 
we will still be asking that question, but I appreciate your 
actions and your positive steps.
    I want to pursue some questioning on the Israeli-
Palestinian peace process. During many of our discussions, I 
have said I hope to see peace in the Middle East in my 
lifetime. The press reports that Israel and the Palestinians 
remain divided on all the major issues, including border 
security settlements, Jerusalem, Palestinian refugees and 
recognition of Israel as a Jewish state.
    So first of all, I would like you to update us on the 
progress of renewed negotiations between the Palestinians and 
the Israelis, and in particular, is it possible for the parties 
to reach an outline for a final deal by April 29th? Should an 
extension be necessary, would an agreement to extend talks 
require Israeli and Palestinian signatures? I know that 
President Abbas is due at the White House on March 17. Abu-
Mazen has stated that without an agreed framework, the PA would 
resume their drive to join the U.N. and other international 
bodies.
    Do you believe that Abbas will revert to efforts to achieve 
member status at specialized agencies of the U.N.? Did the 
administration request waiver authority to continue funding on 
a case-by-case basis for U.N. entities such as the WHO and IAEA 
because you believe that Abbas will resume his U.N. campaign, 
and what is the administration's plan to forestall the PA's 
attempts to gain recognition in such organizations? Again, your 
energy has been extraordinary. I think 10 or probably 12 trips 
to that region of the world, and we appreciate your commitment. 
Could you discuss with us where you are and use some of these 
questions as a guideline?
    Secretary Kerry. Sure, I would be delighted to, but I hate 
to say it, but you are light on the number of trips. There have 
been much more in the region, about 12 or 13 to actually Israel 
and Palestine, or Palestinian territories.
    Let me answer your question. On the waiver, I want to go to 
the waiver just very quickly because then I will come back to 
the general situation. We would like a waiver, yes, we do want 
a waiver. We need a specific waiver, not because we feel they 
are going to go, but because we already, we can't vote at 
UNESCO. We have lost our vote, and we think that it is sort of 
a, you know, it is a policy that was meant to deter, but in 
fact, is hurting us more than it is deterring, and so has the 
prospect of doing that. If things were to fall apart, I can 
guarantee you that President Abbas will not be deterred by any 
consequence in terms of our loss of funding. That is not going 
to deter him. So our loss of vote or funding is our loss, and 
what happens is we actually lose our voice and our capacity to 
fight for Israel and to fight for other interests we have. We 
are stripped of that. If they act, it doesn't seem very 
sensible to put ourselves in that position. So we would like a 
waiver, and I think we will be coming to you to talk about 
that.
    I do believe there are ways that we can reach an agreement 
that would see an extension of the, I hope would be able to be 
reached that might be able to have an extension of that. I 
don't want to predict with certainty, but I would hope.
    Now, my bigger hope is that we can find a way forward that 
builds on the progress that is very hard to lay out to people, 
and you are just going to, I am afraid, have to take my word 
for it. While there are gaps, yes, and some of them very 
significant, yes, you have to see those gaps in the context of 
the negotiation. Certain narrative issues are so powerful and 
so difficult, that neither leader is going to definitively cede 
on them at an early stage of the negotiation. It is just not 
going to happen. They are big ticket items in the context of 
the trading and of the concessions that might or might not be 
made.
    So I am not going to talk about these in any kind of detail 
here today except to say to you that I believe progress has 
been made in certain areas, while great gaps, obviously, as I 
just described, do remain. Our hope is we can get some kind of 
understanding. I am not going to describe what it would be, but 
some kind of understanding ofthe road forward. I do believe 
both parties are serious, both parties want to find a way forward, but 
each of them, you know, the level of mistrust is as large as any level 
of mistrust I have ever seen on both sides. Neither believes the other 
is really serious, neither believes that both, that the other is 
prepared to make some of the big choices that have to be made here.
    I still believe it is possible, but difficult. And so we 
are going to proceed as privately as we have. I am not going 
to, with your understanding, I hope, and respect, lay out where 
the parties are or what the current tensions are over. I just 
don't think it serves anything. I have been the one pushing the 
hardest for them not to negotiate in public, and 
notwithstanding the best efforts, there have been huge 
restraints, I must say. Most of the details are not out in the 
marketplace of conversation, but there have been enough public 
dramatic statements of one position or another that I think 
gets in the way of the negotiation.
    So we are going to continue, President Abbas comes here 
this week, next week, we are looking forward to that 
conversation just as we looked forward to the conversation the 
President had with Prime Minister Netanyahu 10 days ago or so, 
and each of these is informative, each of them has helped to 
inch forward, and in this particular challenge, inches are 
acceptable and pretty good and helpful, and we are going to 
keep moving the way we are moving.
    Mrs. Lowey. I want to thank you. Because there are so many 
of us, I won't go on to another question, Mr. Secretary, but I 
just want to mention one of our very important grantees took a 
position with regard to the Palestinian boycott after the Soda 
Stream issue. I thought it was totally inappropriate, and I 
made it clear to them in a letter and in a public statement. It 
seems to me that when you have a business that is hiring 900 
people in the West Bank, employing both Palestinians and 
Israelis, that should be supported. We are investing economic 
development funds, and I know you are particularly focused on 
investing in economic development and going out to the private 
sector as well to raise those dollars.
    So for one of our grantees to support this boycott, 
divestment, and sanctions drive, I just wanted to put on the 
record that I thought it was outrageous. Thank you.
    Secretary Kerry. Well, thank you, and I think you know our 
position is we strongly oppose the boycott process.
    Mrs. Lowey. Thank you.
    Ms. Granger. Chairman Rogers.
    Mr. Rogers. Thank you, Chairwoman. Mr. Secretary, in a trip 
I made recently to Israel, the one thing I heard more than 
anything else there was the word "incitement," and it is plain, 
the PA especially, is teaching and preaching hatred of the 
Israelis, and that has got to be a major stumbling block to 
your efforts to bring a peace agreement about.
    In the omnibus bill that we passed in January, thanks to 
the work of Chairwoman Granger and Ranking Member Lowey, there 
was the provision added that requires you to certify to the 
committee that the Palestinian Authority is acting to counter 
incitement of violence against Israelis, and is supporting 
activities aimed at promoting peace, coexistence and security 
operations with Israel.
    This is an issue that is tough to deal with especially, but 
this, I think, gives you some ammunition to try to tamp down 
the incitement to violence and hatred of Israelis that has got 
to be a major stumbling block to the peace agreement. What do 
you think?
    Secretary Kerry. Well, it is a problem. It is a challenge, 
and it is very much on the table in our discussions; and if we 
get some kind of understanding of how we will go forward, it 
will include, I believe, a joint understanding of steps that 
need to be taken on both sides in order to deal with the 
problem of incitement.
    Mr. Rogers. But the law says that you have got to certify 
before you can deliver the money that we appropriated to the 
PA, before you deliver the money, you have got to certify to 
us----
    Secretary Kerry. It is a good lever. I appreciate it.
    Mr. Rogers. The question is, what are you going to do about 
it?
    Secretary Kerry. Well, I am going to make the judgment 
appropriately obviously; and hopefully we will have movement on 
that in the context of what we are doing here that will permit 
me to. If we don't, I won't.
    Mr. Rogers. The time is upon us. It is for fiscal year 
2014. No moneys can be delivered to the PA until you certify 
that they are fighting against incitement.
    Secretary Kerry. There are steps being taken. Is it enough 
at this point in time? Are there still problems with textbooks 
and some of the teaching and some of the camps, and I have seen 
videos and other things that are very disturbing. We have 
called them to attention, and we are working on it. So I hope 
to be in a position to be able to do that, Mr. Chairman; but I 
am mindful of my responsibility to do it appropriately.
    Mr. Rogers. When can we expect that?
    Secretary Kerry. Before we give them any money.
    Mr. Rogers. That is what I like to hear, but I am looking 
for a date.
    Secretary Kerry. Let me get through the next couple weeks, 
and maybe I can give you a quicker answer.
    Mr. Rogers. Well, we will be watching that. This, I think 
very, very thoughtfully on the part of the chairwoman and Ms. 
Lowey, a very thoughtful process by which pressure can be 
brought to bear.
    Secretary Kerry. Absolutely. No question. But let me say to 
you, it is something that is a concern within leadership. It is 
not always something that is controlled all the way down the 
chain. It is not always, you know, it is not always easily 
accessible. Even though one person may issue an instruction, 
some things don't happen. So it is a little more complicated, 
but we are working on it.
    Mr. Rogers. Well, but it is being taught in schools.
    Secretary Kerry. No. I understand.
    Mr. Rogers. It is being taught in the schools, and it is 
being taught in the marketplace and on the square and every 
other place, and it is being done with relish, incitement; and 
it seems to me if you could use this provision to sell Hamas 
and that side of the importance of tamping down that kind of 
incitement, it seems to me we would be a major step forward 
toward a peace agreement.
    Secretary Kerry. Mr. Chairman, I understand your concern, 
and we will address it.
    Mr. Rogers. Thank you, Mr. Secretary.
    Ms. Granger. We will now be going to members. It is a very 
active and involved subcommittee. I will remind the members 
that you have 5 minutes for your questions and that includes 
responses from the Secretary. If time permits, we will 
certainly have another round. I will now call Mr. Schiff.
    Mr. Schiff. Thank you, Madam Chair.
    Mr. Secretary, I wanted first of all thank you for the 
outstanding job you are doing. I don't know how you find the 
energy, but we are grateful that you are as good at the job as 
you are; and my compliments.
    I want to share a couple quick thoughts on Egypt and then 
ask you about Ukraine. I want to share a slightly different 
perspective than our chair, which always makes me nervous 
because our chair is outstanding, and when we disagree, it is 
because I made a mistake, which I only find out about later.
    But I completely concur with what Cairo has done in terms 
of cracking down on terrorism within its borders as well as 
assisting with cracking down on smuggling into Gaza and on 
Hamas. I think it has been outstanding; but I am gravely 
concerned that they are not only going after the Muslim 
brotherhood, but also jailing the secular opposition, jailing 
journalists, embarking on a campaign of deifying the new 
military leader; and it looks like we may be returning to the 
past, going back to another military government. And I think 
whither Egypt goes, the Arabs spring and the hopes for 
democracy in the Arab world go. And much as we want a 
relationship with Egypt and much as we don't like the Egyptians 
turning to our Russian, I can't say friends at the moment, 
nonetheless, I think that we have to make clear our strong 
support for democracy in the Arab world and Cairo's central 
role in that and the concerns that we have they are deviating 
from that path. Only tiny Tunisia is a ray of light at the 
moment.
    So I would urge caution and away from alacrity in terms of 
assistance. I would rather be supporting Egypt in their 
democracy building institutions than taking any actions that 
will be viewed not only by Egypt, but by others in the region 
as condoning a crackdown. It would be a return to a policy of 
supporting authoritarian regimes that are friendly to usrather 
than the democratic aspirations of their people.
    On Ukraine, I don't envy your job. Mr. Lavrov tells you 
they won't violate the territorial integrity of the Ukraine, 
and then they do. Mr. Putin says they don't have troops in 
Russia, and they do. They both say that they are there to 
protect the Russian population which is under no threat. It is 
clear they are going forward with a referendum and probably 
annexation under the barrel of a gun and that more sanctions 
are going to be necessary. I think it is going to be vital to 
impose real costs beyond the first round that the President has 
announced after Georgia and now Crimea.
    Can you share with us a little of your thoughts on what the 
sanction options may be, and I know you want to carefully 
calibrate them and continue to offer an exit ramp; but it looks 
like the Russians have no interest in heading to the exits and 
that further costs will have been to be imposed; and if you 
could share a few thoughts on what that might look like and 
whether our European partners are willing to undertake them 
with us, considering it will have a bigger impact on their 
economies than ours.
    Secretary Kerry. Thank you, Congressman Schiff, and thank 
you for your generous comments.
    On Egypt, our best source of leverage with Egypt really has 
been and remains the international legitimacy that is provided 
by the longstanding relationship with the United States and the 
realities, the practical applications that come from the 
military-to-military relationship and our ability to act as a 
convener on their behalf if they are doing things that are 
constructive and moving down the road to democracy, our ability 
to bring business in the global community to the table in order 
to help them economically.
    We are not exactly leveraging ourselves in terms of our 
aid. The UAE and Saudi Arabia have committed to some $13 
billion. As you know, I talked at length with chairwoman last 
year about how much we could take, and I think I took $195 
million; and that is all we released. We had the power to 
release more, but I wasn't comfortable with what I heard and 
now borne out by facts, so I didn't release the additional 
amount, which I am very grateful to the chairwoman for granting 
us the authority to do had we thought it was appropriate. I 
didn't think it was appropriate. But $195 million versus $13 
billion.
    So it is not our economic assistance that is our lever. It 
is this relationship, and I think it is important for us to 
leverage change there. We have spoken out forcefully, publicly, 
and individually to members of the government about arrests, 
about the young activists, about one of our employees, other 
people. And that is why I said to the chairwoman a little while 
ago, I am waiting to see a couple things I am hopeful can 
happen. I am not going to go in with any specificity except to 
say that we all share those concerns. President Obama has been 
very clear about the unacceptability of that move.
    But there is a delicate balance here. I mean, I am not 
excusing a delicate balance with respect to any of those 
things. Don't mistake that; but at the same time, they are 
trying to establish stability against violent acts that are 
purposeful to disrupt the economy, purposeful to go after 
tourists, purposeful to, you know, undo their ability to 
stabilize the situation; and it is this very complicated 
chicken-and-egg kind of vicious circle where you have got to 
get the stability to begin to attract the capital, to begin to 
attract the tourists; and if you can't do that, and the 
politics stay in turmoil, it is harder to make it work, and 
people who are keeping the politics in turmoil know that, so 
you get in a trap.
    And the question is where and how do you sort of break out 
of that. Hopefully through good politics. Hopefully through the 
election, through the reforms, through the inclusivity, through 
the respect for freedom of the press, through the respect for 
the right to protest; and that will bring people together 
sufficiently that where there is real terrorist violence, et 
cetera, people can distinguish between the appropriate level of 
law enforcement against that versus the system that is working 
in other respects. That is our hope, and that is what we are 
trying to help structure.
    I know the light is flashing. I will just go very quickly 
on Ukraine. I am not going to go into all of the sanctions. We 
have been pretty explicit about the visa sanctions, banking 
sanctions, targeted business sanctions, individual kinds of 
sanctions. I don't want to go into all of the detail except to 
say this: It can get ugly fast if the wrong choices are made, 
and it can get ugly in multiple directions.
    So our hope is that, indeed, there is a way to have a 
reasonable outcome here. I will not be quite so definitive as 
you have been that it is clear they will "annex" Crimea. They 
may well, but they may have the referendum, have the vote and 
not move in the Duma to do the other things. Or now I hear talk 
about the potential of secession as an alternative and so 
forth. That obviously, in our judgment, would be contrary to 
the constitution of Ukraine and an illegal act; and I am not 
sure that it would be recognized under those circumstances.
    So there are a lot of variants here, which is why it is 
urgent that we have this conversation with the Russians and try 
to figure out a way forward. We have exchanged some thoughts. 
We haven't had a meeting of the minds on that, but we have 
agreed to try to find a way through the thoughts as exchanged 
to see if there isn't some way to find a reasonable way 
forward, and we will make the best efforts to do that.
    We have Prime Minister Yatsenuk, he will be here today. I 
will be meeting with him after this hearing, and then he will 
be meeting at the White House; and we will have a better sense 
from Ukrainians, who, after all, really are the ones who have 
the choice here. Not us. It is what do they feel is acceptable, 
and what do they feel is the way forward, and we will talk with 
them about that.
    Ms. Granger. Thank you. Mr. Wolf.
    Mr. Wolf. Thank you, Madam Chair. Mr. Secretary, thank you 
for your service; and, every time I see you in the paper, your 
time away from your family, so I want to thank you for your 
service in the Senate but also your service here. I think you 
are really working hard. You probably have the toughest, 
toughest, toughest job.
    I have two questions. You really don't even have to answer 
them because I would like you to think about them rather than 
having an answer that gets a story and nothing happens. The 
first question is on Sudan. You know more about Sudan frankly 
than I think anybody else. You know more about Sudan than I 
know about it. I remember once you were over on the House floor 
and I came up to thank you. I think you spent a whole week 
there that one time. I had written a letter. I would like you 
to just think about bringing in the Bush Library and President 
Bush to work under you and under President Obama. Salva Kiir 
still wears the cowboy hat that President Bush gave him. There 
was a quote whereby the South Sudanese Ambassador in Washington 
welcomed the idea saying, "When you have a deadlock, you need 
someone to break the ice and bring the people together."
    If you just think about bringing in the Bush Library or 
bringing in President Bush, the same way that President Obama 
brought in President Bush and Clinton on Haiti, because there 
is so much going on in the Department, and I know President 
Bush wouldn't engage unless you said you wanted him to and 
unless the President said he wants him to. I think you can make 
a big difference.
    The second question, and, again, you don't have to answer 
this. I just want you to think about it. I was the author 
several years ago and this committee of the Iraq Study Group, 
the Baker-Hamilton Commission. I think they interviewed you, I 
read during the process. And a group of us, Mr. Schiff was one, 
Anna Eshoo and a group of others sent a letter asking would you 
engage with the Atlantic Council and/or maybe the U.S. 
Institute For Peace, which has been funded by this committee to 
look at, maybe let's call it a Syrian study group to work under 
you. Secretary Rice gave approval of the Iraq Study Group 
because you can't contract foreign policy out to an independent 
group. But working with you or working with Secretary Burns, 
who is a great guy, and bring in the best minds, bipartisan, 
take 3 months, people that you like, people that can come 
together, but with the Iraq Study Group when you had Baker and 
Hamilton coming together. So there are two questions to think 
about. You don't have to answer it. I'm not going to put you on 
the spot.
    Secretary Kerry. I appreciate that.
    Mr. Wolf. On Sudan to bring in the Bush Library for 
reconciliation, for economic development, for a lot of things, 
working for--let me make it clear, not freelancing; working 
under you and President Obama, and would you consider the 
Atlantic Council and/or the U.S. Institute For Peace, or if you 
get a better group, to bring them in to do the same thing that 
was done on the Iraq Study Group to see if we canWe are 
reaching a third year, if we can do something that would help 
you and us. Thank you.
    Secretary Kerry. Good thoughts. I appreciate them both. The 
only thing I would quickly say to you is that I gave Salva Kiir 
several cowboy hats because I thought he ought to have a 
Democrat hat, too; and on some days he wears that, one I am 
glad to say.
    Ms. Granger. Thank you. Ms. Lee.
    Ms. Lee. Thank you, Mr. Secretary. It is always good to see 
you. Thank you for being here. Also, let me just, once again, 
acknowledge your tremendous commitment, focus, and hard work at 
the State Department as Secretary as well as those of your very 
dedicated staff.
    I am glad you mentioned, and thank you for mentioning 
PEPFAR and the global fund and the real-life saving and life-
affirming value of United States taxpayer dollar contributions. 
As you know, it was the Congressional Black Caucus here on the 
House side which led this effort, and we certainly never could 
have gotten the legislation through the Senate had it not been 
for your bold and brilliant leadership as well as that of 
Senator Frist and Senator Helms. I always remind the public 
that it was an example of the success of bipartisan and 
bicameral relationships, agreements and really a focus on the 
fact that we should come together to save lives and to work for 
an AIDS-free generation, just as this subcommittee and 
committee continues to do.
    I am concerned, however, that PEPFAR really has been flat 
funded for a couple of years in your budget and that the global 
fund has been cut now by $300 million. I am worried that 
possible donor nations will not cede a real incentive to make 
their hopefully significant contributions to the global fund if 
we are cutting our contribution. And so I would like to hear 
some assessment of how you see that moving forward because we 
are at a critical and defining moment, as youknow, in the fight 
for an AIDS-free generation.
    And secondly let me just mention the whole issue of Uganda 
and the LGBT laws that we are seeing in Africa and around the 
world. I understand that your administration is doing a review 
of our relationship with Uganda in light of the recent bill; 
but I want you to, or at least I am encouraging you to look at 
other countries and review other countries where we have 
significant global and HIV funding which also have similar laws 
on the books, and you will be receiving a letter from members 
of the Congressional Black Caucus very shortly on this.
    Secretary Kerry. Thank you very much, Congresswoman. I 
really appreciate your passionate support for this. We wouldn't 
be where we are today without you and a lot of other folks who 
supported it. Let me just say very quickly--first of all, why 
don't I answer the Uganda piece first. I spoke to President 
Museveni recently, and we had a conversation about this. We 
talked to him several times before the signing. We obviously 
opposed the signing of the bill, and he agreed to have some of 
our experts come over and meet with him and sit with him and 
listen to them and sort of reopen it; and so we are going to 
continue that conversation with him. But during that process, I 
learned that there are 80 countries that have similar types of 
laws, restrictions on the books, 80 countries, and we deal with 
all of them. So we have a big task. We are doing what you just 
suggested about looking at the others and figuring out the road 
ahead, and we have talked about it with our mission chiefs in 
the last few days. We need to start reaching out, and we are 
going to.
    This will be a distinct platform of our approach with 
respect to rights, human rights, and the LGBT community 
globally will know that the United States is going to really 
actively, proactively, reach out and talk to those countries.
    With respect to the global fund, we have $1.38 billion in 
the global fund allocation, our request. And that honors the 
President's commitment to provide $1 for every $2 that are 
going to be provided here, and what we feel is that in the 2015 
request, we are more than fully funding our pledge based on the 
current commitments of other countries, and we think it is 
adequate to the task at this point in time.
    So the President's Opportunity, Growth and Security 
Initiative, if enacted, would provide an additional $300 
million for the global fund. So this bounces back to you all as 
to whether or not we can get that enacted, and then we could 
plus it up a little bit more, but I do believe we will be able 
to meet the targets and meet our goals.
    Ms. Granger. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman and 
Mr. Secretary again. Always good to see you, sir.
    So many issues in the world, but I would like to bring it 
closer to home, to our hemisphere. Let me just kind of toss 
three issues out there, and I will throw some specific 
questions if possible. And the one is, when the President 
talked about in his first inaugural about those who cling to 
power through corruption and deceit, exact words, but that he 
would extend a hand if they are willing to unclench their 
fists, and yet we see in some areas in our hemisphere that that 
fist has been clenched even further. Let me just give you a 
couple examples.
    In Cuba, that regime is still holding Alan Gross. He has 
now been serving prison time for 4 years. As we know, arrests 
are up, numbers of repression and arrests have increased; and 
recently even a ship of arms going to North Korea was 
intercepted in Panama. What specific consequences will the 
Cuban regime have to deal with because of the increased 
repression, because of Alan Gross's continued arrest, and now 
with this new issue of them even shipping arms to North Korea, 
point number one?
    Point number two, coincidentally it was a month ago that 
the people, the students in Venezuela hit the streets 
protesting the lack of democracy and freedom and the increases 
of corruption in Venezuela. They have been confronted, as you 
have all seen in YouTube videos by arrests, by beatings, even 
by the way by death, by killing. The press has been thrown out 
of Venezuela and censored including stations like NTN-24 that 
is based out of both Colombia and the United States.
    In Ukraine, you mentioned some things like denying visas. A 
number of us sent you a letter asking if you could, and the 
administration could do that, unilaterally deny visas to the 
members of the Venezuelan regime, blocking property or freezing 
assets and prohibiting financial transactions to these human 
rights abusers. Are you going to be looking at doing something 
quick to confront those who are violating the rights and the 
human rights and arresting and beating the students in the 
streets; and also what specific things is the administration 
going to be looking at to help those who are peacefully trying 
to recover their democracy.
    And lastly, in your confirmation hearing, Mr. Secretary, 
you pledged, and I was glad to hear that, that you would, 
quote, reiterate our serious concern about Argentina's failure 
to fulfill its private debt obligations to U.S. Creditors. I 
don't have to tell this committee about Argentina. They have 
worked with Iran to, Iran's responsibility for the 1994 bombing 
at the Jewish Center in the Buenos Aires. They have undermined 
global sanctions against Iran by expanding bilateral trade with 
Iran tenfold in 5 years.
    I can go on and on, and yet the Department of State has 
consistently filed amicus briefs frankly siding with Argentina 
when they have been in court on the issue of precisely them not paying 
their debtors. That has been rebuffed by every court. Their lawyers, 
Argentina's lawyers have actually said that they don't care what court 
is going to do. They have criticized the U.S. courts as being just like 
Iran. So here is the specific question: Will the Department of State 
once again file an amicus brief if asked to do so siding with 
Argentina, which is frankly hard to believe, but that is what has 
happened, and there is a bunch of reasons why they say they need to do 
this; but the courts have been very clear that that is not accurate. Or 
will you, as you said--I know you are concerned about them, Mr. 
Secretary, too, and I thank you for that. Will at least the Department 
of State not side with Argentina in the courts if, in fact, they are 
asked to file an amicus brief?
    Secretary Kerry. Well, I can just answer that very quickly. 
The answer is no. We are not going to.
    Mr. Diaz-Balart. Thank you, sir.
    Secretary Kerry. And that is clear. But in addition to 
that, we have urged Argentina to repay its debts to the U.S. 
Government and to engage with creditors, public and private. I 
will continue to do everything that I can and the Department 
can do in order to recover those funds, some $600 million in 
money owed to the United States. With our urging Argentina has 
taken some positive steps. In October, they settled a long-
running investment dispute with three U.S. companies, and it 
implemented, in January of this year, it implemented an 
improved inflation index in order to address deficiencies in 
its IMF reporting and so forth. But we continue to urge them to 
fulfill their global international responsibilities, and we 
will do that; and as I said----
    Mr. Diaz-Balart. And thank you, Mr. Secretary, for your 
very direct answer. And I appreciate that. Now the other two 
issues----
    Secretary Kerry. Venezuela and Cuba, I have been meeting 
repeatedly, particularly in the last few months on the Alan 
Gross issue. In fact, I met with his family just a couple of 
weeks ago. And I am not going to go into it here, but I will 
tell you that we are very focused on a couple of possibilities 
of how we might try to approach that. We really want to get him 
back because obviously we don't think he is that well, and he 
is wrongly imprisoned as far as we are concerned obviously.
    So it is a major priority for us and the White House 
likewise. The White House has been very involved working 
together in initiatives to try to do this. We hit a stone wall 
on a couple, but we are continuing to try to do that; and I 
have a couple of ideas that I hope could work. We will see what 
happens.
    Cuba continues to confound, and there are continued 
problems there. The Obama administration is prepared to try to 
have a different policy, but we haven't seen the indicators 
that merit that at this point in time. There are some things 
that we are doing that we think help in terms of remittances, 
the other kinds of cultural exchange and so forth. But at the 
moment, you are correct; there are serious problems about how 
the people are treated there and what the nature of that regime 
is.
    With respect to Venezuela, we have urged the release--we 
have spoken out. I spent, when I was in at the OAS meeting, I 
purposely reached out to Foreign Minister Jaua. What was 
supposed to be a 10-minute meeting went for 45 minutes. We made 
it clear that we want to try to engage in a normal relationship 
if they are prepared to. But unfortunately they have been more 
prone to simply want to use us as a political card in their 
domestic efforts; and I think that has come home to roost 
frankly now. That is part of what is going on there, huge 
economic problems, unbelievable stratification within their 
society, polarization, young people looking for opportunity, 
and it is not unlike the story in many parts of the world.
    We are prepared, we have urged President Maduro to use the 
powers of his presidency to bring peace and justice and 
tranquility and opportunity to the people of his country. And 
we have not engaged in any of these kinds of activities that he 
has on occasion alleged; and we believe it is time for the OAS, 
the regional partners, other international organizations, to 
assume a greater role frankly in urging the Venezuelan 
government to refrain from demonizing opponents, to allow for 
peaceful protest, and to move towards a meaningful dialogue 
with the opposition. That is the only way the issues are going 
to be resolved. Not with increased violence. Even today there 
are stories of the potential of that increased violence, and we 
would hope they would turn away from that.
    Ms. Granger. Thank you. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Secretary, 
welcome. It is good to see you. I want to ask you three 
questions quickly so I can give you the bulk of my 5 minutes to 
respond. I am going to follow-up on Mr. Diaz-Balart's question 
of you on Venezuela, but I do want to acknowledge and ask you 
about any activities surrounding the disappearance now again of 
Robert Levinson, who last week sadly his family acknowledged 
the seventh year of anguish with his imprisonment. He is still 
missing, and I just urge you to do all you can to find him and 
ensure his safe return to the United States because it has gone 
on for far too long.
    On Venezuela specifically, my home town is Weston, which we 
affectionately like to refer to as West Venezuela; and it is 
home to the second largest Venezuelan population behind Doral 
in the United States. Can you discuss specifically, and 
recognizing that Maduro's regime is trying to use the United 
States as a distraction and an excuse for his own failings, his 
own oppression, and his own violation of Democratic principles, 
and also recognizing that the harm that could come to people 
who can least afford it from sanctions is part of the angst 
that is derived from the opposition actually.
    There are some members of the opposition in Venezuela who 
are very concerned about the possibility of sanctions because 
of the disproportionate impact that it would have on people who 
are already poverty stricken and deprived by this regime. But 
this is obviously a very tragic and difficult situation. Maduro 
is oppressing his people. There is a tremendous amount of 
violence, and we expect it to get worse. So what actions 
specifically are we engaging in beyond discussions with the OAS 
and urging them to engage so that we can be sure that we can 
continue to be the moral leader, not just in our hemisphere, 
but in the world.
    And then lastly, I am deeply concerned about the complete 
zero out of funds for the Global Agriculture and Security 
Program. I know that there is a request tied to the 
Opportunity, Growth and Security Initiative, but we don't have 
any guarantee that Congress will agree to appropriate those 
funds, and given that that proposal goes over the cap and has 
offsets that will likely be controversial, how is that going to impact 
our Thousand Days Initiative that has been in place since 2010. Global 
food and security obviously is one of the most tremendous challenges 
that we face worldwide.
    Secretary Kerry. Well, Congresswoman, I want to get back to 
you on the global agriculture and global food piece and give 
you more detailed answers as to how we can address that. The 
food security issue, you are absolutely correct, is an 
enormously challenging one. The bottom line is, you know, some 
of these budget choices are very, very tough; and that is the 
reality and tradeoffs. We believe we can make up for it in 
other ways, but let me back to you in details of it.
    On the sanctions issue and the challenge of Venezuela, let 
me just say this: We have been in touch with surrounding 
neighboring countries. We are talking with them about trying to 
get some kind of initiative with them. They are not listening 
to us particularly, obviously; and we are hopeful that peer 
pressure, the hemisphere and the near neighbors are going to be 
the people who would have the greatest impact on them, but we 
are prepared if, we need to, to invoke the Inter-American 
Democratic Charter and the OAS and engage in serious ways with, 
as you said, sanctions otherwise.
    Their economy is fragile enough right now that one might 
have pause about doing that for the reasons you have described. 
My hope is, I think the best hope right now, is that the 
efforts of the neighboring countries who are deeply concerned 
about what is happening and its impact on the region may, may, 
be able to encourage the kind of dialogue that could actually 
pave the way forward.
    We have become an excuse. We are a card they play, as you 
say; and I regret that because we very much opened up and 
reached out in an effort to say it doesn't have to be this way 
and to offer an alternative path. We share the same concerns. 
We want fair distribution of the resources. We want 
opportunity, economic opportunity. We want to provide the 
health care and education and the other things that their young 
people are screaming for. And we believe that we can help. But 
up until now in the tradition of Chavez, who played that card 
so forcefully for years, Maduro, who is not Chavez and who has 
his own internal challenges, has tried to replicate it and to 
no avail frankly, but it hasn't made it easy for us to be able 
to have the impact we would like to have.
    On Robert Levinson, we are--I have personally raised this 
in my meetings with Foreign Minister of Iran, Zarif, and we 
have raised it at the highest levels. It continues to be raised 
in all of our engagements, and we have met with them. We are 
doing everything possible. Again, there are three people being 
held, we believe, in Iran; and they are all three on the table, 
but we just have not had any positive return on that effort. 
The Swiss have been engaged with us. We have reached out to the 
Swiss. They are our representative with respect to that issue 
in Iran, and they also have not been able to get positive 
response on it. So there are some serious questions surrounding 
that disappearance. I think you know that. It is not cut and 
dry, and we are trying to get to the bottom of it.
    Ms. Granger. Thank you. We have planned this hearing to end 
at 12:30. The Secretary has agreed to stay 10 more minutes. We 
have to make sure we hear from everyone. So we will now go to 
Mr. Dent.
    Mr. Dent. Thank you, Madam Chairwoman.
    Secretary Kerry. If you would like, just to speed matters 
up, I will listen to the questions and I can get back to you. 
My problem is we have Prime Minister Yatsenyuk coming in, so 
otherwise I would stay even longer. But I can take the 
questions and get back to you.
    Mr. Dent. Sure. Thanks, Mr. Secretary, for being here 
today. You mentioned in your opening remarks that economic 
policy is foreign policy, or good economic foreign policy 
assists foreign policy. I certainly agree with those comments. 
We obviously have pending free trade agreements with TTIP and 
TPP, the USCU and the Pacific agreement that would certainly 
cement relations between our friendly nations and economic 
relations and it would certainly bring about greater national 
security benefits I think to all involved.
    In recent weeks, discussion regarding the expedited 
approval of lifting tight restrictions U.S. Exports of 
liquefied natural gas, LNG, to loosen the grip Russia has on 
Ukraine's energy consumption. Is the expedited approval of the 
LNG exports an approach the administration is taking seriously 
as this crisis continues to unfold? I did speak with our 
ambassador to Ukraine last night at the reception over at State 
and talked about--I know the Ukrainians and many of our friends 
and allies in Europe are very, very concerned about that issue, 
and they want to become--they want to diversify their supply, 
get themselves closer to us. Is the administration taking that 
issue seriously, and are there specific issues that may make 
expediting these LNG exports difficult?
    Those are some of the questions I really wanted to lay out 
as well as the Keystone pipeline while we are at it, too. Let's 
cement our relations with our good friends to the north. There 
are clearly benefits to that. If you would respond, I would 
appreciate it.
    Secretary Kerry. Sure. Just very quickly on Keystone, it is 
my responsibility now to deliver an advisory of judgment to the 
President with respect to the national interests. I am engaged 
in that process, and, you know, I am just going to do my due 
diligence, and will report when it is appropriate.
    With respect to the LNG, yes, of course the administration 
is very, very serious about that, and, in fact, to date, 
Department of Energy who has jurisdiction over the authority 
over LNG exports has conditionally approved some six LNG 
licenses for export, about 8.5 billion cubic feet per day that 
could be exported to both free trade and non-free trade 
countries such as Europe. That would include Ukraine. The 
problem is that the first project, I believe, is not expected 
to come on-line until sometime in 2015, so it is not going to 
address, if Russia cuts off the gas, we understand they have a 
certain amount of reserves. There will be some capacity to be 
able to weather that, but this is not going to have a direct 
impact on that. It is not going to be able to.
    Mr. Dent. The only thing I would add is that--this is a 
long-term proposition. I do understand that, but I have heard 
both from the Japanese Prime Minister Abe, Chancellor Merkel 
and others, they very much want to diversify their supply. They 
very much want to get American energy.
    Secretary Kerry. Believe me, there are a lot of takers and 
I have heard this in many meetings I have had around the world, 
including China, elsewhere, where there are voraciousappetites. 
There is a counter point of view expressed by some about the effect on 
the price, price of oil, as well as price of gas, if you are exporting 
very significant amounts and what that might mean for American consumer 
in terms of price, so I don't know what that break point is personally.
    Mr. Dent. I understand we will be producing more than we 
can consume just as we do with many commodities like corn. We 
produce more corn than we consume and we export it, and we 
would never tell the farmers to not export corn.
    Secretary Kerry. And I believe we should be, Congressman. I 
think we should do some, but I think there is a legitimate 
question to figure out where is that break point on price and 
what is our strategic interest, and we need to balance it.
    Mr. Dent. Just on another issue about Israel and Palestine; 
I think Mrs. Lowey mentioned that issue. In recent months, I 
have been looking into the vetting of grantees and subgrantees 
receiving U.S. funding focused on reconciliation in that 
region. These matters are obviously very sensitive. Do you 
believe that the vetting of these organizations is specific and 
careful enough to ensure that those organizations and the 
people associated with some of these organizations align with 
U.S. policy, and frankly U.S. Israeli policy because, as Mrs. 
Lowey pointed out, some of the groups receiving those funds 
behave in ways that we find offensive and not in our interests?
    Secretary Kerry. The question is whether or not the vetting 
is----
    Mr. Dent. Yeah, some of these organizations that are 
receiving funding.
    Secretary Kerry. I think, look, this is a new decision that 
I think, without going into names and things, that was made by 
this particular one organization and, you know, I think under 
those circumstances not appropriate, but so it is a first 
instance for me. I think we have to take a look at it. I have 
not been asked, nor have I reviewed the overall vetting process 
with respect to all the others. If there is a reason to, I will 
evaluate it; but I am not sure that that is necessary.
    Ms. Granger. Thank you. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair, for holding this 
committee hearing. Mr. Secretary, two questions. The first 
question has to do with some language that Chairman Rogers and 
Nita Lowey helped us put into the appropriation bill this last 
year that calls for the head of each department and agency, as 
they prepare their funding request, to directly link them to 
their performance measures under GPRA.
    So this is the first time we have done that. I would ask 
your folks to look at that. The problem is that when you look 
at the performance measures that you all have, and I don't want 
to embarrass anybody, but I would ask that redo those 
performance measures because if we put in $1 of taxpayers' 
dollars, we expect to be able to measure that $1 that we gave 
you; and with all due respect, the measures that you have there 
don't tell us that at all. So I would ask you just to have your 
folks to take a look at that.
    Number two, I agree also with Chairwoman Granger, your 
budget, your proposal, is basically the same, but I think you 
substituted a lot of the bipartisan work that we did in this 
subcommittee for some of the agency's or the administration's 
priorities. For example, the Republic of Mexico, as you know I 
live on the border, and I breathe and I drink the water. I am 
very familiar with it. You know, we always complained about 
what is happening across the river and the drug cartels and as 
you know, they just got the godfather of all drug dealers 
across the world recently; but the cuts that you all did and 
without going to specific cuts, you all went down and made cuts 
to a neighbor that has a large impact. I mean, a large amount 
of the cocaine that comes into the U.S. will come in through 
that country. And with all that, I would ask you again to look 
at those cuts and ask you to reconsider; and I am sure the 
subcommittee in a bipartisan way will look at those cuts. I 
understand, Mexico is going through a great economic 
transformation, energy, education, telecommunication, finance 
reform, everything that President Nieto has been done. But on 
the security part, I just have a concern as we spend so much 
money on the U.S. side that I would hope to spend a little bit 
of money on the other side; and the more we stop on the Mexico 
side, the less of a burden it will be. I would ask you, and I 
know we are out of time and I want to be considerate.
    Secretary Kerry. You need to be helpful on the time. I 
appreciate it. I will just take 15 seconds to answer your 
question. On Mexico, our request specifically reflects money in 
the pipeline, and it does not, in fact, translate into a 
reduction in any priority or effort. The same is true for 
Colombia. Colombia has an increased capacity to be able to do 
the things we have worked for in planning Colombia and the same 
in Mexico for the Merida plan.
    So we feel very much as if there is adequate funding there; 
and we have the resources in the budget because of the pipeline 
to be able to do the things that we need to do. We are going to 
draw down on it. It is going to flatten out, and we won't have 
that ability next year. So this is the problem as we begin to 
draw on those----
    Mr. Cuellar. Right, and I am going to give up my time to 
save, but if you could send maybe Roberta Jacobson. She 
understands Mexico very well. I would love tosit down because I 
slightly disagree with your statements on that, but I would be happy 
to----
    Secretary Kerry. Well, let's work it through. I am happy to 
sit with all my smart people sitting back here.
    Mr. Cuellar. All right. Include Roberta Jacobson. I yield 
back the balance of my time.
    Ms. Granger. Thank you. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Madam Chairwoman; and thank you, 
Mr. Secretary, for being here today.
    I wanted to give you the opportunity to touch on a couple 
of things that I think are good news in the midst of all the 
problems that we see in the world. You talked in your opening 
statement a lot about foreign assistance, and you talked about 
it in the context of national security, which I think a lot of 
times people lose sight of.
    When we think about national security, we think about our 
Defense Department, and we spend a lot of money to have the 
best-trained, best-equipped military in the world; but we don't 
often talk about diplomacy or development as you touched on; 
and I think that development is a key component to our long-
term national security; but I think, like any other spending, 
we have to do it efficiently, and we have to do it effectively; 
and I think one of the best examples of smart development 
foreign assistance is through what we know as the Millennium 
Challenge Corporation.
    And as you know, when we assist emerging nations, we ask 
them to do well in certain areas like rule of law, human 
rights, things like that; and then it is a contract. And one of 
the things that I was disappointed in a little bit over the 
years, because this is the 10th year of the Millennium 
Challenge contracts, the 10-year anniversary, is that the 
funding has been reduced, I think, disproportionately. It is a 
very efficient use of taxpayers' dollars to offer assistance. I 
was encouraged to see in the budget proposed this year that 
there is an increase in that spending; and I think that is 
positive.
    And so I assume that the administration believes, and you 
believe, that the Millennium Challenge Corporation is working 
well, and I wondered if you wanted to just comment on that, on 
one or two successes that you have seen and your view on that 
forum of foreign assistance.
    Secretary Kerry. Well, I have been particularly interested 
in the MCC, and I sit on the board; as you know, I chair the 
board. And I have had several meetings now. We have been able 
to review some 27 compacts that we have signed and 24 threshold 
programs. We have a tension in our debates about MCC about, you 
know, second rounds and third rounds because there is always a 
tension between trying to excite an initial investment and then 
get them out on their own, you know, self sufficient, versus 
that moment where you have got to kind of refinance and keep 
them going a little longer in order to do it. But I think we 
have an 11 percent increase in the funding this year as you 
know, I think. We basically have $1 billion out of 20-some 
total that we put into the direct development programs through 
AID, et cetera.
    I would like to see that ratio grow personally. I think it 
ought to be a little larger. Now, there is a tension here. MCC 
has a very specific set of metrics, and it is an evidence-based 
approach, much more along more traditional business investment, 
not just pure development lines. With a theory that we want to 
try to encourage really good governance, good democratic, all 
of the things, but it takes--let me phrase this carefully.
    It is really geared to engage at a different level of 
development than some other moneys that we expend through 
USAID. I believe that is necessary. There are different stages 
of development, and different countries can embrace an MCC and 
deal with it effectively and translate its metrics into better 
governance, better performance. Other countries just aren't 
there, and they are not going to be there, but it doesn't mean 
that we don't have an interest in making certain that they can 
get there and that they develop.
    So we may be more involved in education, or more involved 
in building an energy project or doing something in that 
initial stage. And the question is sort of what is the 
appropriate balance between this? You know, is 1 billion enough 
to be putting into that, particularly when you have reduced 
assets and so forth. But I think that, you know, you look at 
Power Africa as an example. We have a major initiative going 
where we are incentivizing change in three partner countries 
involved in that. It is very effective, and it is going to 
bring major, you know, power capacity, increase electricity, 
power capacity to those countries.
    So all in all, I would summarize it by saying that I hope 
we can increase it to some degree. I think it is a terrific 
model, but it is not a model that can be applied everywhere. 
And we have to work off that as a basis.
    Ms. Granger. I will call on Mr. Rooney and Mr. Yoder, and 
if you both take 5 minutes, we will be respectful of the 
Secretary's time.
    Mr. Rooney. Thank you, Madam Chairwoman. Mr. Secretary, I 
know that you are aware there will be delegations from all the 
parties in northern Ireland coming to Washington; and one of 
the things that, we, I think, as a country and administrations 
from the Clinton administration on forward can take the 
knowledge knowing that there has been some positive 
developments with the peace process in northern Ireland. And 
with that being said, Mr. Richard Haass testified before the 
Committee on Foreign Affairs and I think last week submitted a 
report talking about some developments where there may be some 
backtracking. I hope that that is not true, but with that being 
said, the administration has not put forward the international 
fund for Ireland budget request this year, as he hasn't for the 
last couple years, and maybe that is for good reason because of 
the success stories in the north. But being that it is one of 
the success stories that this country has been able to 
participate in since the Clinton administration on up, do you 
feel that that money, it may be time to revisit whether or not 
we don't backtrack and lose the gains that we have made and 
that that money is something that we should revisit spending 
again in the current year or future years?
    Secretary Kerry. That is very possible. There has been 
unfortunately increased tension and some partisan events that 
have been unfortunate that have been a reflection of times we 
thought we had that completely left behind and our hope is with 
the meetings here and so forth, to renew everybody's commitment 
and sense of that.
    So we haven't lost focus on it, but I do think there was a 
feeling that things were moving and there was a level of 
success. We have to evaluate that, and I am perfectly ready, 
based on the situation to engage in that evaluation.
    Mr. Rooney. Thank you.
    Ms. Granger. Thank you. Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair. Mr. Secretary, we 
appreciate your testimony today. It is always a wonderful 
dialogue to talk about these issue around the globe and this 
committee has an important rule to ensure that we scrutinize 
funding and that we are spending American dollars wisely. As I 
am sure you know many of our constituents are worried about 
that fact. And so maybe to wrap things up here, I have more of 
a global question for you. The request is $46.2 billion, and I 
think my constituents as all of ours do, have questions related 
to what exactly our foreign policy is today. As I am sure you 
are aware, as every administration, this administration comes 
under some criticism for its foreign policy; and I wanted to 
give you a chance to respond to some of the concerns that are 
out there that I hear from my constituents that I am sure you 
have heard from as well. I would start with a little bit of an 
undercurrent of what was Ronald Reagan's foreign policy of 
peace through strength, and that weakness invites aggression. I 
would like to highlight a few concerns that have been raised by 
constituents and others throughout the country, certainly in 
Syria where there is a feeling that we painted ourselves into a 
corner and we allowed Russia to become a major player in the 
resolution there. Concerns related to the Iranian sanctions 
relief and whether we are being essentially played by Iran 
throughout this whole process. Lingering issues related to the 
murder of our ambassador in Benghazi. Certainly today, the 
Russian invasion into Ukraine. Russia sailing a ship into a 
harbor in Cuba, a spy ship, 90 miles off of the American 
border.
    Some people see this as a retreat and that you spoke, I 
think very passionately, about a vacuum that occurs in the 
world if the United States doesn't play a significant role. And 
so I would like to ask you, you know, we are familiar with what 
the Bush doctrine was, we are familiar with what other 
President's foreign policy is. How would of categorize American 
foreign policy today in comparison to previous administrations 
and in relation to some of the concerns that have been brought 
up across the country.
    And then specifically, I might just ask do you feel that 
the reset of relations with Putin has been effective? Do you 
think that the removal of missile defense from eastern Europe 
unilaterally, was that concession useful and would we feel that 
that was smart given today's relation with Russia. And then how 
do you look at this in context with the reduction in military 
spending under the President's budget, particularly given the 
administration's belief that government spending is critical to 
stimulus in the economy and that austerity is bad. Why 
austerity just in the military and really nowhere else at this 
point? And what message does that send in your role as 
Secretary of State, as we reduce military spending to pre World 
War II levels, and essentially, in relation to all those 
issues, what is the American foreign policy as you see it? And 
then finally if you have a second, speak to the Iranian 
sanctions issue.
    Secretary Kerry. Okay. We will do that in 2 minutes or 10?
    Mr. Yoder. As much time as the chair would allot.
    Secretary Kerry. I love it, and I am delighted to have a 
chance to talk about those things because there is a narrative 
out there that I think is completely without any basis; and I 
love the opportunity of defending, not just defending, but of, 
you know, making clear what the President's priorities are and 
what our policy is.
    Quite simply put, we are making America stronger, at home 
and abroad, and making America safer by projecting American 
economic interests as well as by standing up for and projecting 
our values, which also support our interests and by taking on 
terror before it comes to our shores; and we are fighting 
terrorism in many, many different venues, in many different 
ways, and that is a longer conversation; but let me go 
specifically to this juxtaposition with, let's say Russia or 
reset or whatever you want to call it.
    The reset with Russia was not just a pushing of the button 
and saying, oh, everything is going to be terrific. The reset 
was an effort to find those things we could cooperate on, 
understanding of course, that with Russia, we were going to 
have major philosophical and other kinds of interest 
differences. So we have been able to find cooperation in 
important things, Afghanistan, on nuclear weapons, the START 
reduction, on the CW program in Syria; and.
    I might say, Madam Chairwoman, you asked me in the very 
beginning of this hearing about the time frame on that. The 
time frame originally in the agreement is until June. We are 30 
percent out now. 30 percent is being moved out, and we are now 
on a 65-day program, which I believe could be reduced to 35 
days. And we are pushing very hard with OPCW and others to get 
it out. So I want to take advantage of making that question. 
But in addition to CW with Syria, Iran, P5 plus 1, Russia has 
been an important cooperative partner in the effort to get the 
agreement that we got. Now, you mentioned that agreement and 
said are we being played by Iran.
    Please, we are seeing Iran's 20 percent uranium enrichment 
reduced to zero. We are seeing Iran frozen in its 3.5 percent 
level of uranium stockpile. No new centrifuges have been put in 
place except for a replacement. No additional numbers over the 
number that we began with when we began 2 months ago. We have 
seen inspectors go into Fordow. We had no inspectors at all in 
Fordow. We have inspectors at Natanz. We didn't have them 
there. We have inspectors not as frequently as the other two, 
but sufficiently in Iraq, in the plutonium reactor. They are 
not able to complete the plutonium reactor. We have cradle to 
grave tracking of production. We have the right to go into 
their storage facilities for centrifuges. In effect, Iran's 
program is being rolled back from where it was, and there is no 
way to draw any other conclusion but that the world, Israel, 
United Arab Emirates, Saudi Arabia, the region, are safer 
because of that first step agreement that has been put in 
place.
    Now we are not sitting hearing and telling you 
automatically Iran is going to make the judgment to conclude 
the deal. I can't tell you that. President Obama and I share 
serious reservations about whether or not they will, in fact, 
make the hard choices that they need to in order to satisfy the 
world fully and completely that this is a peaceful program.
    But the bottom line is we are putting that to test and 
earning the credibility of the world to know that if they don't 
and we have to do something else, we will have exhausted every 
possibility to prove to the world that we were willing to put 
them to that test. I think these are very important things in 
the conduct of foreign policy and in the potential of the use 
of force or any choices that you have to make.
    So we are not being played. We are doing what good 
diplomacy requires, and we have done it in a way that expands 
the so-called breakout time from what was about 2 months to 
significantly more, and it could grow, and if we can get a 
final agreement, it will be even larger. So I just don't buy 
this notion. I don't think that--you know, I don't want to get 
into, particularly 2 days before I am about to sit down with 
Lavrov, but I think Russia has challenges of its own, and I am 
not sure that they need to have the kind of economic 
constraints that may be following depending on the decisions 
they make. But I also want to say at the same time we recognize 
Russia has interests in Crimea. You know, Ukraine was part of 
Russia for centuries. Khrushchev gave it to Ukraine, he came 
from Ukraine, but there are other reasons that he did it, and 
the Russian religion comes from the eastern part of Ukraine. 
There are battles for Russia's freedom that were fought in the 
eastern Ukraine.
    There is a long linkage there, and we need to approach this 
in ways that we get Russia to be able to respect the 
sovereignty of the country, the integrity of international law, 
the rights of Ukrainian people to make decisions for themselves 
even as Russian speakers and Russia's interests can be 
appropriately met. That is really the challenge here, and I 
don't think that the United States--I think the United States 
is playing a critical role in helping to perhaps bring that 
about, and I can tell you all over the world, my friend, I will 
tell you right now, we are playing a critical role with respect 
to North Korea, we are playing a critical role with respect to 
the relationship between China, Japan, Republic of Korea, and 
the Republic of Korea and Japan.
    We are central to our engagement with ASEAN to maintaining 
stability and freedom of navigation in the South China Sea. We 
are engaged deeply in the Middle East obviously with Syria, 
with Iran, with Middle East peace process, with Egypt, with the 
others. We are engaged in the Maghreb, we are helping Tunisia, 
we are working on Libya. I just came from a conference where we 
are working with Libya for its hopeful stability and laid out a 
plan with more than 40 other nations in order to be able to 
help Libya. We are working on the transition in Afghanistan. I 
negotiated with Karzai that BSA. He is not seeking to change 
the BSA, but he is refusing to sign it until or unless there is 
some effort on the peace process which we don't control.
    Each of the candidates for President of Afghanistan have 
said they will sign it. So I believe it will be signed, and I 
believe the United States is in Africa where we have a young 
leadership program, we are engaged with Power Africa, where 
Russ Feingold just helped negotiate a special envoy, disarming 
of M-23 and an effort in the Great Lakes where we have been 
involved in helping to provide for a ceasefire/semi-truce in 
South Sudan, where we are engaged with the Arctic and the 
Arctic Nations, we will be assuming that chairmanship in a 
year.
    I can run a long list of economic things just alone. And 
TTIP, the Transatlantic Trade and Investment Partnership, and 
the Trans-Pacific Partnership take 40 percent each of them, the 
world's economies, and put them into a system of trading which 
will benefit Americans and create jobs in every State in our 
country. That is what we are getting for this penny on the 
dollar, folks, and I have only begun to scratch the surface. So 
I thank you for the opportunity to. I would be happy to give 
you a longer answer when the light is not flashing and I am not 
abusing everybody else.
    Ms. Granger. Secretary Kerry, thank you for your timetoday, 
thank you for the energy and the passion that you put into the job that 
you do. We appreciate it very much. This concludes today's hearing, and 
members may submit any additional questions for the record. The 
Subcommittee on State, Foreign Operations, and Related Programs stands 
adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Tuesday, April 8, 2014.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                                WITNESS

DR. RAJIV SHAH, ADMINISTRATOR, UNITED STATES AGENCY FOR INTERNATIONAL 
    DEVELOPMENT

                Opening Statement of Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    I want to welcome the Administrator of the U.S. Agency for 
International Development, Dr. Raj Shah. We always look forward 
to hearing your testimony and particularly on the fiscal year 
2015 budget request for USAID.
    The details of the administration proposal are slowly 
coming in, but I already see a few troubling issues from the 
information I have. The administration prioritizes its 
initiatives at the expense of congressional priorities. For 
example, it is difficult to justify the proposal to reduce 
humanitarian accounts by 25 percent at a time when significant 
needs remain, particularly in Syria and Africa.
    USAID is doing good work to improve the health of millions 
of people around the world, yet there is a decrease overall for 
many of the lifesaving global health programs. You also propose 
a dramatic reduction in biodiversity programs that support 
important conservation activities and critical efforts to 
combat wildlife poaching and trafficking. I hope we can work 
together on these and many other budget issues.
    Next I want to raise some concerns about how USAID does 
business. Since I joined the subcommittee 5 years ago, I have 
heard that the United States must do more to address aid 
effectiveness. Of course, this is an important goal, but not 
when aid effectiveness is translated as providing more 
assistance directly to developing countries and organizations 
that may not have the capacity to program the funds.
    In many of these places, corruption is also a serious 
issue. I have concerns about this and other elements of your 
USAID Forward initiative. I question the assumption that 
foreign governments and local organizations are more effective 
implementers than U.S. organizations. I am also wary about 
their ability to manage U.S. taxpayer dollars.
    That is why the fiscal year 2014 State, Foreign Operations 
bill strengthened standards and requirements to ensure proper 
oversight. I appreciate the work we have done together to 
increase oversight of direct assistance to foreign governments 
since I began, including conditions in the fiscal year 2012 
bill, and I hope we can do the same for local organizations.
    Dr. Shah, these are just a few of the issues I hope we will 
get to discuss today. I want to close by thanking you and the 
men and women of USAID who are committed to solving some of the 
most difficult global development issues around the world. All 
of us on this subcommittee understand and appreciate your work 
and their work.
    I will now turn to my ranking member, Mrs. Lowey, for her 
opening remarks.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Welcome, Administrator Shah, and I want to 
thank you for your leadership and tireless work improving the 
lives of vulnerable people throughout the world.
    In deference to my chair and friend, I will be brief. Dr. 
Shah, you may recall my support for development assistance, yet 
I was disappointed to hear that the fiscal year 2015 budget 
request again underfunds basic education at $534 million, which 
is unacceptable. I expect to see a much higher level of 
commitment than the administration has demonstrated to date.
    Additionally, I am still anxiously awaiting the official 
budget figures for several programs, particularly family 
planning. As you know, family planning programs reduce maternal 
mortality, promote women's rights, and contribute to the 
stability of communities across the globe.
    It is impossible to achieve food security, build democratic 
institutions, or sustain health outcomes without basic literacy 
and communication skills. In my opinion, the administration 
routinely underfunds education, impacting the sustainability of 
our development dollars. I hope you will provide greater 
details on our family planning and education budgets.
    I am concerned about the reduction in the budget for drug-
resistant tuberculosis. Drug-resistant TB is a highly 
contagious airborne disease that respects no borders, and 
threatens the health and safety of the United States. Why would 
you slash funds for TB control when reports indicate that new 
treatments, vaccines, and diagnostics are all necessary?
    Finally, the press reports from last week on the ``Cuba 
Twitter'' program highlight my longstanding concerns on the 
potential politicization of development activities that place 
both USAID programs and people at risk. It is important that 
you clarify for this committee the nature and risks of these 
kinds of activities.
    USAID should be using its resources, which are generously 
made available by the American people, to respond to current 
challenges overseas like we did with the Asian flu, HIV/AIDS, 
food insecurity, and so much more.
    I look forward to hearing your testimony and ask unanimous 
consent to place my full statement in the record. And I yield 
back.
    Ms. Granger. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. And thank you. We are trying to get through--
this is a good attendance, particularly when we have multiple 
subcommittee hearings today, and so we are trying to get 
through before votes.
    Thank you.
    Dr. Shah, please proceed with your opening remarks. I would 
strongly encourage you to summarize your remarks so we leave 
enough time for questions and answers. Your full written 
statement will be placed in the record.

                     Opening Statement of Dr. Shah

    Dr. Shah. Thank you. Thank you, Madam Chairwoman and 
Congresswoman Lowey and members of the committee.
    I am very enthusiastic to be here to discuss with you 
President Obama's fiscal year 2015 budget request for USAID. 
You know, USAID's mission is very clearly to focus and partner 
with all types of organizations and all parts of society to 
help end extreme poverty and its consequences around the world 
and to promote resilient democratic societies.
    Your efforts to support USAID over the last 4 or 5 years 
have helped us do some extraordinary things together. You have 
helped us rebuild our staff by more than 1,000 people. You have 
helped us rebuild our budget and policy operations and to put 
in place a monitoring and evaluation system that allows us to 
be accountable and sophisticated in how we pursue our mission.
    Your support has enabled us to launch the U.S. Global 
Development Lab, which will help to elevate the role of 
science, technology, and innovation in helping to accelerate 
the goals we hope to achieve. And your approach has helped us 
lead around the world a series of public-private partnerships 
that leverage our investments with private sector resources to 
stretch American taxpayer dollars and get better results.
    This year's budget, which is presented in the context of 
overall fiscal constraint at the top line for the 150 account 
and in particular for foreign assistance given some of the 
major security investments that have been proposed, still 
maintains a commitment to core and important priorities.
    These include a nearly $1 billion investment in Feed the 
Future, which has helped to now reach 7 million farmers and is 
moving 12.5 million children out of a condition of being 
chronically hungry and helping them achieve self-sufficiency.
    It includes nearly $2.7 billion for child survival, which I 
continue to believe is the most efficient return on investment 
we make as the U.S. Government, when it comes to serving the 
needs of the world's most vulnerable.
    And it includes significant investments in education, 
water, and energy, all of which are the subject of new, 
comprehensive strategies that govern our work and new ways to 
evaluate results and report back to Congress and the American 
people on what their generosity is achieving.
    I also look forward to discussing the pressures created by 
three Level-3 emergencies this year--Syria, the Central African 
Republic, and South Sudan--and note that our teams are involved 
in leading global humanitarian responses in each of those 
settings.
    Given the shortness of time, I look forward to the 
discussion of the topics that were raised in your opening 
statements, and I would like to conclude just by noting that 
this year, I had the opportunity to present some thoughts at 
the National Prayer Breakfast.
    And I remain convinced that if we can continue to build a 
broad tent of public support for America's efforts to lead 
development, health, and humanitarian efforts around the world, 
and if we can continue to pursue what are sometimes difficult 
reforms to ensure that we are using our money wisely, reporting 
on results, and improving the cost effectiveness of our 
investments, that America still has the capacity to lead the 
world in ending extreme poverty and serving the needs of the 
world's most vulnerable. And that that, over time, will 
continue to make us safer, more secure, and more admired.
    Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Ms. Granger. Thank you, Dr. Shah. I think the people on 
this subcommittee believe the same thing or they wouldn't be 
serving. And so, we just have questions on how that occurs.
    I just have one question, one topic, and that has to do 
with Afghanistan. And watching the elections with millions 
turning out, that is really a testament to what has been done. 
It was a very good thing to watch.
    We don't know if the new president will sign the Bilateral 
Security Agreement. That remains to be seen. We have made 
important gains in health, education, women's rights, things 
that Mrs. Lowey was talking about.
    So, while the staffing plan in Afghanistan is decreasing, 
the administration's request for assistance to Afghanistan is 
increasing. Of the few questions I have, in light of the 
ongoing security challenges and corruption issues, what kinds 
of programs are you going to support with these funds in 
Afghanistan?
    Also, how do you also hope to have the level of oversight 
this committee expects when there is less staff planned for 
2015, and how can these programs be implemented to keep U.S. 
personnel and our development partners safe? Their safety is 
our greatest concern.
    Thank you.
    Dr. Shah. Thank you, Chairwoman.
    And I just want to highlight that for 2 to 3 percent of the 
cost of this war, USAID development investments have helped 
ensure that 8 million kids go to school, including 3 million 
girls, have helped to generate the most rapid reductions in 
child death and maternal death anywhere in the world, have 
helped to build out 2,200 kilometers of road infrastructure 
that creates economic connectivity that gives the Afghan people 
a chance to have a brighter future, and have helped to both 
build the independent election commission and support the 
election processes that we saw this weekend, which were a 
powerful demonstration of a more optimistic future taken on by 
Afghans themselves.
    We will continue, even in a more challenging security 
environment, to make the investments that we believe are 
required to help Afghanistan achieve peace, security, and some 
degree of prosperity and social justice, with a priority of 
focusing on women and the important gains that have been made 
and sustaining those gains. But also with a priority of--and we 
have carefully reviewed, through a sustainability review, all 
of our programs.
    We are going to continue the agricultural programs that 
make a big difference for the rural economy, which is still 60 
percent of total employment in Afghanistan. We will continue 
support for schools and higher education because that is 
central to girls having opportunity. We will continue our 
health programs.
    We are looking at our larger infrastructure projects, and 
we want to make sure that we can both get eyes on those 
projects and that they can be sustained as well, some of which 
requires other partners picking up a bigger component of those 
efforts.
    And overall, I was with the team this morning by 
videoconference, with the Ambassador and our mission director. 
You know, they are committed to visiting projects and programs, 
to maybe paying the higher costs it will take operationally to 
have the security and capacity to get out there. But we are 
going to have an evaluation system that allows us to get 
American eyes on most major efforts where that is required and 
supplemented by all kinds of third-party data, including 
satellite imagery on crop yields to local Afghan partners 
reviewing and visiting projects and programs regularly.
    The Accountable Assistance for Afghanistan initiative we 
set up 3 or 4 years ago has been successful at improving 
accountability for aid and assistance in Afghanistan, and we 
intend to continue that effort, although adapting it a bit to 
highlight the safety concerns you have raised.
    Ms. Granger. And the last had to do with how do you keep 
the people that are there safe? If there is not a Bilateral 
Security Agreement, then what do we need to do about security?
    Dr. Shah. Well, a Bilateral Security Agreement is very 
important, and our team contributes to the larger security team 
that is trying to pull that together, and we will see what 
happens after the election.
    Assuming that Afghan security forces have the kinds of 
abilities they just proved that they have over the past 
weekend, we are confident that we, with all of the 
supplementary efforts, can have our people visiting projects 
and programs in a safe manner. We are not going to take undue 
personal risks.
    We have already been challenged as an agency and a 
government in losing key members of our team who went out to 
visit projects and programs and were attacked and lost their 
lives. We are not going to put our people at undue risk. But 
all of our people out there are taking some degree of risk 
already because they believe in and know this is work that is 
critical to our national security.
    And after the conduct of a highly costly war over more than 
a decade, I certainly hope that USAID and our country and our 
Congress can continue to support the efforts, like keeping 
girls in school, getting women into civil service, helping 
different parts of the country have economic opportunity, and 
supporting agriculture that is going to becritical for the next 
decade.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you.
    Both our interests and challenges around the world do not 
generally respect country borders. Yet our democracy, 
governance, and development activities are inherently country-
by-country specific. As we witnessed during the Arab Spring, 
events transpire differently in each country, particularly the 
tumultuous aftermath of the 2011 revolution in Egypt.
    Given recent unrest in many countries with which the United 
States has strong military relationships, I hope you can 
address how support for civil society and development versus 
stated national security interests is determined in the 
administration and specifically in USAID programs. I will 
follow up with a couple of quick questions so that you can 
discuss the issue, which I think is so important today.
    How does the USAID implement democracy programs in 
repressive countries while abiding by the Brownback amendment, 
which prevents foreign governments from having control or veto 
power over democracy assistance? In which countries has this 
been a particular challenge, and how have you dealt with these 
cases?
    Is a foreign government allowed to review U.S. democracy 
programming plans through prior consultation or other 
checkpoints? For instance, could the government in countries 
that repress women's rights preselect or obtain the names of 
participants in your programs?
    Using a national security lens, how would results be 
measured and evaluated? Is focusing solely on strategic 
interests a detriment to human rights concerns, or is it all 
part of our interconnected policy strategy?
    And I would appreciate it, given so much of the news today, 
if you could put this in the context of one of the programs 
that has been on the news' front pages, ZunZuneo. Who is 
responsible for developing this program, and do USAID's 
activities in democracy programs put other development programs 
at risk by increasing the perception that everything USAID does 
is political in nature?
    If you could also share with us in which countries does 
USAID's democracy work pose the greatest risk to our other 
programs in health, education, or agriculture? If you can 
clarify, I think it would be very helpful.
    Dr. Shah. Congresswoman, thank you for those comprehensive 
questions, and I look forward to the opportunity to address 
them.
    First, on civil society. The United States is deeply 
concerned about the closing of civil society space in country 
after country. Secretary Clinton and Secretary Kerry have both 
started and pursued a strategic dialogue on civil society of 
which USAID is a part. And in nearly every country we work in, 
we support civil society actors, whether it is small women's 
cooperatives that are part of our Feed the Future program or 
whether it is the Ukrainian organizations that documented human 
rights violations that took place during the protest period 
that we are all acutely aware of.
    The history of that type of support, which has been ongoing 
around the world, has been an important part of how America 
provides assistance and partnership. So that even when we were 
in Senegal, the President met specifically with the civil 
society groups we supported to hear their stories of how they 
were able to leverage our support to build a culture and a 
process that allowed for real democratic presidential 
transition there, when it didn't look like it was going to 
happen.
    America is proud of that. USAID is proud of that part of 
our portfolio, and it is an integrated and integral part of how 
we provide assistance around the world.
    With respect to the democratic governance portfolio, the 
Brownback amendment, and your references about foreign 
government review, we disclose all of our programs publicly. 
The program with respect to Cuba is one example. But we notify 
Congress of all of these programs. In country, we have these 
transactions publicly available on foreignassistance.gov, on 
our Web site, and through the grantees, there is no covert 
activity that takes place.
    That said, we don't share the participation data with 
governments. Governments may sometimes express displeasure, but 
we don't give them the capacity to shut down our programs by 
cherry-picking one or two that are promoting civil society or 
democratic governance that they insist be shut down.
    I was thinking about that in the context of what is going 
on in Uganda, where a new law, criminalizes certain activity 
that we pursue to treat patients with HIV/AIDS that are gay or 
lesbian. And you know, we work with governments, but we don't 
program funds through them in large amounts, and we don't give 
them veto power over specific projects and programs.
    With respect to Cuba, I appreciate you asking the question. 
The purpose of this program, like the purpose of other similar 
programs, was to support civil society and to provide platforms 
to communicate amongst the Cuban people. Any representation 
that the purpose of the program is different from that is 
inaccurate.
    We have programs like this in Africa, in Asia, in Latin 
America, throughout the world, and they are conducted and 
consistent with the manner of the law. The GAO report on the 
Cuba program specifically highlighted the improved management 
practices at USAID and complimented our execution of this 
program, and that was after a thorough review not just of the 
program overall, but of a specific contractor and a specific 
subproject with Mobile Accord.
    With respect to your question about whether those programs 
put at risk other efforts in health and hunger and those types 
of issues, that is obviously not a critical issue in Cuba 
because we don't have, per the Helms-Burton amendment, the 
capacity to do those types of other programs there. But with 
respect to other parts of the world, we have just said, and the 
President said this, the Secretary of State has said this, and 
the prior administration has said this, that when America 
engages around the world, we are going to project through that 
engagement some basic values.
    We are doing that right now in Uganda with respect to the 
antiretroviral treatment of people who are gay or lesbian. We 
can't disassociate our values from our work, and one of the 
core elements of our values is to support civil society, is to 
allow freedom of expression, is to connect with those who are 
vulnerable, and to ensure that the benefits of our overall aid 
and assistance reaches the most vulnerable within society.
    Mrs. Lowey. If I could just follow up with one other 
question? Alan Gross has now spent more than 4 years in jail in 
Cuba after trying to broaden access to the Internet there. 
Could you respond to that situation?
    Dr. Shah. Yes. Alan's incarceration in Cuba is wrong. It is 
inappropriate. It is inexcusable. The Secretary of State; Wendy 
Sherman, our Under Secretary of State; the President himself 
have all engaged on this issue, and I know that there have been 
a broad range of activities that the State Department has 
pursued to secure Alan's release. Wendy can brief on that in a 
secure setting and in a classified setting.
    I will say on our end, I think about the Gross family all 
the time. And sometimes we must be discreet in how we do our 
work, whether it is to save lives in Syria when we are tending 
to medical treatments of victims or whether it is in the 
execution of this program, precisely because we want to protect 
our people from being exposed to those types of risks.
    Mrs. Lowey. Thank you.
    Ms. Granger. I will call on Members, alternating between 
majority and minority based on seniority of those present when 
the hearing was called to order. I want to remind Members that 
you have 5 minutes for your questions and responses from the 
witness. A yellow light on your timer will appear when you have 
2 minutes remaining.
    If time permits, we will have a second round of questions. 
However, we know that votes are going to be called during the 
time that is allotted to this. So I would ask you to be 
particularly careful about your time.
    I know we all have multiple subcommittees, I do as well. So 
I am going to call on Mr. Rooney, and then turn the chair over 
to Congressman Dent.
    Thank you.
    Mr. Rooney. Thank you, Madam Chair.
    Dr. Shah, I want to talk about Jordan and the Economic 
Support Fund, which we have learned a lot about this year not 
only from the king's visit, but with all the intelligence and 
news that we have seen about the refugees going from Syria into 
Jordan and with the challenges that Jordan is having to deal 
with, with regard to that. And specifically, one of the 
programs that I think is important, what I would like you to 
comment on and sort of give us an update, deals with the fact 
that some 36 percent of those refugees are or going to be of 
school age, 5 to 17 years old, which accounts for almost 
150,000 boys and 131,000 girls.
    So this program, which goes to Jordan to help with 
educating those kids, is something that I think will certainly 
help Jordan and help deal with the issues that they are going 
through right now. But can you talk about it, talk about the 
successes, some of the challenges, and also specifically with 
regard to how it is working to counter or try to educate 
children out of the whole terrorist realm? Hopefully, you know, 
that is one of the end goals of that program.
    Dr. Shah. Thank you, Congressman. I appreciate you asking 
about Jordan.
    Over the last several years, the United States has provided 
$1.7 billion in support to Syrians and Syrian refugees who are 
at critical vulnerability with respect to the crisis that has 
been ongoing there. In addition to that, we have had our 
ongoing program with Jordan, and that has been supplemented 
with a major loan guarantee effort and then accelerated 
investments in areas like education to help deal with the flood 
of refugees.
    There have been more than 2.5 million refugees coming out 
of Syria, and Jordan and Lebanon I think in particular have 
been the two countries that have taken by far the highest 
number and percentage of Syrian refugees. As you point out, 40 
to 45 percent are school-aged children; and we have large 
education programs in both Jordan and Lebanon. So, in both 
settings, we have worked to help create opportunities for 
Syrian kids to go to school while also maintaining access to 
the same schools, of course, for the host community children.
    You can imagine this is very difficult. If any of us had 
kids in school and all of a sudden class sizes were going to 
double or triple overnight because of a refugee crisis, that 
would be a tough sell in the United States.
    So we have launched an effort that we call No Lost 
Generation, and we have worked with a host of international 
partners from the Gulf states as well as with other donors to 
try to get more resources for education in Jordan and Lebanon, 
to try to create a double shift system where Syrian kids can go 
to school in the afternoons in those schools and try to make 
sure that we don't lose a whole generation of kids to strife 
and poverty, where a lack of education would be devastating in 
an environment where there is a high risk that these kids go 
the wrong way should they not have any meaningful opportunity 
in life.
    I hope the American people can take pride in the fact that 
the United States and USAID have been by far the largest and 
the global leader providing humanitarian assistance throughout 
the region, now reaching more than 7 or 8 million people.
    Mr. Rooney. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Dent [presiding]. Thank you.
    At this time, I would like to recognize the gentlelady from 
California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Good to see you, Dr. Shah. And you know I have got to 
follow up with you on the Cuba question. This Cuba Twitter 
program was instituted, I guess, shortly after Alan Gross was 
arrested.
    Now I have visited Alan Gross twice. For the last 3 or 4 
years, I have been very involved in the discussions between our 
own Government and the Cuban government, and quite frankly, 
there have been maybe five or six individuals on our side that 
I have talked with. This is the first day that I have heard or 
learned that Wendy Sherman is part of that.
    And I just want to ask you, first of all, who is the lead 
negotiator or person that we should work with on our side?
    Secondly, you say that we don't engage in covert activity. 
Okay, we may not, but some of us believe that you do and that 
the whole goal is regime change. And you know, we just happen 
to disagree when you say this is just to promote discourse 
among civil society. But it is, in effect, most of the time the 
goal is regime change.
    And thirdly, with regard to Alan Gross, and we have talked 
about this over and over and over again, he was a 
subcontractor. Now whether you agree or not, Cuba has certain 
laws, just like we have certain laws in our own country. If, in 
fact, a U.S. contractor or subcontractor violates the law of 
another country, they are subject to whatever follows, whatever 
laws, you know, require in terms of prosecution.
    I don't agree with what has taken place, and I think it is 
inexcusable about Alan Gross, but to say that we weren't part 
of this in terms of allowing Alan Gross to be--to work on a 
project and you didn't disclose in the contract that he could 
be subject to arrest based on the laws of another country I 
think is outrageous. If a person is going to subcontract work 
under these democracy programs, they should know what risks 
they are taking.
    Now Alan is on a hunger strike. We don't know where that is 
going to lead. And so, some of us really want to try to move 
this process forward so that we can get him out. And so, I am 
asking you once again. One, who is the point person?
    Two, have you all revised some of these contracts so that 
the contractors and subcontractors know when they are engaged 
in these democracy programs that they could be subject to 
arrest based on the country in which their laws--in which they 
are violating their laws?
    And thirdly, you know, for the life of me, I don't quite 
understand your not seeing as covert activity and regime 
change, and I would like to hear why you don't see that.
    Dr. Shah. Sure. Thank you, Congresswoman, and I just want 
to on other topics, but on this one as well thank you for your 
engagement and your support, and I have appreciated the chance 
to learn from you and work with you.
    On this in particular, let me say a few things. First, we 
care about Alan, about his family, about Judy. What they have 
had to go through is extraordinarily wrong.
    Wendy Sherman is the lead on this. She may have a team, 
obviously, the State Department is a big place, but she is the 
Under Secretary that I have worked with, and I know that she 
would be willing to and able to articulate to you our efforts 
and our strategy. Efforts obviously have been unsuccessful to 
date, and as you know, they include specific actions taken 
recently by the highest levels of our Government.
    The second is with respect to is the program covert? This 
program has been notified in congressional notifications and 
congressional budget justifications every year since 2008. The 
fact that we are discussing it in this forum and that it is an 
unclassified program illustrates that this is not a covert 
effort.
    Ms. Lee. Well, I think they did reveal that. It may not--
okay.
    Dr. Shah. The GAO reviewed this project and made a judgment 
that it was consistent with the law.
    Ms. Lee. The GAO, yes, but that took a little bit of 
pushing.
    Dr. Shah. And we are discreet.
    Ms. Lee. Which it is.
    Dr. Shah. And we are discreet. Thank you. We are discreet 
with the implementation of a range of things, not just in the 
democratic governance space. But we have provided 250,000 
medical procedures and surgeries inside of Syria over the last 
3 years, some provided by Syrian-American doctors. We are not 
waving the American flag at those posts, since they are already 
targets, and many have already lost their lives doing that 
work.
    So we have to balance and conduct this work in a manner 
where we are making some effort to protect those who carry it 
out. And that is why we do some of these things discreetly.
    I do want to address your point about how we think about 
this in broad terms.
    Ms. Lee. And the contracts. Why you would subject a U.S. 
citizen to arrest and not disclose they are subject to arrest.
    Dr. Shah. Right. So we do inform and clearly communicate 
the context, the risks, and the personal responsibility.
    Ms. Lee. No, but Dr. Shah, you don't communicate thelaws of 
the other country that they could be in violation of.
    Dr. Shah. We highlight the risks, and that requires 
describing that.
    Ms. Lee. But you don't say that you could be subject to 
arrest if you engage in these activities.
    Dr. Shah. Well, no, we do. We describe the context. It was 
not done in Alan's case. I agree with that. That was in 2008. 
It was before I arrived.
    Ms. Lee. And we have worked with you to try to get this 
straight since then.
    Dr. Shah. Yes, and we have improved the management of this. 
But I do want to say one thing about that. Right now, we have 
people providing antiretroviral drugs to gay and lesbian 
patients inside of Uganda that are also taking new risks, given 
the criminalization of providing services in that context, and 
it is tough. I am not prepared to tell them to cut those folks 
off from receiving lifesaving assistance.
    Ms. Lee. No, but that is not what I am talking about, Dr. 
Shah. I am talking about----
    Mr. Dent. The time is expired.
    Ms. Lee[continuing]. Those engaged in these programs, 
knowing that they are violating the country's other laws, and 
they could be subject, just so they know.
    Dr. Shah. Yes. Okay. I appreciate that. I think that is 
right. I think we should be communicating the risks to our 
implementing partners, and we do. Now we do with our partners. 
Absolutely.
    Ms. Lee. Now you do. But not when Alan was arrested, and 
that has got to be part of the discussion.
    Dr. Shah. But we have since I got there, yes.
    Mr. Dent. Thank you. I recognize myself for 5 minutes at 
this time.
    Good afternoon, Dr. Shah.
    The fiscal year 2015 request includes a $90 million cut to 
USAID's global health programs relative to enacted levels. This 
includes a $10 million cut to maternal and child health 
programs. Yet within that line item is a $25 million increase 
for the U.S. contribution to the Global Alliance for Vaccines 
and Immunizations, or GAVI.
    I am just concerned about how--where the administration 
plans to offset the increase for GAVI. Could you provide 
information on which maternal and child health programs you are 
proposing to cut?
    Dr. Shah. Yes. Thank you, and thank you for your support 
and your leadership.
    I will say on the global health budget, our fiscal year 
2015 budget is a small increase compared to the request we made 
in 2014. And I thank Congress for its generosity in 2014, and I 
continue to believe that our investments in global health and 
child survival are amongst the most cost-effective investments 
we make around the world.
    This year's budget environment overall has been very 
challenging, with the top line coming down on the 150 account 
and a shift in resources to pay for major security investments 
around the world.
    That said, within this portfolio, we will make the $200 
million investment, if we have the support of Congress, in 
GAVI. We believe GAVI is highly effective at getting low-cost 
vaccines and new vaccines to kids who critically need them. And 
then we will have the resources to work on a supplemental basis 
to make sure that we are reaching those same kids with a whole 
range of other interventions from supplementary feeding to 
malaria bed nets to chlorhexidine and other new products and 
technologies we have helped develop.
    I can have my team follow up on precisely where the 
redirections will come from, but in general, we believe over 
the next few years, we will be able to accelerate dramatically 
the achievement of results in child survival. And this budget 
will enable that.
    Mr. Dent. Thank you. I look forward to receiving that 
information from your staff.
    On the issue of PEPFAR, the use of the antiretroviral drugs 
is critical to both treating and preventing HIV infection. The 
double impact of the antiretroviral treatment is also reflected 
in the new WHO guidelines, which recognize that earlier 
treatment can result in fewer transmissions and prolong life.
    In recent years, PEPFAR spending on antiretroviral drugs 
has decreased and totals much less than 10 percent of all 
PEPFAR spending, despite millions of people in need of and not 
receiving antiretroviral drugs in PEPFAR-supported countries.
    What actions will the Federal Government take to reverse 
this trend and ensure that PEPFAR meets the statutory 
requirement of spending more than half of the program's 
appropriations on treatment and is targeting its spending to 
maximize the cost-effective impact of antiretroviral therapies?
    Dr. Shah. Thank you. I want to make a few points on this.
    First, the President laid out a clear goal of 6 million 
patients on antiretroviral therapy, and as of December this 
year, we had achieved well beyond that goal. I believe it is 
6.3 million in that context.
    The second is we share the treatment burden and the cost 
with countries themselves and with the Global Fund, and a 
number of other partners, but really countries themselves and 
the Global Fund. And what we have seen over the last 5 years is 
a shift of resources where countries are putting more of their 
own resources in, and Global Fund is putting more directed 
resources in as well.
    The third is the cost of the antiretrovirals have come down 
dramatically. So as a total--as a proportion, the 
antiretroviral itself is a lower cost. What is--what we now 
know is required to have a high-quality program that is 
preventing deaths at an optimized rate is having effective 
treatment initiation earlier and having effective adherence 
efforts over the long term.
    So the all-in, more comprehensive treatment costs should 
clearly meet the statutory requirements. I can follow up with 
more specific detail on that, but that has been--those have 
been the major trends in PEPFAR. And I believe they offer the 
opportunity to create an AIDS-free generation consistent with 
the blueprint we have published with our colleagues at the 
State Department.
    Mr. Dent. I have a series of seven questions, which I will 
submit for the record, except for one. I will ask you to 
respond, your staff to respond to those at a later date.
    But worldwide, deaths of children under 5 years of age, 
mainly from preventable infectious diseases, has dropped from 
about 12.6 million per year in 1990 to 6.6 million per year in 
2012. That is probably one of the greatest stories in the 
history of human health. What more can the U.S. do beyond what 
it is already doing to help prevent the deaths of the next 6 
million?
    Dr. Shah. Well, thank you, sir, for your question.
    And the reality is the opportunity to end preventable child 
death is, I think, the most profound and most cost-effective 
opportunity we have in global development. Two years ago, we 
brought together more than 80 countries, civil society, faith-
based institutions, and got everyone to sign a commitment to 
end preventable child death by 2035.
    And we have set targets and goals. We created country 
strategies and measurement plans. We are now in the process of 
reviewing 24 country programs and restructuring and redefining 
the investment portfolio in those programs to accelerate lives 
saved over the next 3 years.
    At the end of June we will be unveiling the new investment 
plan in those 24 countries and trying to bring many more of our 
partners, including countries themselves, to that task.
    A final thing I will say about this is that the most 
important trend in this space has been getting countries 
themselves to take more ownership, direct more of their 
resources, and focus with more business-like, results-oriented 
investment on ending preventable child death. And countries 
like Ethiopia, India, Nigeria, South Africa have taken that on 
and are leading that charge.
    And that is why our investments in child survival are now 
15 percent of the total global investment, and we want to 
continue to get others to do more.
    Mr. Dent. Thank you. My time has expired.
    At this time, I recognize the gentleman from Texas, Mr. 
Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Dr. Shah, good seeing you again.
    Let me talk to you about your OEs, your operating expenses. 
From the present estimate to the request for 2015, you all had 
a $243,000 decrease. I haven't seen all the countries, but I 
can look at the Republic of Mexico, and I know when we had 
Secretary Kerry, I had asked him why he had reduced his 2015, 
and he told me he didn't. And he was wrong.
    His staff a week later sent me some information, and 
actually, they had gone from $227 million to $115 million, a 49 
percent decrease from the prior year. From there, also under 
one of the accounts that you handle, we had specifically 
increased Mexico from $35 million to $45 million, and then 
again, it got reduced again on the request.
    Dr. Shah. Well, thank you, Congressman.
    Let me just say we have a very strong program in Mexico 
that delivers really important results, particularly on justice 
sector reform and support with implementation of crime 
management policies. One of the things that --
    Mr. Cuellar. I don't mean to interrupt. I apologize.
    Dr. Shah. Yes. Sure.
    Mr. Cuellar. You hear a lot from Members of Congress about 
the violence and the border and this and at. Why would you all 
decrease money, especially when we had just increased it by $10 
million, and you all came back and decreased it by $10 million?
    And again, if you are addressing violence, and everybody 
talks about the violence that we have to our third most 
important neighbor, why would you decrease this in Mexico?
    Dr. Shah. Well, sir, overall, the budgets are very, very 
tight this year. And the larger narrative on the budget is that 
there has been a big shift to security investment that puts 
downward pressure on foreign assistance. Within that, we have 
tried to maintain core priorities.
    And in the context of Mexico, the fiscal year 2015 request 
is $47.5 million, and my team can follow upon the numbers. But 
I think it is $47.5 million. That is higher than the $45 million 
requested in fiscal year 2014.
    So we are trying to maintain support for this effort. We 
are trying to focus the effort on the Merida program and the 
efforts to support citizen security.
    Mr. Cuellar. America's funding was cut by 49 percent. That 
is why I started off with your OEs. You only reduced it by 
243,000. Actually, in Washington, DC., your Washington 
operation is--about $425 million. This is for USAID. For 
central support, that is another $248 million.
    So I can understand there is pressure, but when you only 
reduce your administration costs by $243--it gets us to think 
about this.
    Let me ask you, because I have got about a minute and a 
half, a question I have been asking and I think Senator Tom 
Harkin has been asking you all. And I believe he still hasn't 
got an answer for over a year, and I haven't got an answer for 
a year also.
    The Scholarships for Education and Economic Development, or 
SEED program. I know you all are looking at another plan, but 
we still haven't got any details on that plan. I think the 
Senator asked you about a 1-year extension so you can develop 
something. In June of this year, in a couple of months, some of 
those programs are going to lapse, but there is still no plan 
from you all out there.
    Could you tell us what your plan is for the SEED program 
and whether you are willing to delay at least some of those 
lapses so we can at least get an idea of what you are planning 
to do? And anything you want to tell me about the President's 
initiative, what your direction is for the Small Business 
Network of America?
    Dr. Shah. Thank you, sir.
    On SEED, let me just say this has been a highly successful 
25-year program to bring students, as you know, from the Latin-
America-Caribbean region to the United States, and it can cost 
up to $45,000 per student per year.
    And so, as we have looked at the program going forward, in 
consultation with community college partners, we are 
constructing a new vision of it where more of the education 
takes place in country and where the community colleges are 
engaged in partnerships with host institutions in country to 
upgrade their skills and to allow for some connectivity.
    What I have talked about with Senator Harkin and others is 
there was a miscommunication or there was a perception that we 
were abruptly ending the program before the new one comes into 
place. That is not going to happen. There is no student that is 
here on a 2-year program that is going to be sent back after a 
year. All of the existing program is going to be fully 
transitioned before we go forward with a new program.
    Mr. Cuellar. So, for the record--for the record, on June, 
if a program lapsed, that is going to be extended?
    Dr. Shah. No student that is currently in a program is not 
going to have the opportunity to live out the full commitment, 
they currently have and that I think is the right decision and 
consistent with your guidance and the Senator's.
    But let me also note that Christie Vilsack, our special 
coordinator for education, has been consulting widely with the 
community colleges themselves, has been on the Hill a bit, but 
would be eager to follow up with you to describe what we are 
thinking to get your feedback to ensure that current program 
partners are excited about the new program. I think it is an 
opportunity to increase the number of kids we touch and support 
and also build stronger ties between American institutions and 
those in the region in a manner that will get all the program 
partners enthusiastic with essentially the same amount of 
resources going forward.
    So it is an effort to just modernize what has been a very 
successful effort. We don't want anyone to lose out in the 
transition, and we want to work with you to make it a great 
program again.
    Mr. Cuellar. Thank you, sir.
    Dr. Shah. Thank you.
    Mr. Dent. Thank you.
    At this time, I recognize the gentleman from Florida for 5 
minutes, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Dr. Shah, how are you, sir?
    Just two questions. Before that, one quick point on the 
issue of Twitter so that Cubans could use Twitter in a country 
that access to the Internet is, frankly, forbidden.
    I know I keep hearing a lot of folks talking about that it 
was a strange, covert, you know, NSA program. And yet if you 
look at the President's budget when it was created, they talk 
about exactly what it was about. And a lot of the outrage 
coming from particularly one member of the Senate, and yet that 
same member of the Senate put language in the Senate bill, 
appropriations bill last year asking USAID to do, frankly, a 
similar program in Iran.
    So, again, I just keep hearing all these things, and I was 
a little bit shocked by the story from AP. I don't tend to 
criticize the press, but trying to come up as if this was some 
covert, strange operation when, in fact, it has been in print. 
It has been looked at, reviewed by everyone, including GAO.
    My only concern there is I hope that we are able to 
continue to do that because it was a huge success for a while, 
and then obviously, it became too big too quick and, all of a 
sudden, kind of like outdid its funding. I am just hoping, Dr. 
Shah, that we look at options like that and things like that 
not only for Cuba, but other places where we need to try to 
break that Internet and communication blockade.
    That is not for you to answer, just I am hoping that you 
are looking at the success of that and that we can hopefully 
try to replicate that.
    Two points. I was recently, Dr. Shah, in Haiti with a 
couple of my colleagues. And we visited a USAID housing 
project, the Haut Damier--and I know I am not pronouncing that 
right--housing site. It was subject to a GAO report.
    I am not going to get into what we saw there about the GAO 
report. I am just going to bring out another little issue. We 
all know that Haiti has an issue with the fact that they have 
cut down a lot of the trees just to cook, charcoal. And so, 
there is an initiative, which I think is meritorious, to see if 
you can get people off of charcoal onto gas.
    What we noticed, however, right away, because gas is more 
expensive than just buying--you can buy a couple of chunks of 
charcoal. And we noticed right away that some of the gas stoves 
had been provided by programs were, frankly, just used as 
shelves. And we saw the charcoal stoves right next door.
    So this is the question. Have studies been done as to where 
that kind of program--I am assuming there are other places 
where we have had similar issues. Where it has worked, where it 
hasn't worked? Why it has worked where it has worked? Why it 
hasn't worked where it has worked?
    I would imagine that there would be some things that you 
could kind of just pull off different studies before you 
attempt one. I fear that the one in Haiti, which is very well 
intentioned, may not have the desired effect. And that is--if 
you want to just address that first?
    Dr. Shah. Sure. Thank you, Congressman.
    On that specific effort, it is important that over time, 
Haitians stop cutting down trees and using them for charcoal. 
That is just--and there has been a huge amount of evidence to 
demonstrate how disastrous that is for their core productive 
agricultural economy, for example.
    So as part of reconstruction effort and in providing 65,000 
families with housing after the earthquake and in the 
reconstruction period, we have had some of these pilot efforts 
to do community conversion to LNG gas cook stoves. And what we 
have learned from prior efforts is that training for food 
vendors, for schools, for households is critically important. 
Initial subsidy for the LNG canisters is critical to get the 
new system up and running.
    That ongoing kind of household-level community effort to 
help people talk to each other and kind of move en masse both 
creates a market, and it creates enough social infrastructure 
so that people can see their neighbors using it and be more 
comfortable with that practice. Some of the efforts in this 
regard have been successful in Haiti. Others have not.
    And so, we are in the process of evaluating all of these, 
learning and adapting the programs. But it is something we have 
got to keep trying to do, and you are right to direct us to 
look at best practices, which are pretty prevalent in many 
other parts of the world where people have successfully made 
this transition, and try to adapt those learnings to Haiti.
    Mr. Diaz-Balart. Sure. I don't mean to interrupt you, but I 
am glad that you are aware of that. There are areas where, 
obviously, it is not going to work and where you have to make 
it work. You are absolutely right. I am just concerned that we 
are making sure that it is the best practices.
    One other thing, Dr. Shah, we visited a hospital, which is 
where Project Medishare is, Bernard Mevs Hospital. And 
incredible amount of volunteers, including Americans, were 
there--I know they are experiencing someelectrical issues, some 
power issues. I don't know if your folks have had an opportunity to 
look at that, but it is a crucial--it is a hospital that, obviously, is 
very important to Haiti. And I can get you some more information.
    And lastly-- well, I am out of time, Mr. Chairman. So maybe 
we will have a second round to talk a little bit about 
Venezuela.
    Dr. Shah. Okay, thanks.
    Mr. Dent. At this time, I recognize the gentlelady from 
Florida, Ms. Wasserman Schultz, for 5 minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Dr. Shah, it is good to see you, and thank you for your 
commitment. And I enjoyed talking with you in my office a 
couple of weeks ago.
    Just so that we are clear that Cuba is not a partisan 
issue, let me echo the comments of my colleague from Florida, 
Mr. Diaz-Balart. We have fought hard in a bipartisan way for 
funding for civil society programs and also fought equally as 
hard in a bipartisan way to ensure that through GAO review that 
accountability was a part of those programs so that we weren't 
just throwing money into a black hole and not really seeing any 
results.
    And for a while, we did have concerns that the civil 
society programs that we were funding were just going to 
organizations with not a lot to show for it. It is pretty clear 
that this particular program--for lack of a better term, Cuban 
Twitter--did have results and did connect Cubans to one another 
and showed promise.
    So, you know, I really--while I don't want to endorse 
regime change here in this subcommittee, I think there is no 
question that the United States position is and should be that 
human rights be something that we stand up for as a nation, 
that we use our vast resources and influence to help people who 
are being persecuted, and that there is no question that that 
persecution and human rights violations are ongoing in a nation 
just 90 miles from our shore.
    So just saying. And I would appreciate if you have anything 
to add.
    But I wanted to ask you specifically about faith-based 
organizations and support for family planning. You know, we 
often hear from opponents of access to family planning that 
their opposition stems from religious beliefs. But I know I 
hear all the time from religious organizations across all 
religions, I might add, from the Jews to the Methodists -- even 
in Afghanistan, there are some religious leaders who are 
realizing that family planning has become critical for the 
health and economic well-being of that country, as well as in a 
variety of African countries as well.
    So can you talk about what USAID is doing to work with 
faith-based organizations in the field to deliver reproductive 
health services? Also what more can we do to support those 
efforts and get the word out but that not only is family 
planning not incompatible with faith, but that the two are, in 
fact, mutually reinforcing? Because I think there is a 
disconnect here inside the beltway between those that seem to 
condemn family planning as somehow being not in line with 
faith-based values.
    Dr. Shah. Thank you, Congresswoman, for your tremendous 
leadership on these issues. I appreciate the question, and I 
may save Cuba for perhaps later in the hearing and speak to the 
family planning issue first.
    As you know, our programs in family planning are entirely 
voluntary, that we have very strict controls to ensure that we 
do not fund abortion, that we are the world's largest supporter 
of voluntary family planning for very poor communities, and it 
is a critical element of empowering women to take control of 
their own lives in settings where they otherwise may not have 
that opportunity.
    We know that the Obama administration, relative to the 
previous administration has increased the commitment to family 
planning on the order of 40 percent and sustained that over the 
course of a very difficult budget environment. And we know that 
we actually have built partnerships with AusAID and the UK and 
the Bill and Melinda Gates Foundation to bring others into a 
really results-oriented approach that can take advantage of the 
two big realities of these family planning programs.
    The first is that this is one of the most cost-effective 
ways to save mothers' lives during child birth. And in places 
where child birth is still highly risky in terms of mortality, 
that is critical. And second, that it is about the most cost-
effective way to save a child's life as well, with proper birth 
spacing contributing not just to reductions in infant and child 
mortality, but also to investments that families make in kids' 
education.
    So we have been pretty effective, I think, in our family 
planning programs around the world. They are done under, as you 
know, careful scrutiny. But we have been proud of these 
efforts, and we have been proud of the fact that we have gotten 
so many other partners, including the Gates Foundation and the 
UK and Australia and countries themselves, to take ownership of 
many of these and increase their resources considerably through 
an initiative we all call Family Planning 2020, I believe.
    Mr. Dent. Thank you.
    At this time, I recognize the gentlemen from Kansas, Mr. 
Yoder. Five minutes.
    Mr. Yoder. Thank you, Mr. Chairman.
    Dr. Shah, thanks for joining us. It is good to see you 
again.
    We have discussed this issue before. I wanted to just go 
back to a topic related to the Food for Peace program and how 
it affects American, Kansas farm producers all across our 
districts who are part of producing grain and other products, 
meat products, et cetera, that are sent around the world to 
help deal with world hunger.
    It has been sort of a two-part relationship. One, we are 
helping feed hungry people, and two, we are putting American 
producers to work. These products come with a label saying 
furnished by the American people or being furnished by the 
people of the United States of America. It is a source of 
pride, I think, for our country when we see those bags of grain 
with our label on them go to the right places.
    The President's budget would allow 25 percent of that aid, 
as I am sure you are well aware, which is the equivalent of 
$282 million, to go to cash assistance, as opposed to food 
assistance. In light of the farm bill debate in which Congress 
had a chance to litigate this issue and determined to keep the 
food aid programs the way they are and the status quo, is the 
administration going to continue to move forward with this 
budget request, as opposed to changing the underlying law, but 
to use the appropriations process to change how we administer 
the dollars?
    Do you agree with my concerns related to less Kansas, less 
American farmers being helped? What are your thoughts on that? 
And I am very concerned about it.
    And are you concerned about an erosion of public support 
for the program if more of the dollars are direct aid dollars, 
as opposed to dollars that are coming back to pay farmers and 
producers in the country?
    Dr. Shah. Thank you, Congressman, for the question.
    I appreciate the points that you raise, and the reason 
President Obama put forth the proposal last year and this year 
to reform and modernize this program is because we are facing 
an acute crisis in terms of humanitarian needs in a number of 
places that strip our current ability to provide humanitarian 
services.
    And we have a proud Food for Peace history. We have reached 
more than 3 billion people over more than 50 years. But 
frankly, the value and the size and the consequence of the 
program has been diminishing over time because of the higher 
cost structure of a model of assistance where we buy food here, 
put it on American ships, send it into communities, sometimes 
sell it in communities to raise cash that we then give to NGOs.
    That is not as efficient as it used to be, and we believe 
that a modest incremental reform will allow us this year to 
reach 2 million additional hungry kids in Syria, Central 
African Republic, and South Sudan, not cost America anything 
additional, and continue to support farmers.
    And here is why I think the reform proposal will continue 
to support farmers. This whole program is only 0.56 percent of 
total agricultural exports by value. Most of the major partners 
we have in the program will continue to be partners and will 
continue to be partners at a very large scale. We are talking 
about 25 percent of a $1.4 billion program.
    Second, we are now moving the product mix that we are 
sending from America into more specially designed medical 
foods, whether it is peanut paste or nutributter, and those 
higher-value products are appropriate for the American food 
system, which, as you know, is the best and most advanced in 
the world.
    And so, I think America is always going to have a huge role 
to play. But I think our farm partners in particular understand 
the challenges here. The National Farmers Union has expressed 
support for the President's reforms, as has Cargill and a 
number of companies that people might have thought would not.
    And over time, I think we will build a broad enough tent to 
continue to allow America to actually be the leader we need to 
be in these humanitarian settings, and we would appreciate your 
support for these modest reforms that will continue to make 
sure people see that American contributions are what are 
fueling these strong responses in the Philippines and South 
Sudan and Syria.
    Mr. Yoder. Well, in light of our efforts around the globe, 
whether it is the Food for Peace or food aid programs or 
whatever it may be, as we add more money into the system, the 
potential for fraud and corruption and misuse grows. Dollars 
are easier to probably fraud the Government out of than a bag 
of grain, although that happens as well and in many cases as 
significantly.
    So I worry as we move it to dollars, as opposed to grain, 
that that might become more troublesome. There have been lots 
and lots of accounts--media reports, IG reports--about fraud 
and waste in Afghanistan aid. Malaria drugs being sold on the 
black market that were not going to the intended recipients.
    I am sure you have been well aware of many of these 
situations. Could you outline for us where our biggest fraud 
risks are? What percent of our food aid and our foreign aid as 
part of USAID is being frauded or not getting to the right 
recipients based upon your analysis? And what are we doing to 
cure that?
    Dr. Shah. Thank you.
    You know, we have, I think, a very strong program in place 
to oversee how we spend resources and mitigate the risks of 
fraud, waste, and abuse. I would say war zones of all kind 
increase the risks. So active conflict environments in 
Afghanistan, providing and trucking food around Somalia through 
al-Shabaab controlled areas a couple of years ago. Those are 
the kinds of environments that have the highest risks for 
waste, fraud, and abuse.
    The reality is most of our program, the great majority are 
not provided in those contexts and under those terms. And we 
have a very strong oversight system that includes the Inspector 
General. It includes very clear reporting. For any resources we 
provide directly to local partners or countries in particular, 
we provide them on a receipt basis. So we evaluate the receipts 
and the costs they have incurred and then reimburse them for 
incurred expenses.
    I have worked at the Gates Foundation. I now work at USAID. 
I understand accountability is critical, and we have increased 
our accountability systems very significantly in places like 
Afghanistan. In general, we don't overinvest in it, but we do 
create a lot of bureaucracy to track every penny. I understand 
why that is important. But I think we are covered in terms of 
having a very, very strong accountability system when it comes 
to waste, fraud, and abuse.
    And as it relates to your last comment, I will just say 
that we have now been, since the Bush administration, 
implementing local and regional purchase in food aid, and we 
have not only found no higher rate of waste, fraud, and abuse 
there, we have actually found it brings the cost down, gets the 
food faster to people in need, and often is the more 
appropriate mix of products that they need, like in the 
Philippines response.
    Mr. Yoder. Well, I look forward to working with you to 
ensure that we improve the integrity of these programs. I think 
nothing probably angers our constituents more than seeing 
American dollars wasted on a program where it is not intended 
to be overseas.
    Thank you, Mr. Chairman.
    Dr. Shah. Thank you.
    Mr. Dent. Time has expired.
    I recognize Mrs. Lowey for a moment.
    Mrs. Lowey. I just want to apologize. Unfortunately, there 
are four hearings at the same time so I have to leave. I wanted 
to make two quick points, and I know we will have the 
opportunity to continue this discussion.
    First of all, as you know, I am not very happy with the 
basic education dollars. I think it is absolutely essential 
that we raise that number and continue to invest in basic 
education.
    Secondly, I referred to the situation in Cuba before. As 
you well know, we had a problem in Pakistan where immunization 
workers were perceived as being helpful in tracking down Osama 
bin Laden, and this caused a decrease in immunizations because 
the general population did not trust them.
    So I think as we proceed, and I understand that everything 
that has happened is all on the record and notices were given, 
et cetera, but I think we have to constantly weigh the 
investment in development programs and how they can be 
sabotaged by some of the work that may be perceived as very 
noble in democracy programs. Whether it is in Cuba or other 
countries, this is an important priority, and we have to 
continue to discuss the impact of one on the other.
    So I thank you again for clarifying the actions of USAID, 
but I don't think we have resolved the challenges that we have 
before us.
    Thank you.
    Dr. Shah. Should I respond?
    Mr. Dent. You may respond.
    Dr. Shah. Well, I would just say thank you, Congresswoman.
    I would say briefly on education, we have had the chance to 
discuss this, and I just want to say on the record how much I 
value your leadership and admire what you have done to help our 
country lead on this issue all around the world.
    The two things I will say on that is our fiscal year2015 
request is higher than the fiscal year 2014 request.
    Mrs. Lowey. Not as high as it should be. [Laughter.]
    Dr. Shah. Not as high as it should be. And as you well 
know, through our Room to Learn initiative, the partnership 
model we have with some other funders is really helping us get 
leverage and better results, and I am very appreciative of your 
support.
    And I take your comments on Cuba and Pakistan and look 
forward to future discussion.
    Mrs. Lowey. Thank you.
    Mr. Dent. I recognize the gentleman, Mr. Schiff, for 5 
minutes.
    When we go to the second round, we will do 3 minutes of 
questions. Thanks.
    Mr. Schiff. Thank you, Mr. Chairman.
    And Director, welcome. It is great to see you again, and I 
apologize if this is the subject of an earlier question, but I 
wanted to raise Syria with you.
    According to USAID figures, well more than 9 million people 
are now in need of humanitarian assistance in Syria due to the 
devastating civil war there, including over 6.5 million 
internally displaced persons. I understand and appreciate that 
the United States is continuing to work through all possible 
channels to deliver aid to those in need in Syria, including 
through United Nations, international and nongovernmental 
organizations, and local Syrian organizations.
    I am also encouraged to see in your testimony that USAID is 
providing lifesaving aid to more than 4 million people across 
the country. While all of Syria's people have suffered, its 
minority populations and especially Syrian Christians are most 
at risk. These are some of the oldest Christian communities in 
the world, dating back to the first decades after the death of 
Christ.
    About 2 weeks ago, the town of Kassab, which is 
predominantly Armenian Christian, was attacked by al-Qaeda 
linked fighters who crossed over from Turkey, resulting in the 
town being emptied. Many of its residents were descendents of 
the survivors of the Armenian genocide, and this attack has 
greatly increased the apprehension of all of us concerned about 
Syria's minority communities.
    Can you tell us what efforts USAID is making to identify 
and provide for Syrian minority communities? Many of them, I 
understand, resist seeking refuge in UNHCR and other NGO 
facilities out of fear for their safety and, thus, are more 
likely to be internally displaced persons.
    Dr. Shah. Thank you, Congressman.
    I appreciate your laying out the consequences of this 
horrific situation, and the reality is while we are reaching 
more than 4 million people inside of Syria, there are still 3.5 
million that are not being reached by anybody because they are 
inaccessible because of the conflict.
    Two hundred twenty thousand of them are literally in 
besieged areas where food and water are used as a weapon of 
war, and we saw what they looked like when they left homes a 
few weekends ago.
    With respect to minority communities, especially in the 
north, most of our services to those communities are provided 
through NGOs and international partners, not primarily U.N. 
agencies, and are provided through cross-border activities. 
That allows those communities to be reached, and it allows more 
effective access, and the U.N. only started some of those 
cross-border activities very recently in the last few weeks, 
especially across the Turkish border.
    Expanding cross-border humanitarian support is a critical 
part of the U.N. Security Council resolution. I would just note 
that Valerie Amos of the U.N. reported on the first month of 
the resolution's implementation and said that the Syrian regime 
had not lived up to the standards of access on what we call 
cross-line inside of Syria and cross-border across neighboring 
countries access issues. And so, we continue to work through 
that with the Syrians, with others to make sure we are doing as 
much as we can.
    But it is insufficient by definition, and I am verysorry to 
hear about the communities in Kassab, and we will ask our teams to 
specifically follow up on that.
    Mr. Schiff. If you would, I would appreciate it. If you 
could let me know in particular what you are able to find out 
about the refugees from Kasab. Some of them have taken shelter 
in Latakia. Others in--I understand some of the elderly across 
the border in Turkey. If you could let us know what can be done 
to help provide for them?
    It is, admittedly, a very small subset of Christians in 
Syria who are being targeted because they are Christian, which 
is, in turn, a very subset of the humanitarian disaster in 
Syria. But I have a great many constituents who are deeply 
concerned about this. As we approach the genocide, Armenian 
genocide anniversary, it is particularly painful to see yet 
another Armenian community ethnically cleansed from its homes.
    [The information follows:]

    Dr. Shah. We continue to monitor and respond to needs of 
recently displaced Christian Syrian-Armenians from the Syrian 
village of Kassab. USAID partner the United Nations Office for 
the Coordination of Humanitarian Affairs (OCHA) has conducted 
several monitoring missions to displacement sites within Syria, 
including sites with populations displaced from Kassab, to 
identify humanitarian needs and to negotiate with local 
authorities for protection and assistance to displaced 
civilians.
    UN partners report the majority of displaced Syrian-
Armenians from Kassab have been registered as internally 
displaced persons and are receiving assistance through local 
Red Crescent Society organizations. In addition to being housed 
with extended family or renting apartments in urban centers, 
displaced families have received food assistance, basic 
household items and hygiene supplies.
    In addition to the internally displaced population, twenty-
one Syrian-Armenians from Kassab were met at the Turkish border 
by local authorities, where they were provided initial medical 
exams and then escorted to Turkish-Armenian communities for 
assistance. The US Consulate in Adana, Turkey visited the 
refugees and confirmed their immediate needs, including food, 
medicine, clothing and housing were being met through local 
community and Red Crescent organizations. Turkish authorities 
also provided a doctor to assist the refugees who required 
specialized medical care and prescription medications.
    The US Consulate in Adana has verified that while the 
Syrian-Armenian refugees from Kassab are eager to return home 
and reunite with families if their safety can be assured, they 
described being safe and comfortable in Turkish communities of 
refuge.

    Mr. Schiff. I thank you, Mr. Chairman, and I yield back.
    Mr. Dent. Thank you.
    At this time, we will move to a second round of 
questioning, but for 3 minutes only. First, I recognize Mr. 
Diaz-Balart for 3 minutes.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Dr. Shah, just very quickly about Venezuela, if we may? I 
don't have to tell anybody here about what is going on there, 
where you have folks hitting the streets, trying to -- mostly 
students, trying to regain their freedom and their democracy. 
You have some of the main opposition leaders in prison for over 
a month. You have mayors thrown in prison. You have the press 
being censored.
    But specifically to your budget request, I believe it 
includes $5 million ESF funds. My understanding is the budget 
request of the last few years for Venezuela has actually been 
seeing a gradual reduction in democracy and civil society 
programs, despite the reality on the ground in Venezuela.
    And since the congressional budget justification has not 
been released yet, as far as I know, well, a couple of things. 
First place, because of what is going on in Venezuela, do you 
expect an increase above the $5 million figure, number one? And 
number two is since the CBJ has not been released, if you can 
provide us with some additional details as to your request for 
democracy programs throughout our hemisphere and specifically 
for Venezuela?
    And Mr. Chairman, in time. You see that?
    Dr. Shah. Thank you, Congressman.
    As Secretary Kerry recently noted about the Venezuelan 
government, they have severely limited freedoms of assembly and 
expression precisely as you articulate. USAID supports 
Venezuelan organizations, and civil society broadly to support 
citizen advocacy pushing for public accountability.
    In fact, over the last 45 days, those partners have done 
quite a lot to identify, document, and report on human rights 
violations, as our partners have done in Ukraine and in some 
other parts of the world.
    The $5 million request for FY2015 is consistent with the 
fiscal year 2014 request.
    And throughout the region, we will continue to support 
these programs. Again, we have had a long conversation about 
this in this session, but we do think that investing in 
democracy rights and governance, support for civil society 
precisely in those places where civil society is harassed and 
prevented from operating is particularly important.
    These are longer-term investments that don't often yield 
very strong and immediately recognizable short-term results. 
But having seen the long-term efforts pay off in many parts of 
the world, I think it continues to be a modest, but critical 
part of how America presents itself in the context of USAID 
programs.
    Mr. Diaz-Balart. Thank you.
    Mr. Dent. At this time, I recognize the gentlelady from 
California for 3 minutes. Ms. Lee.
    Ms. Lee. Thank you very much.
    Back to Cuba again. I am equally as committed to the 
promotion of human rights everywhere in the world, just as my 
colleagues are, whether it is in the 70 countries that 
criminalize those with HIV or AIDS or here in our own country, 
where we should really be ashamed of the mass incarceration of 
African-American men.
    What many of us don't agree with is an embargo against 
countries like Cuba, 90 miles away, which prevents normal 
foreign and economic relations where our Government and our own 
citizens, mind you, cannot travel nor engage in dialogue to 
address many of these issues. That is the point.
    I assume the taxpayers believe that the Cuban Twitter 
program, given our fiscal constraints, was in the best 
interests of our national security, given that Cuba is on the 
state-sponsored list of terrorists, or terrorism. It is one of 
the state sponsors that you guys continue to say, you know, we 
need to deal with as such.
    So I just want to see how many money could you lay out the 
taxpayers paid for this, given that I am sure it is also in our 
national security interests?
    Secondly, trying to get a better understanding of how USAID 
works with the United Nations as it relates to Haiti, in terms 
of the fight against the cholera epidemic and how you 
prioritize the funding for cholera, addressing cholera in 
Haiti?
    Finally, your cut, I think, in the tuberculosis funding, I 
believe it is 19 percent from last year. And so, I would like 
to get a handle on why you are proposing to cut the TB budget, 
particularly in light of the strong relationship between HIV 
and AIDS and TB as it relates to it being an opportunistic 
disease?
    Thank you again.
    Dr. Shah. Thank you, Congresswoman.
    On Cuba, I will just acknowledge your perspective, and I 
understand the point you make about the embargo. My priority 
has been taking the law, implementing it and ensuring that our 
implementation of it was well managed. And the GAO report was 
important at validating that approach, and I will leave it at 
that.
    Ms. Lee. How much did the taxpayer--
    Dr. Shah. The program you are referring to--and there were 
a number of inaccuracies in the AP story so we can share with 
you the point-by-point rebuttal that we put out publicly--was 
$1.3 million over a number of years. And for that, about 68,000 
Cubans were able to be part of a text messaging communication 
system.
    In terms of the U.N. and cholera, you know, cholera has 
been a priority for our health and water and sanitation 
programs in Haiti. Our rural health programs there have been 
extraordinarily effective at reducing the rate of child 
mortality related to cholera to under the 1 percent WHO target, 
and we have done that hand-in-glove with the U.N.
    And so, we will continue to make those investments. We have 
also tried to do that in a way that builds out a proper health 
system, so it is not just going and putting out a fire. But it 
is rather making sure that clinics are well stocked, making 
sure that the full range of child health interventions are 
available to kids, especially in rural Haiti.
    And in some of the districts, we have even invested in 
secondary care maternity hospitals to help improve maternal 
health outcomes and to do that in a way that is tied back to 
some of the higher-order hospitals that were mentioned earlier 
in the hearing.
    In terms of TB, this has been a success story. We have had 
a 50 percent reduction in TB mortality. The United States has 
three primary accounts for supporting this. The first is 
USAID's bilateral account. The largest is PEPFAR's bilateral 
account, which, at $180 million or $190 million, is a 
significant investment. And the other one is our resource gift 
to the Global Fund for AIDS, TB, and Malaria.
    In addition to significantly increasing our Global Fund 
commitments over the past several years, we just helped the 
Global Fund board increase its allocation within its fund 
responsibilities to tuberculosis from 14 to 18 percent, or 
something along those lines. So we could get you more details on it, 
but I want to assure you, having worked on this issue, visited 
programs, built partnerships with local private sector companies and 
the countries like Brazil, China, India, and Russia, that account for a 
lot of existing TB mortality, getting them to do more and recognizing 
that those are middle-income countries that should take more 
responsibility has been part of our.
    Mr. Dent. Thank you.
    At this time, I recognize the gentleman from Texas, Mr. 
Cuellar, for 3 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Dr. Shah, again, maybe we can set up a phone call with 
Senator Harkin and I because the way you answered the question 
about the SEED program still doesn't say if it finishes in June 
whether that is it for that program. So I would like to follow 
up because I don't want to take up my time on that.
    Dr. Shah. Okay.
    Mr. Cuellar. But I am going to talk to Senator Harkin and 
follow up. There are two community colleges in Texas. One is in 
El Paso. The other one is in San Antonio. I represent part of 
San Antonio. I would like to follow up.
    The second thing is if you can also follow up later the $10 
million that we increased and you all decreased----
    Dr. Shah. Yes.
    Mr. Cuellar.[continuing].If you can specifically tell us 
what you are looking at doing with that?
    And then my question for right now is your Central Asia 
regional for $16.9 million, you are going to continue that 
cross-border training for the new silk road initiatives. Can 
you just quickly tell me what countries are included in the 
silk road initiative?
    Dr. Shah. Yes. So let me--on SEED, I will commit to that 
call, and I would be eager to do it. I think both those 
community colleges have been consulted by our team, but we 
would be eager to do that.
    On Mexico, I would just suggest, and we will follow up with 
the numbers, I have that in our fiscal year 2014 request, we 
had $45 million total, of which the $10 million in DA. And in 
our fiscal year 2015 request, we had $47.5 million, of which 
$12.5 million is DA and $35 million is ESf. So those, maybe 
those are different from what you have, but we will work that 
through, and I will make sure my teams are clear about that.
    Either way, we have carefully reviewed this program. And 
the investments are, as you know, part of Merida. We believe 
and we rebid a new project that is focused on justice sector 
reform, and the results from the effort are quite 
extraordinary. In communities where we work versus don't work, 
we are seeing very, very strong quantified, evaluated results--
speeding up trials, speeding up getting the process moving, and 
making criminal justice more effective.
    So I would appreciate the chance, to go into this in more 
detail.
    Mr. Cuellar. Yes, I would like to do that because, again, 
what we got from folks at the department were different 
numbers. So I would like to make sure we are on the same page.
    Dr. Shah. Okay. And with respect to the new silk road, this 
is, part of an effort we called the Almaty Consensus, but it is 
an effort to have Afghanistan and its neighbors work on more 
regional integration, trade, and energy partnerships. Recently 
we just concluded an agreement that will help Afghanistan get 
access to about 1,300 megawatts of energy that will be sold 
from Tajikistan and other places.
    The initiative is defined to include the region broadly,

``but specifically includes Kazakhstan, Kyrgyz Republic, Tajikistan, 
Turkmenistan, Uzbekistan, Afghanistan, Pakistan, India.''

    And then, there are specific priorities in energy, in trade 
transit, in customs clearance times, and in improving 
infrastructure and connectivity.
    Mr. Cuellar. If you can follow up on this? I have the 
"stans" countries, and I have Azerbaijan and Georgia. But if 
you all can follow up on those just to make sure we are on the 
same initiative.
    Dr. Shah. We would be happy to. Thank you, sir.
    Mr. Cuellar. We have some proposed language, and we want to 
make sure we are on the same page as yours.
    Dr. Shah. Good. Thank you.
    Mr. Cuellar. Thank you so much, Doctor. Appreciate your 
good work.
    Dr. Shah. Thank you.
    Mr. Dent. Thank you.
    I recognize the gentlelady from Florida for 3 minutes. Ms. 
Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Dent. Before you begin, somebody has got a computer too 
close to the microphone. Thanks.
    Okay. There you go. [Laughter.]
    Ms. Wasserman Schultz. That would be me.
    Mr. Dent. Restart the clock.
    Ms. Wasserman Schultz. Way too much technology going on 
here.
    Thank you, Mr. Chairman.
    I want to focus for a minute on nutrition and just the 
concerns that I know a number of people have expressed on some 
of the proposed cuts in the budget in nutrition programs. 
Congressman Diaz-Balart and I have worked together on the 1,000 
Days resolution, and we think, obviously, addressing child 
hunger and nutrition worldwide is critically important, and I 
know you do as well.
    So can you give us an update on the new nutrition 
initiative, which I think isn't very well understood, and how 
that proposes to address our priorities around nutrition and 
child hunger in the face of what seems like cuts to programs 
that are designed to be effective?
    Dr. Shah. Thank you. And thank you for your leadership on 
1,000 Days. It is one of my favorite examples of bringing 
updated science and knowledge of what works to a field that has 
been of ongoing for a long time, but now has an opportunity to 
dramatically reduce stunting in particular.
    In May, we will launch a new USAID strategy on nutrition 
that will effectively serve as an investment plan to back up a 
series of commitments the Obama administration made in the G-8 
last year. And the most important commitment was that we would 
spend almost $1 billion over a 3-year period in nutrition-
specific interventions from agriculture, health, and core 
supplemental feeding in that 1,000-day window.
    What we will articulate in the new strategy are the 
countries we are prioritizing, the specific stunting targets we 
hope to achieve with the effort, the need to use and leverage 
resources from our Feed the Future programs in those countries 
to ensure that we are tackling agriculture and nutrition 
together.
    I have had the chance to discuss with the NGO community 
quite a lot about this effort, and I think it is very important 
because it starts to bring together health, agriculture, 
nutrition, against a common goal, which is ensuring that 
children in particular are not debilitated and stunted over the 
course of their lives because of a lack of access to adequate 
nutrition in the first 1,000 days.
    This has personal significance to me because I come from a 
long history of Indian Americans, many of whom are stunted in 
past generations. But when you are like 2 feet taller than your 
grandmother, it hits home.
    So we have an opportunity to actually do this well. It will 
be, I think, a strong effort, and I think what is in the budget 
is 101 million on the nutrition line item. But that is just one 
component of what an integrated nutrition strategy can 
accomplish.
    America leads the world in this area, and so it is 
appropriate that we have a strategy and a target and a goal and 
the ability to report on what we are doing.
    Mr. Dent. I will recognize myself for 3 minutes.
    Dr. Shah, is USAID deploying any new technologies beyond 
the monitoring and evaluation to ensure that when problems are 
discovered in the M&E process, reasonable steps are being taken 
to actually resolve those problems, not just learn from them 
for the future? And do you need any other--do you need any 
further specific support or flexibility to ensure that you are 
able to watch projects, even after completion, and take 
reasonable steps to resolve the problems once identified?
    Dr. Shah. Well, thank you, Congressman.
    We have put in place a very aggressive monitoring and 
evaluation strategy. It was actually recognized by the American 
Evaluation Association as a best practice. As a result of that 
effort, relative to 4 or 5 years ago when we produced maybe 10 
or 20 coherent evaluations on an annual basis, we now do about 
280 a year.
    They are all available on an iPhone app that you can go to 
the app store, download the app, and then you would be the 15th 
person to use it. And I love it. It is great if you have long 
flights.
    But the reality is we know that 50 percent of our 
evaluations are used for midcourse program corrections, and we 
are also doing post program evaluations in certain cases as 
well. You know, I support the efforts you have made and others, 
like Congressman Poe, to really put forth a vision that all of 
our major programs should be coherently evaluated, and we 
should learn from them. And I think USAID leads the charge in 
terms of getting that done and making that data publicly 
available.
    In terms of using new technology for that work, in many 
cases, we have third-party evaluations, which is a best 
practice in the industry. And in many cases, we do use 
technology, whether it is SMS data from program participants to 
make sure teachers are showing up at the schools or satellite 
imagery to track crop yields, as I just saw we are doing in 
Nepal through a partnership with NASA.
    But in general, the goal is to be cost effective in how we 
do the evaluations.
    Mr. Dent. Thank you.
    In the interest of time, I will submit my five additional 
questions for the record and hope that you can respond to those 
at a later date.
    Mr. Dent. And just again, I wanted to thank you, Dr. Shah, 
again for your time today. Thank you for coming.
    This concludes today's hearing. Members may submit any 
additional questions for the record.
    Mr. Dent. The Subcommittee on State, Foreign Operations, 
and Related Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                          Wednesday, April 2, 2014.

          UNITED NATIONS AND INTERNATIONAL ORGANIZATIONS BUDGET

                                 WITNESS

SAMANTHA POWER, UNITED STATES AMBASSADOR TO THE UNITED NATIONS

                Opening Statement of Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    Ambassador Power, thank you for being with us today to 
testify on the fiscal year 2015 budget request for the United 
Nations and other international organizations. The direct 
appropriations requested goes up significantly, by more than 25 
percent. We need to hear why this is justified, especially in 
light of the fiscal challenges we face here at home.
    In the short time you have been Ambassador to the U.N., 
many important issues have come before you that impact U.S. 
national security. On Iran, the U.N. and the IAEA in particular 
have an important role to play, both in terms of making sure 
Iran follows through on its commitments, and in keeping up the 
pressure as the final deal is negotiated.
    In Syria, the U.N.'s role is critical, both in eliminating 
the chemical weapons stockpile and getting humanitarian aid to 
people in dire need.
    On Ukraine, the U.N. General Assembly adopted a resolution 
last week that affirms its commitment to Ukraine's sovereignty. 
However, the U.N. has not been able to send a more powerful 
message because of Russia's veto on the Security Council.
    On the Israeli-Palestinian peace process, just yesterday, 
President Abbas announced that the Palestinians intend to be a 
party to 15 international conventions. This is very concerning 
and could jeopardize the peace process and possibly U.S. 
assistance. Since this has just happened, the ramifications are 
unclear. The administration must send a clear message to the 
Palestinians that the only path to statehood is through a 
negotiated agreement with Israel, not through unilateral 
attempts at the U.N. I hope you will update the subcommittee on 
these and other policy challenges that you face.
    There are a few other issues I want to mention. The first 
is a U.N. reform. During your confirmation hearing, you said 
that you would aggressively pursue efforts at the U.N. to 
eliminate waste, improve accounting and management, strengthen 
whistleblower protections, and end any tolerance for 
corruption. I would like to know what progress you have made in 
these areas.
    As you know, the fiscal year 2014 appropriations bill 
strengthens the transparency and accountability requirements. 
After all of these years, there is simply no excuse for the 
U.N. not making these commonsense changes.
    The final issue is the significant fiscal year 2015 budget 
proposed for the U.N. and its agencies. The subcommittee has 
learned that the U.S. intends to vote for a new peacekeeping 
mission in the Central African Republic. The humanitarian 
situation is troubling, and there is a clear need to protect 
civilians and ease their suffering. Yet the costs of such a 
mission would be significant, and the subcommittee needs to 
know what you plan to reduce to offset this commitment and 
whether you intend to submit a budget amendment to the 
Congress.
    The United States is by far the largest contributor to U.N. 
organizations and peacekeeping activities. More work needs to 
be done to ensure that the U.N. is making serious tradeoffs and 
is getting its budget under control.
    In closing, I want to thank you and the U.S. delegation to 
the U.N. in New York and around the world for the work you do 
to promote our national interests.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Now I will turn it over to Ranking Member 
Lowey for her opening remarks.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Ambassador Power, I join Chairwoman Granger in 
welcoming you today. I must begin by raising yesterday's media 
reports that Palestinian President Abbas applied for 
recognition from 15 U.N. conventions and treaties. This 
reckless effort signals a breakdown in the peace process, with 
far-reaching repercussions on the United States' relationship 
with the U.N. and its specialized agencies.
    Madam Ambassador, I hope you will begin your remarks today 
by discussing the administration's response to this news. This 
is distressing because the United Nations plays an integral and 
indispensable role in maintaining international peace and 
security; promoting economic and social development; 
alleviating hunger; championing human rights; and supporting 
efforts to address humanitarian crises.
    Conversely, instances of the U.N.'s negligence or 
unwillingness to act by some members of the Security Council, 
is unacceptable in the face of haunting images of victims of 
chemical weapons, gross violations of human rights, millions of 
refugees, and other tragic and eminently avoidable suffering 
around the globe.
    While the U.N. is far from perfect, neglecting or refusing 
to pay our commitments leaves the United States in a position 
of weakness, not strength. Our robust engagement is necessary 
to better protect our credibility on the world stage as well as 
our national security. Problems in remote areas now cross 
borders at alarming rate. We need to leverage the strength of 
this coalition of nations to prevent emerging threats abroad 
from reaching us here at home and to ensure the U.N. remains 
accountable and effective.
    Nuclear proliferation, terrorism, drug trafficking, manmade 
and natural disasters, infectious disease, extreme poverty and 
suffering, and environmental degradation confront the entire 
world community, and no one nation should address them alone. 
Burden sharing remains the most cost-efficient use of our tax 
dollars. For all these reasons, the U.S. must pay its bills in 
full and on time, a responsibility both Republicans and 
Democratic administrations have consistently upheld.
    In an increasingly globalized world, the U.N. continues to 
serve as a critically important tool for advancing U.S. 
interests and augmenting our own response to many international 
challenges. For example, the U.N. Security Council imposed 
tough sanctions against Iran, which played a critical role in 
bringing about an interim nuclear deal. The IAEA is now 
monitoring, inspecting, and verifying that Iran is fully 
implementing the agreement's requirements. Given Iran's history 
of deception, I would like to hear an update from you on the 
IAEA's mission and your assessment of Iran's compliance thus 
far.
    With regards to Syria, recent reports by the U.N.'s 
Organization for the Prohibition of Chemical Weapons indicate 
that 50 percent of Assad's chemical weapons have now been 
removed. Yet the Syrians missed a March 15th deadline for the 
destruction of its production facilities. Ambassador Power, 
what timeline can we now expect for their entire program's 
disposal?
    Additionally, please update us on the U.N.'s ability to 
deliver humanitarian aid. What options do we have if Assad 
continues to defy the U.N. Security Council and forbid aid 
workers from reaching hundreds of thousands of innocent Syrians 
in need?
    Finally, given the recent crisis over Crimea, I am 
particularly worried that Russian President Putin will never be 
a partner in ending this horrific war. What, in your view, can 
we do about Russia's ever-increasing intransigence?
    Madam Ambassador, I look forward to hearing from you how 
the President's budget request will enhance U.S. global 
leadership at the United Nations. I hope you will highlight the 
successes since your confirmation as well as your strategies 
for overcoming the many challenges ahead of us. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms.  Granger. Ambassador Power, please proceed with your 
opening remarks. I would strongly encourage you to summarize 
your remarks so we can leave enough time for questions and 
answers. And your full written statement, of course, will be 
placed in the record.

                 Opening Statement of Ambassador Power

    Ambassador Power. Thank you so much, Madam Chairwoman, 
Ranking Member Lowey, Congressmen.
    Thank you for the invitation to testify. I am really 
delighted to have the chance to talk with you about the 
pressing challenges that you have alluded to, and our country's 
leadership at the United Nations and beyond.
    Madam Chairwoman, at my confirmation hearing last summer, I 
pledged to work vigorously for a U.N. that would advance 
America's stake in global stability, operate with greater 
efficiency, eliminate anti-Israeli bias, and contribute to 
universal human rights. My full statement outlines the steps 
that we have taken in each of these areas. But to honor your 
time, I will today confine my remarks to five key points.
    First, I respectfully but strongly urge you to support full 
funding for the administration's request for a new peacekeeping 
response mechanism and for the CIPA, CIO, and IO&P accounts. I 
recognize, and you both have alluded to this, that your 
consideration of the fiscal year 2015 budget comes at a time 
when both the administration and Congress are committed, 
rightly, to fiscal restraint. I am acutely mindful of the very 
difficult budget climate we are in and, in particular, the 
extraordinary sacrifices being made by American taxpayers every 
day. You are making difficult choices about what to fund and 
what to cut. The United Nations and our financial support to it 
must receive rigorous scrutiny.
    Recognizing the need for restraint in spending but also 
conscious of the very real value these resources provide, we 
ask for your support because the U.N. and other international 
organizations enable our country to address diverse problems 
around the world at a cost and a risk far lower than if we 
acted on our own. We are the world's leading power and the 
primary architect of the international system, which continues 
to benefit the United States and the American people. Our 
citizens will do better and be safer in a world where rules are 
observed, prosperity is increasing, human suffering is 
alleviated, and threats to our well-being are contained. The 
United Nations is an indispensable partner in all of this. And 
if you will allow me, in the discussion period, I will go into 
greater detail on the specific funding requests.
    Second, the State Department and the U.S. mission will 
continue to press and press hard, in much the same way you 
have, Madam Chairwoman, for U.N. reform. This past December, I 
personally presented the case for financial discipline to the 
committee that handles the organization's regular budget. I am 
pleased that the United States has kept the U.N. budget to near 
zero real growth since the 2010-2011 biennium. We have also 
secured U.N. progress in reducing staff, freezing pay, cutting 
waste, increasing transparency, and strengthening oversight of 
peacekeeping operations. Much more needs to be done, and much 
more can be done. With your support, we will continue our work 
to make the U.N. more effective, efficient, transparent, and 
accountable.
    Third, we are fighting every day on numerous fronts to end 
the bias against Israel that has long pervaded the U.N. system. 
With our help, Israel has in recent months become a full member 
of two groups from which they had long been excluded, the 
Western European and Others Group in Geneva, and what is called 
the JUSCANZ human rights caucus in New York. These groups are 
where much of the behind the scenes coordination takes place 
for U.N. meetings, leadership assignments, and votes. And the 
United States and Israel had tried for years to break down the 
barriers that were blocking Israel's entry to both groupings. 
These milestones would perhaps seem less consequential if they 
had not been so unjustifiably delayed.
    Slowly but surely, we are chipping away at obstacles and 
biases. Israel's inclusion sends a powerful message to those 
striving to isolate or delegitimize the Jewish state, and that 
message is, ``You will not succeed.'' The United States will 
stand with Israel. We will defend it, and we will challenge 
every instance of unfair treatment throughout the U.N. system.
    Let me also add, given reports yesterday of new Palestinian 
actions that both of you have referenced, that this solemn 
commitment also extends to our firm opposition to any and all 
unilateral actions in the international arena, including on 
Palestinian statehood, that circumvent or prejudge the very 
outcomes that can only come about through a negotiated 
settlement.
    If I may, Madam Chairwoman, again, I would like to come 
back to this troubling issue in the discussion period, if I 
could. Fourth, I ask the subcommittee's full support for U.N. 
peace operations. From Haiti to Lebanon to Sub-Saharan Africa, 
our country has a deep and abiding interest in restoring 
stability, mitigating conflict, and combating terrorism. 
Multilateral peace operations enable us to do so in a cost-
effective manner in such strife-torn countries as South Sudan, 
Somalia, the DRC, and Mali, as well as in transitioning 
countries critical to U.S. interests, such as Afghanistan, 
Libya, and Iraq.
    Since the President submitted his budget on March 4, owing 
to a sharply deteriorating security environment in the Central 
African Republic, Secretary General Ban Ki-moon has in fact 
recommended the rapid deployment of a new U.N. mission to 
protect civilians. The emergency in the Central African 
Republic and our view that a peacekeeping mission is in fact 
required because of the acute security needs highlights the 
value of a peacekeeping response mechanism of the type that we 
have proposed to deal with contingencies arising outside the 
regular budget cycle. But at the same time, the real world is 
presenting catastrophic humanitarian emergencies like this one 
to which it is in the U.S. national interest to respond. We are 
rigorously reviewing all U.N. missions and urging the U.N. to 
do so as well. We know the importance of reducing or closing 
missions where conditions on the ground permit and when host 
governments have the capability and must find the will to 
manage their own affairs, particularly after many year-long 
deployments by the United Nations.
    In our view, peacekeeping activities are often essential, 
but they need not be eternal. Finally, we are striving to 
mobilize the U.N. as a vehicle for the promotion of human 
dignity and human rights, in a forum in which the United States 
can continue to stand up to repressive regimes. With the strong 
backing of many in Congress, including all of you here today, 
we have exposed Russian duplicity in Ukraine, fought back 
against the global crackdown on civil society, provided a 
platform for the victims of repression in North Korea, Cuba, 
Iran, Syria, Venezuela, and elsewhere, and pursued such vital 
objectives as universal access to education, an end to gender-
based violence, support for religious liberty, and the defeat 
of HIV/AIDS.
    Madam Chairwoman, for almost 70 years, American leaders 
have found it in our interests to participate actively in the 
United Nations and other international organizations. In this 
era of seemingly nonstop turbulence, diverse threats, and 
border-shrinking technologies, we can accrue significant 
benefit from an institution that seeks every day to prevent 
conflict, promote development, and protect human rights. For 
these reasons, I again urge your favorable consideration of our 
2015 budget request.
    To close on a personal note, I consider it both an enormous 
honor and a great responsibility to sit behind America's 
placard at the U.N. And a big part of that privilege and that 
responsibility is the chance to work closely with you, as the 
guardians of America's purse and Representatives of the 
American people, to ensure that our national interests are well 
served. I will be pleased to answer any questions you may have, 
including some you have already posed.
    Thank you, Madam Chairwoman.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you so much. Thank you for that.
    I will begin the questions, and Mrs. Lowey and I both share 
concerns about President Abbas' actions yesterday. As you know, 
provisions of the U.S. law restrict funding if the Palestinians 
attempt to obtain member status at the U.N. or its agencies, 
such as UNESCO, outside of an agreement with Israel. Please 
give us your interpretation of what happened, why it happened, 
and explain the impact on the peace process and whether these 
actions will trigger a cutoff of economic aid to the 
Palestinians.
    Ambassador Power. Thank you for that question.
    We are all completely seized with this issue. And I think 
you have heard Secretary Kerry speak to it already. But let me 
say just a few things.
    First, as I said in my opening statement, and as we have 
discussed privately as well, the United States opposes all 
unilateral actions anywhere they may occur in the international 
system, including where I work every day at the United Nations. 
There are no short cuts to statehood. And we have made that 
clear. Efforts that attempt to circumvent the peace process, 
the hard slog of the peace process, are only going to be 
counterproductive to the peace process itself and to the 
ultimate objective of securing statehood, the objective that 
the Palestinian Authority, of course, has.
    So we have contested every effort, even prior to the 
restart of negotiations spearheaded by Secretary Kerry. Every 
time the Palestinians have sought to make a move on a U.N. 
agency, a treaty, et cetera, we have opposed it. By the same 
token, here, given this apparent move on a number of treaties, 
Secretary Kerry and all of us have made clear, again, that we 
oppose unilateral actions and that they are going to be 
tremendously disruptive and that they will not achieve the 
desired end. So that is the first point, I think which is in 
keeping with our traditional position.
    In terms of its impact on the peace process, which is a 
question you have also raised, I think what Secretary Kerry has 
said, and he is still--this is a very fluid situation. It just 
came about, as you know, yesterday. He is working it probably 
as we speak, certainly was working it all day yesterday and 
this morning. It is I think premature to make a final judgment 
on what impact this will have on the peace talks and on the 
prospects for a negotiated settlement. So I wouldn't want to 
prejudge that.
    As you mentioned, the Palestinians have pursued in this 
instance it seems treaty membership. We will need to see, 
again, what it is that they have submitted before being able to 
speak to what the ramifications are. So if I could just again 
continue to work with you in the days ahead.
    And then, finally, on the question of the U.N. waiver, as 
you know, the United States has pursued a national interest 
waiver, notwithstanding our strong and relentless opposition to 
unilateral efforts at enhancement of status and unilateral 
efforts at statehood. The reason that we have sought this 
waiver, and it is so critically important, is that in the event 
that the Palestinians seek and obtain membership in a U.N. 
agency, the last thing we want to do is to give them a double 
win. And it would be a double win for them to secure a win at 
an agency on the one hand and then the exclusion of the United 
States from that very agency, leaving the agency at the mercy 
of leadership from Russia, China, Cuba, Venezuela, the 
countries that tend to fill the space when we depart. So, 
again, our goal is to use the U.N. system to advance the 
interests of the United States and the American people. Being 
excluded from those agencies does not allow us to do that. And 
of course, and we can go agency by agency if you like, but you 
are as familiar with these organizations as I am, vaccinations 
for children, weapons inspectors in the IAEA, you know, the 
postal system. I mean, this is the international system, and it 
is strongly in the U.S. national interest to be a part of it. 
But that in no way detracts from the firmness of our opposition 
to Palestinian unilateral moves.
    Ms. Granger. Thank you.
    Before I go to Mrs. Lowey, I would like to request all the 
members of the subcommittee to stick to the timeline. I think 
this will allow us more than one round of questions.
    I will turn to Mrs. Lowey now.
    Mrs. Lowey. Thank you, Madam Chair.
    And again, welcome. I am going to move to another issue, 
but I just want to associate myself with the comments of the 
chair. As one who has been very optimistic about a potential 
peace process and has strongly supported Secretary Kerry's 
efforts and his determination to bring the parties together, it 
was extremely disappointing to me that Abu Mazen chose to take 
this action at the U.N. It is counterproductive, and doesn't 
move them closer to any final resolution. I think it was 
wrongheaded and very, very disappointing. And frankly, I wonder 
whether Secretary Kerry can save the process in light of this 
action.
    But let's move on to Iran for a moment. We understand that 
Iran now faces domestic pressure and international isolation. 
While I believe the pressure of sanctions and the demand for a 
better economy pushed the Supreme Leader to allow for the 
election of President Rouhani, I am not convinced there has 
been a change in heart. And I am very concerned about the 
perspective of the overall Iranian leadership. I remain 
concerned that the election of Rouhani and his subsequent charm 
offensive was nothing more than a political maneuver or a 
facade intended to break the unity of international sanctions 
by making Iran appear to be cooperative. We have every reason 
to believe and to question Iran's real intentions, given their 
track record and history of deception.
    So a couple of questions. Many people have argued in the 
Congress that the threat of additional sanctions is necessary 
to pressure Iran to stay at the negotiating table until we have 
an acceptable final deal. Can you share with us your opinion on 
that? Maybe I will just group these, because you are keeping 
the time pretty tight, and then you can respond in any way you 
choose. How will the Security Council respond if Iran does not 
agree to a final deal? The Secretary of State has said that no 
deal is better than a bad deal and I wonder what you would 
consider a bad deal.
    Now, one of my concerns, the preamble to the Joint Plan of 
Action states that under no circumstances will Iran ever seek 
or develop any nuclear weapons. So I have been very distressed 
to learn that the IAEA cannot inspect or gain access to 
Parchin, which has been rumored as the facility where they do 
weaponization testing. If you can comment on the whole deal and 
you can speak to why the JPOA does not allow IAEA to inspect 
the sites where delivery mechanisms are made, it seems to me 
that such sites are an integral part of nuclear capability. So 
if you can just comment in general, I would be most 
appreciative, and in specific on the Parchin issue.
    Ambassador Power. Thank you, Congresswoman.
    Let me just make a few comments if I can. You have 
certainly put your finger on some core issues. First, we share 
your skepticism. We share your lack of trust. There is no way 
that one can look at the U.S.-Iranian relationship over the 
course of the last three decades and bring anything other than 
great skepticism and a lack of trust. And I think that is the 
mind set that our diplomats have brought at every turn to our 
engagements with the P5+1 and, of course, with Iran. I think 
President Obama has been clear that in the event that these 
talks break down and this agreement does not provide a 
foundation for a long-term agreement that we believe will shut 
down Iran's nuclear weapons program and deny them the prospect 
of obtaining a nuclear weapon, as he has put it, he will be 
leading the charge up here for additional sanctions in order to 
impose further pressure on the regime.
    Right now, we are seeking to take advantage of a diplomatic 
window that, again, as the President has said, will not remain 
open for long. And, you know, talks are opening again, I 
believe next week, where Under Secretary Sherman I think is 
already on her way or will be soon.
    Mrs. Lowey. If I may just comment, and you can respond on 
the sanctions issue, because I know it has been an issue where 
there is a great deal of difference of opinion on the part of 
the administration.
    Ambassador Power. Yes.
    Mrs. Lowey. The $6 billion to $7 billion in sanctions could 
be reinstated in a nanosecond. But you and I know, and the 
administration knows, any additional sanctions can take 180 
days to put in place. So I just want to add that for the 
record.
    Ambassador Power. Okay. Well, to underscore, again, that 
the overwhelming majority of sanctions remain in place and that 
the Iranian economy is still in the vice of sanctions put in 
place, not only here by the Congress and by the executive but 
also this crippling four rounds of multilateral sanctions that 
have come through the U.N. Security Council.
    And that international sanctions regime, which was your 
second question, has been a critical complement and force 
multiplier shall we say of what we have done ourselves here as 
the United States. So you asked where will the U.N. Security 
Council be? One of the reasons that it is very important that 
we keep the P5+1 together, which is not always easy but is 
critical, is that on the back end of, you know, either a 
comprehensive agreement at some later stage when all of our 
conditions are met or in the event of the collapse of talks, 
that we would then be in a position to act together at the 
Security Council.
    The other thing I want to say, because I don't think it is 
as evident because of all of the focus on the JPOA, is that we 
still have not only the robust multilateral sanctions regime in 
New York, but the sanctions committee, the panel of experts, 
you know, we are as a United States at the very same time we 
are engaging, testing this diplomatic window, seeking to end 
this what is a crisis diplomatically, we are enforcing the 
sanctions that are on the books and seeking to close any 
loopholes that may exist in this multilateral sanctions regime. 
I mentioned this because, of course, Israel just interdicted a 
ship that was carrying weapons from Iran to militants in Gaza. 
And that is something that we are now demanding that the 
sanctions committee take up in New York, and we figure out what 
the implications of that are. So, again, in addition to the 
additional bilateral sanctions that the--sanctions designations 
of individuals and entities that have happened since the JPOA, 
we in New York are also always looking to take further action 
on the basis, again, very crippling regime that exists.
    I am well over time, so let me just, maybe if I could, 
speak to the Parchin issue. The JPOA made clear that the P5+1 
and Iran must, quote, ``work with the IAEA to facilitate 
resolution of past and present issues of concern.'' This is the 
formula that is used by the IAEA and Iran in addressing 
possible military dimensions, which is of course why you are so 
concerned about Parchin. And that includes Parchin. So what the 
JPOA says is that a comprehensive solution requires not just a 
final step, but also resolution of concerns, which is 
understood again to hit the military dimension. So the more 
plain English way to put it is that the interim, the JPOA 
addressed some subset of issues. We only offered very, very 
modest, reversible, and temporary sanctions relief in return. 
Parchin is exactly the kind of issue that is on the table now 
in terms of the longer-term negotiations.
    Mrs. Lowey. Thank you, Madam Chair.
    Ms. Granger. I will call on members now, alternating 
between majority and minority based on arrival time, as we have 
done before. I want to remind members that you have 5 minutes 
for your questions and the response. When you have 2 minutes 
remaining, the light will turn yellow. And again, I think this 
will allow us to have multiple rounds.
    We will call first on Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Ambassador, thanks for being here. Let me start out, I 
would be remiss without first thanking you, and I have even 
written you a letter in which you responded very quickly, by 
the way, for I think in the administration nobody has been more 
forthcoming on support and solidarity with those who are 
struggling for freedom around the world. You have done so 
repeatedly on social media, which is crucial, whether it was, 
for example, during the CELAC issue in Cuba or the students in 
Venezuela who are trying to recapture democracy. You have been 
exceedingly forthright. And for that, as I did so in writing, I 
want to publicly do so now, thank you for that.
    Really three issues I am going to throw out really quickly. 
And let me just do that really quickly, and then you could 
respond. In March, a U.N. panel of experts provided a report to 
the U.N. Security Council concluding that the July illegal 
shipment of weapons to North Korea from Cuba in fact violated 
sanctions and constituted, by the way, the largest amount of 
weapons interdicted going to North Korea since the adoption of 
Resolution 1718 in 2006. I don't have to talk about all the 
details about that; they were clearly trying to hide it. So 
given the discovery of Cuba and North Korea's regime's willful, 
quote, frankly, collusion to violate U.N. sanctions, what 
action is underway to hold those two regimes responsible for 
violating--for obviously violating U.S. sanctions? Point number 
one.
    If I can then jump to Venezuela, where, again, like you 
have been in Cuba, you have been very vocal, very, very vocal. 
And by the way, you cannot underestimate the importance of 
those statements that you have been making on Twitter for those 
who are oppressed and repressed. That is a huge deal. I don't 
have to tell you about what is going on in Venezuela; you are 
very familiar. But what is the administration, or what can or 
are you doing specifically through the United Nations to bring 
attention to the, frankly, the horrible situation in Venezuela, 
where students are being arrested, where, frankly, one of the 
main opposition leaders has been in prison for over a month, 
and all of the human rights violations in Venezuela? And again, 
I encourage you, and I know you will continue to do your part 
publicly. But what is the U.N. looking at that and what can be 
done there?
    And lastly, to a fiscal issue that you talked about--and I 
think I still have a little bit of time--specifically 
concerning the issue of the peacekeeping funds. So the 
President's budget request is more than $800 million for 
peacekeeping in a new peacekeeping contingency account. Now, 
the concern is that the assessed rate for the United States 
continues--it continues to rise above what is, frankly, 
authorized by U.S. law. So then, meanwhile, the U.N. approves 
new and expanded peacekeeping missions that are, frankly, very 
costly. And then we don't see a lot of reductions or proposals 
for the elimination or reduction of missions that have been 
around for decades, for example, such as the one in the Western 
Sahara. So there, what is the administration doing to reduce or 
to eliminate, hopefully, outdated U.N. peacekeeping missions? 
Why should the committee, this committee, support a contingency 
fund when there is very little, frankly, if any discipline 
being shown in budgeting for those peacekeeping missions, 
current peacekeeping missions? And what is being done to help 
bring, again, a resolution to some of those, specifically, for 
example, like the Western Sahara?
    So, Ambassador, I know I threw a bunch of issues out there. 
I apologize for that. But we have a very strict chairwoman, and 
so we try to be very cooperative with her.
    Ms. Granger. And that color is yellow.
    Mr. Diaz-Balart. Exactly.
    Ms. Granger. I want to point that out to you.
    Mr. Diaz-Balart. I know my place, Madam Chairwoman.
    Ambassador Power. Given how important each of the questions 
are, I am very nervous about the 54 seconds I have left to 
answer them all.
    Ms. Granger. Do the best you can do.
    Ambassador Power. I hope the chairwoman would give me just 
a little bit of indulgence so I can at least seek to do some 
justice.
    I suspect the issue of the fiscal climate and the 
peacekeeping funds will come up and will be raised by other 
members, so maybe I can elaborate in greater detail. Let me 
start with that, if I could. You rightly note that the 
peacekeeping requests that we are making, or the peacekeeping 
funds we are asking for, we are asking for more this year than 
we did last year. That is owing to a couple key issues. The 
first is Mali last year occurred after our regular budget 
cycle. By Mali, I mean the takeover of two-thirds of the 
country by violent extremists. And as a result, part of what we 
are asking for here is funding to make up for a mission that 
was authorized outside the regular budget cycle.
    But the other reason is that South Sudan tragically, 
devastatingly, has degenerated into a horrible ethnic conflict 
just since December of this year, and we have had to expand the 
number of peacekeepers in South Sudan. In addition, although it 
is not actually reflected in the President's budget request 
because this has just come on, we are going to be requesting 
funding, as the chairwoman indicated in her opening statement, 
for the Central African Republic for a peacekeeping mission 
there in all likelihood. And this is something we are just 
beginning to consult with you all on. And again, at some point, 
I hope I will have a chance to speak to the devastation of what 
is happening there.
    But you are right, it is not enough to simply say the real 
world is presenting these emergencies and we have to respond to 
them, because we live in a fiscally challenged climate. And so 
what we have done over the course of the last 5 years, and I 
was actively involved in this when I was working at the White 
House as the President's U.N. adviser, we have brought down the 
costs per peacekeeper. The cost now is 16 percent lower than 
when it was when we started seeking costs.
    So, again, the pie is bigger because of the real world 
emergencies. You only have to read the newspaper to see that 
the world is presenting successive challenges to us. But per 
peacekeeper, we are bringing down the costs. And that, you 
know, has involved eliminating duplication. Again, I won't go 
into the details here, but I hope we will have a chance to 
elaborate on some of the measures we have taken. We just last 
week closed down the mission in Sierra Leone. In my opening 
statement, you heard me say that these peacekeeping missions, 
many of them we find essential, but they need not be eternal. 
And I think there is a habit, sort of once a mission gets set 
up, to not be sufficiently assessing the original reason that 
the Congress and the U.S., you know, came to support a mission 
and assessing whether that mission is appropriately configured 
given the evolution of circumstances on the ground. There are 
reductions happening, but in a responsible way, in Haiti, 
Liberia, Ivory Coast, I think where tremendous gains have been 
made. And again, I can speak more to that.
    On Venezuela, we have a responsibility, of course, as the 
United States, to speak up on behalf of those who are seeking 
their freedom. And I really appreciate the tremendous 
leadership you have shown, always, in standing up to repressive 
regimes. I think nearly 40 people have been killed in these 
protests, these peaceful protests where people are airing their 
legitimate aspirations and their legitimate grievances. You 
mentioned the criminalization of dissent. That is something, 
again, we have been outspoken about. We have called for a third 
party to get involved in mediation in some fashion, because it 
is in everybody's interests for this crisis to end. But that 
third-party mediator needs to be credible to both sides. And 
that, until recently, had been a sticking point, but a little 
progress I think has been made on the mediation. At the U.N., 
at the Human Rights Council, we issued a joint statement on 
Venezuela, enlisted a number of countries to join us. It will 
not surprise you that, given that the U.N. is filled--more than 
half of U.N. member states are nondemocratic, it is not always 
easy for us to pull together the kind of coalition of the 
willing, shall we say, within the U.N., a cross-regional 
coalition. But that is what we seek to do. We seek, even if we 
can't get overwhelming vote counts, we seek to create kind of 
alignments of people who share the same democratic values 
speaking out on behalf of Venezuela. I would welcome any ideas 
you have about further steps that we can take within the U.N. 
system. And I agree that it is incredibly important to raise it 
there and to multilateralize the human rights concerns that are 
at the heart, meant to be at the heart of the U.N. charter.
    Lastly, if I could, just on the DPRK and Cuba sanctions 
violations, we--there are sort of a lot of very bureaucratic 
things I can say about the things we are doing at the U.N. on 
this particular case. It was the largest arms seizure. We are 
very grateful, and thank Panama for stepping up and meeting its 
responsibilities, as it is doing in a remarkable way really 
across a whole host of issues, including Venezuela. We have, 
through the Sanctions Committee, issued a public--or sought to 
issue a public implementation assistance notice to share 
lessons learned with member states and correct Cuba's claims 
about how they are interpreting the UNSCRs. And the report that 
came back was very strong. It basically rejected the Cuban 
arguments, which we felt was very important again and, given 
that U.N. reporting can sometimes be uneven, is important to 
stress. We are seeking to impose sanctions on entities we can 
prove are responsible for the violation. This is challenging, 
because U.N. sanctions, of course, come by consensus. And so we 
will need to get China, Russia, and other members of the 
Security Council to come along board. But that is a work in 
progress. And we are seeking to release publicly the panel of 
experts incident report, which again we think rejects frontally 
Cuban and North Korean claims on this issue.
    Thank you, Madam Chairman.
    Ms. Granger. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you very much for this hearing.
    Ambassador Power, good to see you again.
    In my role as one of the congressional representatives to 
the United Nations, yesterday I had the pleasure of leading the 
Congressional Black Caucus (CBC) delegation to the U.N. Thank 
you so much for meeting with us. We were very happy to meet 
with U.N. officials to really get a good handle on the 
importance of American leadership in the United Nations, which 
we all agree is so important.
    Secondly, just as descendants of the transatlantic slave 
trade, current day simple human rights issues of discrimination 
both in our own country and abroad are very important to 
members of the CBC. And so we want to thank you very much for 
your support for human rights and civil rights, minority rights 
throughout the world.
    The United Nations is a critical body in our world 
community. And we believe we must fully engage--at least I know 
Members of the Congressional Black Caucus believe we must 
engage in the United Nations and the international community to 
ensure a safer world. And we get a huge bang for our buck with 
the United Nations.
    A couple of things I want to ask you, though, which I am 
recently learning about, and that is our dues. Now, given the 
nominal increase in funding for the United Nations' 
peacekeeping missions next year, it was pointed out that the 
bill, the omnibus bill underfunded significantly our 
peacekeeping commitments. By some estimates, we have come up 
with about $350 million short, which again puts us in many ways 
in an arrears position. So could you explain this, how this 
peacekeeping dues, the formula by which it is put together, and 
how does being in arrears really affect our ability to pursue 
our interests at the United Nations?
    Secondly, the Convention on the Rights of People, Persons 
with Disabilities, inspired in large part by our Nation's own 
landmark disability laws, I can't for the life of me understand 
why we would not, or why the Senate would not pass the treaty, 
the Convention on the Rights of Persons With Disabilities. So 
we need to know why this is so important to support disability 
rights around the world so we can--I don't know if we can 
figure out a way to move on this or not from this side. But I 
think hearing about this and having this on record is extremely 
important.
    South Sudan. The Security Council's decision to deploy 
reinforcements, of course, will enhance the ability to carry 
out a civilian protection mandate. So can you discuss the 
U.N.'s efforts to ensure the safety of displaced civilians who 
have sought refuge at United Nations compounds over the last 
several months?
    And then, of course, Afghanistan. What is the U.N. role 
going to be after 2014, if any? Could you explain that? And 
thank you again very much. Good to see you here.
    Ambassador Power. Great. Thank you. Let me start, if I can, 
where you started, which is on the peacekeeping issue. And that 
allows me to add a little more ballast to the response I 
offered the Congressman.
    I mean, first, your point, peacekeepers are going places 
and protecting civilians and combating extremism so we don't 
have to. And it is incredibly important for us to bear in mind 
that, for instance, when Mali gets taken over by extremist 
groups and militants in the way that they were--the French of 
course staged an intervention, and the African Union initially 
stepped up in really important ways. But in order to 
consolidate those gains and ensure that militants remain 
vanquished, we have to support U.N. peacekeeping. That is what 
those peacekeepers are there to do.
    In South Sudan you mentioned the effort to protect 
civilians who are gathered in U.N. bases. South Sudan is a 
country, newly independent country, has a historic relationship 
with us, with, you know, college students around the United 
States. Even high school students now are exercised about the 
plight of people in that country. The United States led the 
effort with many people here on this committee, including you 
and Frank Wolf and virtually all of the members, to bring about 
this country. And now it is the United Nations that is there at 
a time when we are winding down our mission in Afghanistan and 
of course have ended our mission in Iraq. It is incredibly 
important to U.S. interests that peacekeepers be doing that 
work.
    The gap between what we owe the U.N. in terms of 
peacekeeping and what was appropriated I think is explicable in 
a couple ways. One, I mentioned already the Mali mission came 
on the books after our regular budget submission. But second, 
our assessment rate now is 28.4 percent. And there is a cap, 
and that I would appeal to this committee to lift, that only 
allows us to pay a share of 27.1 percent. And again, I think 
reflected in a number of the members' comments so far, the 
reason we don't want to pay more is we are paying an awful lot. 
And that makes a huge amount of sense. The formula on which 
this percentage is negotiated is based on an ability to pay. 
And I have made it a huge priority up in New York to try to 
ensure that others are paying their fair share.
    In the recent scales negotiations, which were before my 
time, where our assessment went up from 27.1 to 28.4, Russian 
and Chinese assessment rates also went up. Our challenge with 
some of the emerging economies, the Brazils and the Indias, 
which have also gone up marginally--in Brazil's case, actually, 
quite substantially--is that this formula is calculated on the 
basis of per capita GDP and debt burden. So you get a discount 
if you are a country that is growing but has still huge amounts 
of poverty that you deal with in your country.
    Now, we are seeking to change that methodology. But the 
next scales negotiation is in 2015. And while, again, it is--
the 28.4 percent is not ideal; we prefer to be at 27.1 percent. 
We are going to fight to get it back down. It has been much 
higher in the past. In the 1980s and 1990s, it was at 31 
percent at various times. So we are significantly lower than we 
once were. And we are trying to find savings within the 
peacekeeping missions that exist.
    But I would ask you if you could lift the cap in order to 
give us the resources we need to fund these really, really 
important missions. And please know that I will work with you 
hand in glove, again, to try to bring this back down.
    On your other questions, briefly on the disabilities 
convention, the great champion of this is Senator Bob Dole, who 
has made this his great passion. And for him, the fact that 
veterans come home from war in Iraq and Afghanistan, so many 
more veterans now suffering the loss of limbs and so forth, and 
rehabilitating here, and getting to take advantage of the ADA, 
and the accommodations that we have here in this country but 
then, in effect, being told that the protections end at the 
Nation's shore, that while your able-bodied counterparts can 
imagine jobs overseas, the ADA extends only across the 
continental U.S. And in a global marketplace, that is not fair 
to our vets. It is not fair to our persons with disabilities 
generally. So what this convention would do is simply allow the 
United States to be party to an international convention that 
enshrines the provisions of the ADA. And as a party to that 
convention, we would then press other countries to bring their 
standards up to ours. And it is critical for us to be a part of 
that convention in order to show real leadership on disability 
rights. It has strong bipartisan support in the Senate. And we 
are still working, again, with Senator Dole, Senator McCain, 
Senator Barrasso, Senator Ayotte, and of course the Democratic 
supporters, to try to bring about ratification.
    Lastly, on the U.N. role in Afghanistan, forgive me, 
Congresswoman, there is a lot here, I would say a couple 
things. First, it is clear that the U.N. will likely maintain a 
political presence. They have a critical human rights 
monitoring role. And we are seeing right now the centrality of 
the U.N. in supporting the Afghan-led election process. And 
those are all things that don't cease to be necessary, you 
know, in the wake of any U.S. drawdown or even eventually when, 
you know, all troops--all American troops are out of 
Afghanistan. Because President Karzai has not signed the BSA, 
the President has not made his decisions about what the U.S. 
troop presence is going to look like after this year. And I 
think the U.N. is waiting to understand that better. We have 
seen, just with the monstrous Taliban attacks that have 
occurred in the last few weeks, in addition to all those that 
preceded those attacks, just how precarious the security is, 
particularly for civilians, who are trying to aid the Afghan 
population.
    So that is a challenge. Thank you.
    Ms. Granger. Thank you.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Madam Chairman.
    Welcome. Let me ask you, we talked about the fact that we 
spend a lot of money on the U.N., and over the years, there has 
been an awful lot of efforts in Congress to bring about reforms 
to the U.N. And one of the kind of glaring dysfunctions of the 
U.N. is the U.N. Security Council. It is supposed to bring 
peace and security on an international basis, but it doesn't 
seem to always work that way.
    If you look at Syria, the efforts to end the conflict 
there, I think there have been at least three times where China 
and Russia has vetoed efforts to do that. And so you wonder how 
it can meet its goal when its permanent membership is divided.
    So I would ask you two questions. One, do you think that, 
to a certain extent, the Security Council has lost a little bit 
of its credibility, maybe lost a little bit of its legitimacy? 
And if so, is there anything the U.S. can do to help it regain 
that? Because the second part of that question is if you look 
at the other side, it seems like just about every veto that we 
have put forward in the last 25 years is vetoing some 
condemnation of Israel. Israel doesn't get treated very well. I 
know you have been working hard to see that Israel gets fair 
treatment across the board in the U.N. So take those two things 
and talk about that: A, what kind of reforms might be brought, 
either through the U.N. Security Council or even in a broader 
sense; and B, how you feel like you are doing in trying to make 
sure that Israel gets treated fairly in the U.N. Thank you.
    Ambassador Power. Thank you, Congressman. And thank you, 
generously, for leaving me 3 minutes to answer your questions. 
Let me say about the Security Council that you have put your 
finger on it. When the permanent members, particularly Russia 
most recently, backed by China, decide not to fulfill their 
responsibilities under the U.N. charter to enforce 
international peace and security because they are a veto 
holder, that leaves the council vulnerable. And there is no 
question that the council's legitimacy has suffered greatly not 
to be responding to the humanitarian catastrophe in Syria and 
the profound threat to international peace and security when 
you have millions of people spilling over into neighboring 
countries, many of which are fragile, like that in Iraq and 
Lebanon, and when you now see also foreign extremists take 
root, you see a regime brutalizing its people using barrel 
bombs, chemical weapons, Scuds. You know, the fact that Russia 
can use its veto in circumstances like this really reflects a 
vulnerability, as you say, in the council structure.
    And we have had to work in other ways. Working through the 
Arab League, working through the Human Rights Council, which, 
as you know, is very problematic on issues related to Israel 
but has created a commission of inquiry that has produced 
really important reports for Syria that will be used some day 
in some form of accountability to hold the perpetrators of 
these, again, horrific crimes to task.
    So we have had to do workarounds on Syria. On chemical 
weapons and recently on humanitarian issues, we did manage to 
get two resolutions finally through the Security Council. And 
on chemical weapons, we have seen, as you know, just 50 percent 
of the weapons removed. The deadline for the overall removal 
operation is not until June 30, but the Syrians are missing a 
number of milestones along the way. So we are very concerned 
about the pace of removal and elimination. I would say Russia 
has worked more constructively, clearly because it sees its 
interests as imperiled, first because of the threat of force 
that hung over Syria back in August and September, but also 
because of their concern that chemical weapons will fall into 
the hands of terrorists and so forth. So we can still see that 
Russia a la carte can choose to see its interests engaged in 
ways that coincide with ours on Syria. But by and large, on the 
humanitarian situation, though we did get a resolution 
recently, there is not nearly the same energy put into 
enforcing that resolution. And we are seeing very disappointing 
results on the ground, which, again, I can speak to later.
    What I would say, though, is that in complementing or at 
the very same time we are seeing this, as you put it, 
dysfunction on Syria--and obstructionism might be a better word 
on the part of Russia, because there is more accountability in 
that--we are also seeing the Security Council go about its 
business and do really important work. We just in the midst of 
the Ukraine crisis passed a resolution granting for the first 
time the international community the authority to interdict 
stolen oil that ends up on the high seas from Libya. And the 
U.S. Special Forces did a heroic job retrieving some of that 
oil. But this is a phenomenon that could persist, and Russia 
went along with that. We are renewing mandates and enhancing 
mandates for peacekeepers in Congo and expanding the mission in 
South Sudan in response to the situation on the ground.
    So the council is still doing very important work for the 
U.S. national interests, but of course, the vulnerability is 
there because of Russian obstructionism.
    Ms. Granger. Thank you.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Ambassador, it is good to see you. I will try to ask my 
questions in a compressed way also, so you can have most of the 
time to answer.
    I want to focus more on the Palestinians' pursuit of 
statehood or recognition by U.N. agencies. And understanding 
that our policy is that we withdraw from those agencies and 
cease funding when a unilateral action is taken like that, how 
can we--if you could walk us through your thoughts on how, 
perhaps, a unilateral approach to that concern, which is 
obviously a very significant concern, may not be the best 
strategic approach for us. You know, instead of maybe a focus 
in an a la carte way, to use your term, like with the ICC and/
or the IAEA, if we were going to try to leverage our 
participation in a way that is, you know, a more microtargeted 
approach to respond to wildly inappropriate actions, like the 
Palestinians.
    The other issue is on Israel's treatment in general at the 
Human Rights Council and our ability to leverage our membership 
in the Human Rights Council. What are we doing to get the Human 
Rights Council--how are we using our membership to get the 
Human Rights Council to stop it almost exclusively focusing on 
their obsession with Israel and actually focus on very 
significant, serious human rights abuses in Syria, and Iran, 
and Venezuela, and Cuba, just to name a few?
    Then just a couple of others. On humanitarian assistance, 
you know, it has been for the entire existence of the United 
Nations that we have essentially shouldered the burden of 
financing much of what it does. How do we encourage more cost 
sharing from, you know, wealthier countries that actually have 
the ability to step up? And how can we use U.N. Security 
Council 2139 to encourage other donors to do that, particularly 
rich Gulf nations, for example, that have the resources but 
choose not to use them? And then, lastly, if you could just 
cover the issue of U.N. reform, because I know the United 
States' position is that reform and economy, accountability, 
integrity, and excellence are all essential. So what are we 
working on in that regard?
    Ambassador Power. Thank you, Congresswoman.
    I mean, on the Palestinian question, I just would 
underscore that we will oppose attempts at upgrades in status 
anywhere. We are in very close touch now. We have a monthly 
meeting with the Israelis where we look out at the sea of 
international organizations and U.N. entities, including treaty 
bodies and treaties and so forth, and coordinate with them, and 
also try to understand whether they are prioritizing in 
particular ways, sort of along the lines of what you are 
suggesting.
    The ICC is, of course, something that we have been 
absolutely adamant about. Secretary Kerry has made it very, 
very clear to the Palestinians, as has the President. I mean, 
this is something that really poses a profound threat to 
Israel, is not a unilateral action that will be anything other 
than devastating to the peace process, which is, again, where 
all of our efforts should be placed right now.
    Before the peace negotiations started between the two 
parties, restarted with Secretary Kerry's and the President's 
leadership, we were fighting on every front. Contesting 
unilateral efforts on every front. And that is what we would do 
in any event, because we don't think that this is a productive 
approach. We don't think there are shortcuts. And we know that 
these--that this can be an effort to delegitimize Israel at the 
same time it is an effort to upgrade Palestine status.
    I think my point on the waiver and the funding issue is 
that the American people and the United States are so much 
better off when the United States is in good standing within 
these organizations, defending our interests, fighting for our 
friends, and not surrendering the playing field to those that 
would like nothing more than for the United States not to be in 
these organizations. So we are not punishing the Palestinians 
if we cut off funding to these agencies; we are punishing U.S. 
interests. And that is why, again, we need to deter precisely 
the moves that are at--the spirit behind the legislation is to 
deter Palestinian action. That is what we do all the time and 
will continue to do. But we cannot surrender the vast range of 
U.S. interests in the process. Very briefly on the humanitarian 
assistance, the cost sharing, I will just touch upon that since 
it hasn't come up before. The Kuwaitis have been the ones in 
the Syria context who have hosted the last two donors' 
conferences. And we think this is progress and an example of 
the kind of leadership--and they have really shown tremendous 
leadership on the humanitarian situation. We seek to mobilize 
resources from the countries that you have alluded to. And you 
have seen emerging economies, you know, like Brazil and others, 
make contributions in a new way in light of, again, the scale 
of the catastrophe. But we still think there is a lot of room 
for others to be doing their fair share, and particularly those 
wealthy countries in the region, a region that stands to be 
very destabilized, again, by the effects of this crisis.
    Ms. Granger. Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair.
    And Ambassador, thank you so much for joining us today. And 
there are so many topics to cover and so little time. And we 
appreciate the work of all of our diplomats and leaders around 
the world. And thank you for your leadership.
    Certainly, we talked about Syria and North Korea, Russia. 
Continuing to be I think perhaps on a lot of our minds is the 
nuclear threat from Iran. I know you have spoken about that 
this morning on several of the questions. I have some specific 
questions for you I would just like to get your thoughts on as 
we as a Congress look at what our future foreign policy should 
be. As we come back to the Iranian nuclear desires, I know we 
are in a diplomatic mode now. Should those diplomatic efforts 
fail, is military action still on the table if Iran does not 
abandon its nuclear program? And how are we articulating that 
today? Would that military action require U.N. Security 
approval to move forward? Would you seek--and I know we are 
dealing in hypotheticals. I need to articulate this well, but 
not damage any current efforts. So I respect and appreciate the 
way you are going to have to try to articulate your answer 
here. But would you seek U.N. Security approval? And would the 
country be willing to move unilaterally without that approval? 
And did the United States' war and action in Iraq require U.N. 
Security approval? Do we believe that that did in retrospect?
    And then the second topic, the administration has called 
for certainly a reset with relations in Russia in past years. 
What can we do to successfully deter Vladimir Putin going 
forward? What does the new reset look like? What are your 
thoughts just generally moving forward? And how do we reset 
those relations again? Because clearly that didn't work as 
successfully as probably anybody liked. And then you were in 
the White House and witnessed the struggle in our country over 
the murder of our ambassador in Benghazi. That continues to be 
a very big topic in this country and certainly before Congress 
regarding what the United States did to prevent that attack, 
statements following the attack from our then ambassador on 
what may have led to the attack. And so I guess just seeing 
that firsthand in the position you were in, and now you are the 
new United States Ambassador to the U.N., what have we learned? 
And specifically, what are we doing differently with security? 
And how would we treat something like this differently in the 
future?
    Ambassador Power. Okay. Thank you so much, Congressman.
    Let me--as you anticipated, it will not shock you that I am 
not going to engage in hypotheticals. So I think it is more 
appropriate simply to describe generally the President's 
position, which is that, even today, he has taken no option off 
the table as it relates to Iran. Consistently, he has made 
clear on any issue that if America's vital national interests 
are at stake, he is going to act to protect the American people 
and our vital national security interests. And what that means 
is that in the event that the Security Council does not 
accommodate his need to lead and perform his duties as the 
commander in chief, he is still going to pursue what he deems 
the right policy on behalf of the American people.
    In terms of the retrospective question you asked, again, I 
don't think it is appropriate for me here in my current role to 
be going back over decisions that were made. What we are 
focused on at the U.N., but across the administration, is 
trying to shore up the security situation in a country that, 
unfortunately, in recent months has really taken a turn for the 
worse in terms of the penetration of terrorists, the seizure, 
as you know, by terrorists of Iraqi towns, towns that very 
brave Americans expended, made great sacrifices to try to 
secure for the Iraqi people. So we are focused, the U.N. 
Special Representative there is working hand in glove with our 
embassy to try to defuse that crisis, to try to ensure that the 
coming elections go off without causing or provoking or being 
accompanied by more violence. That is our emphasis on Iraq.
    On Putin, I would just say that the steps that have been 
taken even just since the so-called referendum in Crimea, and 
the so-called annexation, which we reject, and which the United 
Nations has rejected now in an overwhelming way, the steps that 
we have taken have already had an effect. You are seeing 
investor confidence plummet. You are seeing the ruble 
depreciate. You are seeing investors recognize that if there is 
not a climate of rule of law in Russia, and clearly taking over 
part of someone else's country doesn't exactly reflect a 
respect for the rule of law, whether domestic or international, 
that that is a very perilous market environment.
    And so, again, we do believe that this economic and 
political isolation that President Putin has chosen for himself 
is going to have an effect. And we are, in addition to that, of 
course, supporting, thanks to the House vote and the Senate 
vote on this issue, robust financial assistance for Ukraine so 
that, you know, X number of years from now, we see a prosperous 
Ukraine that is thriving, that is not forced to choose between 
East and West, and where the people see the benefits of the 
kind of economic integration available to those countries that 
play by the international rules.
    Ms. Granger. Thank you.
    Mr. Schiff.
    Mr. Schiff. Thank you, Madam Chair.
    Welcome, Ambassador.
    At the outset, I want to just express my support for that 
flexible funding mechanism for U.N. peacekeeping missions. 
Regrettably, given how unstable the world is right now, it is 
not a question of whether we will need to support such 
operations, only where. And I would much rather make that kind 
of investment than have to either have American boots on the 
ground or suffer the effect of total state failure and collapse 
and all the related risks that we ultimately face as a result 
of those failed states.
    I want to direct my question to Syria. Syrian civil war has 
claimed the lives of at least 150,000 people, one-third of whom 
are civilians. The Syrian Observatory for Human Rights 
announced yesterday millions more have been forced to flee 
their homes to neighboring Jordan, Lebanon, Turkey, and even 
Iraq. And millions more have become internally displaced, their 
faiths hanging on the ebb and flow of battle. While all the 
Syrian people have suffered from fighting, it is minority 
populations, and especially Syrian Christians, who are most at 
risk.
    As you know, Ambassador, these are some of the oldest 
Christian communities in the world, dating back to the first 
century AD. About a week ago, the town of Kessab, which is 
predominantly Armenian Christian, was attacked by Al Qaeda-
linked fighters who had crossed over from Turkey, and the town 
was emptied in a bloody assault. Many of the residents of 
Kessab are descendants of the victims of the Armenian genocide. 
And there was a particular poignancy to their being targeted in 
this manner.
    Can you tell us what efforts the U.N. and its agencies 
working in and around Syria are making to safeguard Syrian 
minority communities? My understanding is that many of them are 
resistant to seeking refuge in UNHCR and other NGO facilities 
out of fear for their safety and are thus more likely to be 
internally displaced persons. Also, is the Kessab issue in 
particular and minority issues generally on the agenda in New 
York with reference to Syria?
    And finally, is there any diplomatic movement at all in 
resolving the Syrian conflict? Or is Assad so confident of his 
military advantage now that any hope of a diplomatic resolution 
is essentially gone?
    Ambassador Power. Thank you, Congressman.
    First, on the peacekeeping response mechanism, thank you 
for raising it. And let me just say a word on that, knowing 
that not all may think it is the best idea right from the 
beginning. This mechanism comes about because what we have gone 
through in the last few budget cycles, where real world 
exigencies, like that in Mali or now potentially in Central 
African Republic, arise after we submitted our budget. You 
know, the bad guys in the world are not responsive to our 
budget cycles. And we are trying to prevent the rise of 
extremism, protect civilians, you know, meet humanitarian 
needs. This is not something where the money would be spent on 
anything other than the kinds of emergencies that this 
committee, subcommittee, and the larger committee have 
expressed and proven their support for over the years. And one 
of the things that we would be very eager to discuss with you 
is how could we create some kind of consultative process where 
you felt at the heart of the decisionmaking around the use of 
such a mechanism? But we are finding ourselves--our decision 
space shrunk in New York when a crisis arises because of the 
prior year's cycles. And if you look at refugee funding and so 
forth, they have found a way, because refugee flows also are 
unpredictable, to embed, I gather, within refugee programming a 
little bit of flexibility, again, allowing for the kind of 
consultation that could allow real world emergencies and real 
world peacekeeping missions, exigencies to secure funding in a 
nimble way. On Kessab, it is an issue of huge concern. And the 
broader fate of minorities and all the Syrian people is of 
pressing concern. In terms of what the U.N. is doing about that 
particular--the takeover of that particular town, the Security 
Council has met recently, I believe it was just--I have lost 
track of time with my preparation for this hearing--but I think 
it was late last week on Friday, where we discussed the 
humanitarian situation in Syria generally. And most of the 
council members raised the issue of Kessab, calling on the U.N. 
to do more to try to meet the needs of these people. This was 
in a closed consultation on the humanitarian situation in Syria 
in compliance with the humanitarian resolution.
    I would note that, unfortunately, the extremist group that 
appears to have taken hold of that town is not one that the 
United States or the United Nations has a huge amount of 
leverage over. And so our emphasis now is on supporting the 
moderate opposition in Syria that is taking on those extremist 
groups and making sure that the U.N. has the funding it needs, 
and the resources of all kinds that it needs to accommodate 
refugee flow along--or IDP, in the case of the Syrian Armenian 
community, and, as you say, an internally displaced flow. So it 
is resources. It is strengthening the moderate opposition, 
which is taking on ISIL, the very group that appears to have 
taken over that town, making sure that none of the neighbors 
are giving support to terrorist groups or extremist groups, 
which would aid their efforts in seizures like that, and going 
on a funding drive internationally, because only a very small 
percentage of the U.N. funding appeal for Syria generally has 
been filled at this point.
    Ms. Granger. Thank you.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chair.
    Good morning. And following up on Mr. Schiff's question 
with respect to Syria, that the U.N. Security Council has 
demanded that the Government of Syria and opposition groups 
allow humanitarian aid to be delivered. The Secretary General's 
report last week made it clear that the Syrian Government is 
violating the Security Council resolution I believe adopted in 
February. The administration is also on record that the Syrian 
regime is in violation of the Security Council's demands. And 
many of my constituents think, and I mentioned that I have the 
largest Syrian community of any other Member of Congress in the 
country, support helping the Syrian people. And this 
subcommittee provided a significant amount of funding and an 
increase for humanitarian aid to help meet those particular 
needs.
    What will the United States and the U.N. do to ensure that 
aid can get to the Syrian people? That is my principal question 
to you right now.
    Ambassador Power. Well, the first thing we sought to do was 
to get Russia on board with a humanitarian resolution that 
included in it a list of very specific demands, which capture 
at least some, again, of the spirit of your question: a demand 
to lift named besieged areas; a demand to allow cross-border 
access so that food could go across borders, potentially 
reaching up to 3 million or 4 million people who have not been 
reached to this point or are in so-called hard to reach areas; 
demanding the end of the use of barrel bombs, et cetera. And 
although the Russians and the Chinese had vetoed three 
resolutions on things roughly related to the humanitarian fate 
of the Syrian people, in February, they finally came on board 
and supported a strong resolution. That was a resolution also 
that threatened further steps in the event of noncompliance.
    And now because of the noncompliance you allude to, I mean, 
really just a drop in the bucket compared to the set of demands 
I have just laid out, we are consulting with our partners about 
what further steps that we can take, recognizing that Russia's 
history on this issue does not leave us wildly optimistic that 
they would be enthusiastic for another Security Council 
product, but still needing to follow through on the commitments 
we have made.
    What the U.N. on the ground is doing is seeking to leverage 
this revolution in tactical ways. And what they can report is--
here or there--having this resolution has allowed them to get 
through one cross-border checkpoint that they weren't able to 
get through before, a lot of bureaucratic fixes, more visas, a 
committee set up by the government. But it is nowhere near 
sufficient to deal with the needs of the people on the ground.
    And I will say that in addition to regime obstructionism, 
which is by far the primary culprit here in terms of 
noncompliance with the resolution, the fact of the terrorists 
and extremist groups in Syria has not made this task easier for 
the U.N.
    Mr. Dent. Also, I just want to ask, too, since you 
mentioned the Russians, Ukraine. Anything that can be done at 
the U.N. outside the Security Council at this point? Because 
the Russians, obviously, will veto anything we would attempt to 
do to be helpful. What can be done at the U.N. to help provide 
some assistance to the people of Ukraine right now, again, 
outside the Security Council?
    Ambassador Power. That is exactly the approach we take. 
When we see that the Security Council is blocked, we look for 
alternative U.N. venues within the broader U.N. family. And I 
think there are two that we have made use of so far. And we 
need to look at other mechanisms. The first is we had a very 
strong, surprisingly suspenseful vote on Ukraine status and on 
the legitimacy and the legality of the referendum last week.
    I say it was suspenseful because a roughly analogous vote 
on Georgia that had occurred back in 2008 passed by an account 
of 14 ``yes'' votes--I think I have the numbers roughly right--
12 ``no'' votes, and 105 abstentions. Whereas, this vote, we 
got broad cross-regional support. A hundred people voted saying 
that this referendum has no legality, no validity, and will not 
be respected. And only the Venezuela, Sudan, Syria, DPRKs, et 
cetera, voted with Russia. So it was a very, very strong vote. 
And it has real legal consequences, because now legally, the 
U.N. finding, as it were, is that that referendum was 
illegitimate.
    The other place I think we can make a big difference 
through the U.N. is in monitoring. And the Secretary General 
has now sent a team of 25, 30 monitors to Ukraine, principally 
deploying in Eastern Ukraine and places that we are concerned 
about the Russian buildup. That is alongside an OSCE monitoring 
team, which is both doing election monitoring and human rights 
monitoring as well.
    Mr. Dent. I see my time has expired.
    Can I submit a question for the record with respect to 
Israel?
    Ms. Granger. You certainly can.
    If we all stick to 5 minutes, we can do another round.
    Mrs. Lowey.
    Mrs. Lowey. Okay. As we are wrapping up this hearing, given 
the turmoil in the world, given the public's questions about 
what is happening in Syria, what good is the U.N., what is 
happening in Iran, I could go on and on, and we have mentioned 
so many of the trouble spots, I thought I would give you an 
opportunity in summing up. How does U.S. involvement in 
multilateral institutions, such as UNICEF, UNFPA, help in 
solving global challenges? What benefit is there to the United 
States in participating in these institutions? Why is 
participation in the U.N. in our national security interests? 
And how is your office continuing to work toward updating and 
increasing the efficiency and transparency of U.N. operations 
and management practices? How does the U.S. oversee the 
operations of the United Nations and other specialized 
agencies? How are results measured and evaluated?
    Ambassador Power. Thank you.
    Mrs. Lowey. So make your case for why we should continue to 
support the United Nations.
    Ambassador Power. Okay. Well, let me start by noting that 
we go to work every day recognizing that this is not a perfect 
body. It is a body filled with 193 governments. And we all know 
that governments are challenging creatures, and that not all of 
us, you know, every day execute in just the way that we would 
seek to execute. When you combine that fact with the fact that 
half the U.N. member states are again nondemocratic, it gives 
you some insight into the scale of the challenge sometimes.
    But there are vast regions of the world, and it feels like 
ever more, sadly, where civilians are being targeted, where 
women are being subjected to horrific sexual violence, where 
children are being recruited as child soldiers, where 
terrorists and extremist groups are seeking to spread their 
bile, shall we say, and recruit others to their cause.
    And we, the United States, do not want to be in all of 
those places. And yet the American people have made clear their 
longstanding generosity, their humanitarian impulses, their 
solidarity with the victims of sexual and gender-based 
violence, with child soldiers, with the victims of a tsunami or 
any kind of humanitarian catastrophe. America always stands up 
and steps up first. And often it is the American people doing 
so through private charities right alongside the contributions 
they make through this subcommittee and the committee and the 
Congress.
    So we don't want to be deploying our troops around the 
world to be dealing with every crisis of the nature that I have 
described. While we pay a good healthy share of the U.N. budget 
in terms of humanitarian assistance, peacekeeping, the regular 
budget of the U.N., it is the other countries of the world that 
pay three-quarters of the budget, by and large. Particularly 
when it comes, again, to the U.N. regular budget and 
peacekeeping, it is other countries that pay 71 percent. And it 
is in our interest to pool the resources of the world to deal 
with these crises.
    I give you just a few examples. I think the peacekeeping 
mission in Mali, where terrorists and extremist elements had 
virtually taken over that country, and with the U.N.'s help, 
led by the French, the Africans, the United States pushing to 
roll back those extremists, Mali now has a chance. And that is 
a chance not only for the people of Mali, which I think we 
would of course support, but it is also a chance to wipe out a 
threat that at some later stage could have come home to roost 
for us.
    Somalia, a place that was almost a poster child for state 
failure now has an actual chance. They are building a 
government. The African Union has provided troops. We have 
helped support that, again, thanks to this committee's 
flexibility. And Al-Shabaab is on the run, and the people of 
Somalia have a chance to live in dignity and some security.
    Again, it is not a perfect security situation. It is going 
to take a very long time for the state to be fully recovered 
there. But that is another example, again, where we don't want 
to be sending U.S. forces to Somalia, and we want other 
countries to be doing their share. We have spoken a lot about 
Iran today. The sanctions that we have gotten through the U.N. 
Security Council are a force multiplier. You can see through 
the Iranian sanctions regime--and again, we will wait and see 
what happens in these negotiations. Nobody is trusting that we 
are going to be able to get where we need to get. But the 
reason we are in the position we are in is because of how 
biting that multilateral sanctions regime is and that every 
country in the international community is bound to those 
sanctions. That is the force of doing things through the United 
Nations.
    Ms. Granger. Thank you.
    Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair.
    Ambassador, in our last round of questioning, I had a third 
question that we didn't get to, so I thought I would just give 
us a chance to answer it. Hopefully, it won't take the full 
time. The question is on the lessons learned from Benghazi. And 
I know there are a lot of oversight committees and there are a 
lot of investigations going on, but for our purposes today and 
where we are looking at putting dollars forward and where we 
finance operations I guess, given your position in the White 
House during the Benghazi crisis, I wanted your thoughts on 
what we could have done differently, what we have learned from 
it, and how as a Nation we can move forward to ensure that it 
never happens again.
    Ambassador Power. Thank you, Congressman.
    I guess what I can speak to probably best, or at least most 
knowledgeably, is what I can see in the government in terms of 
the precautions that we now take and how we are operating. And 
again, there are other individuals in the government who would 
be more expert at precisely what accommodations that we have 
made and what resources we are deploying where. But, you know, 
I have at least some visibility into the extent to which every 
mission is being scrutinized to make sure that our diplomats 
who are out there serving the American people--in the case of 
Chris Stevens, one of my real heroes in the government just by 
the way he chose to operate. I mean, he was always at one with 
the people, always reaching out, you know, in the Internet 
cafes, and trying to be out there, really hearing from the 
Libyans how they saw their future. And it is tragic that in the 
wake--it is tragic that we no longer have Chris, one of the 
great human beings and great diplomats that this country has 
ever seen. And it is tragic that an attack like that, 
unfortunately, has us needing to, in particular in dangerous 
places like Libya, to curtail that kind of interaction.
    And we had already in the wake of 9/11 beefed up our 
embassy security of course all around the world. And that had 
big resource consequences, which you are well aware of. And now 
we have done, you know, of course another overlay on that in 
order to make sure that the President and the Congress and the 
American people are satisfied that our diplomats who are 
risking their lives every day, just as our soldiers are in some 
of these very dangerous environments, have the protection they 
need, and that they know that when resources are needed, that 
we can come up and work with you and make those resources 
available. You know, we have a budget ceiling that we are all 
operating under with the Budget Control Act. We are trying to 
do a lot internationally with less, because the costs of 
beefing up those missions and enhancing that security is, of 
course, substantial. So as we, you know, rightly, again act 
responsibly fiscally, and set limits on our spending, you know, 
I do want to note, even though our peacekeeping budget request 
here is increased for the reasons that I have described, we are 
finding cuts across the department and in USAID in a way that 
we can both accommodate real world emergencies along the lines 
that I have described but also the need to make sure that our 
diplomats are safe.
    Ms. Granger. Thank you.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you.
    Ambassador, if you wouldn't mind, I know there were a 
couple of----
    Ms. Granger. I cut him off I'm sorry. He was not on the red 
light. His time had not expired.
    Mr. Yoder. I actually didn't use all of our time. It is a 
miracle in this committee. If I might, just to follow up with a 
question. Just you are looking prospectively. Can you look 
retrospectively a little bit for me? Looking back, what could 
we have done differently to save Ambassador Stevens' life?
    Ambassador Power. Again, I was not involved in that--I 
think I don't have the familiarity to offer you a productive 
response. I think probably there are others who would be better 
positioned to respond to that.
    Mr. Yoder. Okay.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you, Ambassador.
    I think you didn't get to finish your response to the--I 
think I asked you four questions.
    Ambassador Power. The Human Rights Council I know I didn't 
answer.
    Ms. Wasserman Schultz. Right. And just U.N. reform.
    Ambassador Power. Yes, U.N. reform. And in fact, 
Congresswoman Lowey asked a similar question.
    Ms. Wasserman Schultz. And the other thing I just wanted to 
get in is to underscore what Mr. Diaz-Balart mentioned on 
Venezuela, and also to praise you, because you have personally 
engaged, and the Secretary has, and President Obama has 
acknowledged the very serious oppression that is going on in 
Venezuela. But if you can more specifically discuss how we can 
balance the United States' role and not feed into Maduro's 
obvious attempt to distract from his own deliberate oppression 
and blame his problems on the United States.
    Ambassador Power. Okay. Let me start, if I can, by 
addressing the Human Rights Council question. I don't remember 
exactly how you worded the question, but it was----
    Ms. Wasserman Schultz. Basically, how can we get the Human 
Rights Council, through our membership, to focus less on Israel 
and more on----
    Ambassador Power. Exactly. That was the line I wanted to 
pick up on. Because what I would say is since we joined the 
council, since the President made that decision to return to 
try to reform the council from within and make the council more 
functional for human rights around the world, we have had a 
great deal of success getting the council to focus more on real 
world human rights abuses. Where we have had less success is 
getting it to focus less on Israel. And so there are fewer 
countries, I believe--I would have to look at the statistics 
each year--but there are fewer country-specific resolutions on 
Israel from one year to the next, but it is still a standing 
agenda item. And the notion that Israel is a standing agenda 
item on the Human Rights Council, and DPRK, which has some of 
the worst atrocities on planet Earth, Syria, where you have a 
government using chemical weapons, barrel bombs, and Scuds 
against his people is not a standing agenda item, it is 
obscene.
    So our challenge there is the numbers. So what we do is we 
use our platform to call out what is happening and to stand up 
for Israel and to reject the delegitimization. I indicated in 
my opening remarks that we also have secured I think a really 
important step for Israel, which has membership now in a 
regional grouping, which should not be something that we have 
to celebrate, but because they had been excluded from a 
regional grouping in Geneva for so long, this is something that 
has come to mean a great deal to Israel and a great deal to us. 
And so that is happening right alongside the challenges that we 
face on Israel within the Human Rights Council. And we will 
continue to chip away, including getting Israelis into 
leadership posts across the U.N. system, which we are doing 
more and more.
    But on the functional side of the Human Rights Council, 
this is the place where the first ever U.N. resolution 
acknowledging that LGBT persons were entitled to full human 
rights was passed 2 years ago, which again should not have 
taken so long, but it is a very significant piece of normative 
business. The Syrian Commission of Inquiry would not exist if 
not for this. You mentioned Iran. The Iran, we just re-upped 
last week the Special Rapporteur on Human Rights for Iran, 
which at the very time that we are negotiating on the nuclear 
issue, we cannot forget the state of human rights, the 
deplorable state of human rights in Iran. And this Special 
Rapporteur has provided an independent source of information 
that has really strengthened, I think, our ability to document 
and to get the international community----
    Ms. Wasserman Schultz. Venezuela and Cuba as well.
    Ambassador Power. Yes. I am sorry?
    Ms. Wasserman Schultz. Cuba and Venezuela.
    Ambassador Power. Cuba and Venezuela are more challenging 
within the Human Rights Council because of the weighting of the 
membership. And what we have done there, and again, I mentioned 
this a little bit earlier, is we seek to use the platform we 
have. We are America. People listen to us. They care about what 
we say on human rights. We can show solidarity with people who 
are suffering inside these countries. And then we have sought 
to build regional--sort of not creating formal U.N. human 
rights resolutions, which we haven't--you know, for whatever 
reason, haven't been able to build the kind of support that we 
would like on that, but we can still show that in all regions 
of the world people are willing to condemn the human rights 
abuses and the crackdowns that are existing.
    And I would note in Cuba that there have been more roundups 
I think in the first quarter of this year than in a very long 
time. So one cannot be too complacent at all on that situation.
    And then, on U.N. reform, if I may--I see a flashing red 
light, it hasn't become a solid red light just yet--just simply 
to say that there has been a huge amount of duplication in the 
U.N., that we have a department of field support strategy that 
has found $250 million in cuts on peacekeeping. I mentioned 
earlier that the per peacekeeper cost has gone down by 16 
percent over the last 5 years that we have been working on 
these issues, thanks in part also to leadership of 
Congresswoman Granger and the push we have made on audits. You 
now have UNICEF, UNDP, U.N. Women, and a bunch of other U.N. 
agencies who are posting their audits online. We have the 
Secretariat doing so as well, and they are trying to make that 
permanent, which I think is a real turning point in the U.N. 
culture, which has been very opaque. We have created a hotline 
on waste, fraud, and abuse. And we have frozen--the regular 
budget growth had been growing, growing, growing, and we 
basically, you know, have frozen the budget growth, put in 
place a spending freeze, and we are looking at staff 
compensation, which is where 70 percent of the regular budget 
costs are accrued. And they have got to do a comprehensive 
review on compensation, which we seek. And we just in the last 
budget cycle secured the cutting of 221 posts, which, again, in 
the U.N. culture where everybody is wanting to keep posts for, 
you know who and you know who, was a pretty substantial 
achievement.
    Ms. Granger. Thank you.
    Mr. Dent.
    Mr. Dent. Thank you. The question I was going to submit for 
the record I might as well present to you. I may not be able to 
stay for the answer. I have a commitment that I must attend. 
The United States has long led the fight against the Arab 
League boycott of Israel and has aggressively combatted the 
delegitimization of Israel through various international forums 
like the U.N. The latter part of the strategy is known as BDS, 
boycott, divestment, and sanctions. It is considered by many to 
represent a new line of attack against Israel, delegitimizing 
Israel's actions through the use of the international systems, 
the misuse of international law. And it is now feared in the 
creation of new international codes of conduct that have the 
potential to truly harm Israel economically as well as 
politically. These vestiges remain.
    We effectively defeated the Arab League boycott as a tool 
of delegitimization by establishing legal protocols and 
advising corporations about the penalties in store for those 
choosing to abide by it. While the challenge of this boycott, 
divestment, sanctions, the BDS, is more diffuse, the underlying 
principle pretty much remains the same. We cannot allow others 
to pervert international systems to attack Israel. And we 
cannot allow international codes of conduct to be turned into 
new weapons in the delegitimization arsenal.
    I guess the question is, do you share my concerns? And if 
so, what steps is the U.S. taking to ensure that the 
international systems of which we are part and a large 
contributor to are not taking or supporting actions to 
deliberately single out and delegitimize Israel?
    And the last question is, how are we engaging with 
international bodies as they seek to establish new codes of 
conduct that, if left unchecked, could be used as sticks to 
wage a destructive campaign against one of our closest and 
dearest allies?
    Ambassador Power. Okay. Well, let me try to take advantage 
of your presence here for the next minute to say that we oppose 
and reject divestment and boycotts. I think Secretary Kerry has 
been very clear on this. I have certainly been clear on this. 
In the U.N. system, the form that that has taken so far is more 
along the lines of what we have discussed so far, the exclusion 
of Israel from various groupings. I just had the chance to 
discuss this Western European and Others Group, which back in 
2000, we were able, the United States was able in New York to 
get Israel membership in, in New York. But we were always 
denied, Israel was always denied in Geneva. Taking advantage of 
the peace process, and years of lobbying, and months of very 
intensive lobbying on this issue, Israel was finally admitted 
just this fall. Similarly, in New York, there is a human rights 
caucus for like-minded countries that basically vote the same 
way and think the same way on human rights issues. Israel's 
voting coincidence with the countries who are part of that 
group is very, very high, even higher than that of the United 
States. And yet, for years, it was excluded from that group. We 
just secured membership for Israel in that group. Israeli 
officials have had a very hard time becoming senior U.N. 
officials. But in recent years, we have gotten an Israeli 
official elected vice president of the General Assembly. The 
U.N. Human Rights Council has just named an Israeli an 
independent expert on older persons. We have gotten them on to 
executive committees for the Convention to Eliminate 
Discrimination Against Women.
    I mention these in some detail because this is what 
legitimization looks like. This is what has to happen alongside 
our efforts to oppose boycotts, divestment, and unilateral 
statehood bids.
    Mr. Dent. Thank you.
    Ms. Granger. Mr. Schiff.
    Mr. Schiff. Thank you, Madam Chair.
    Two questions. One just to follow up, because I think my 
clock ran out in the first round, is there any kind of 
diplomatic avenue still open on Syria? Or given Assad's current 
military advantage, has the Geneva process and any other 
completely evaporated?
    And second, while a lot of the barriers are coming down at 
home in terms of the LGBT community, there seem to be a rash of 
new anti-LGBT laws in Africa. We have seen the action in 
Russia. But increasingly, even places like Eastern Europe, you 
are seeing this on the legislative calendar in the parliaments 
in Eastern Europe and the Baltic States. What are we doing at 
the U.N. to try to get out ahead of this, to be proactive on 
this? And do you see this as part of, at least as far as 
Eastern Europe goes, Putin's effort to create a new ideological 
war with the West and make this one of the components?
    Ambassador Power. Thank you, Congressman.
    On Syria, the diplomatic process is not in a good place. 
That is evident for everyone. I can share personally that the 
meetings that we had when Lakhdar Brahimi, the U.N. mediator, 
was in New York, the challenge we are facing is that the 
mediator has put forth a path forward which would have the 
parties, both of whom again showed up for the second round of 
Geneva finally, after much preparatory work on our part with 
the opposition, but Brahimi's conviction is that in order for 
these talks to go forward, one cannot exhaust the topic of 
terrorism and come to conclusion on the topic of terrorism 
without in parallel dealing with the issue of the transitional 
governing body, which is the cornerstone of the Geneva 
communique. And the Syrian position, obstinate position up to 
this point, is we will not talk about the transitional 
governing body until we have dealt with terrorism, which, you 
know, is itself a show of bad faith, the way that they are 
approaching these talks.
    So we are working aggressively behind the scenes, 
notwithstanding Ukraine and all of the other business that we 
are doing at present, to try to get those who have influence 
over the Syrian regime to change their position. Right now, it 
is the Syrians who are preventing the reconvening of another 
round of Geneva talks.
    In parallel, and I spoke a little bit to this earlier, but 
in a different context, the Kessab context, it is very 
important that the moderate opposition be strengthened. And we 
are looking at additional steps that we might take in order to 
enhance their efforts on the ground. Because something quite 
significant has happened over the last few months, which is 
that they have taken on terrorist and extremist groups which, 
you know, so far probably is one factor behind some of the 
Assad regime's recent tactical military gains. And that counts 
as infighting within the opposition, but it is certainly in the 
U.S. interest for that moderate opposition, who are willing to 
commit to protect the rights of minorities and who seem to have 
a vision for Syria that is multiconfessional, it is in our 
interests for those elements to be strengthened.
    Right now, the regime is not--you know, does not--does not 
feel that it needs to come to the negotiating table. And so 
that support for the moderate opposition is going to be a 
critical component, alongside pressure on those who are backing 
the regime to bring the regime to the table.
    On the LGBT issue, it is, I would agree completely with the 
way you characterized it. Just at the time where LGBT persons 
in this country are seeing a rate of progress, particularly 
when it comes to gay marriage and inclusion and acceptance, 
that is incredibly important and that of course needs to 
continue and even speed up for the sake of the dignity of all 
people living in this country, but at the very time we have had 
some good news stories in this country, the trend 
internationally is going in the opposite direction.
    There are laws criminalizing homosexuality in 80 countries 
at present. So the countries that you mentioned or alluded to 
in Sub-Saharan Africa and in the Baltics, this is a new 
chapter, shall we say, in what has been a chronic effort to 
criminalize sexual orientation. The death penalty is applied in 
seven countries on the basis of sexual orientation.
    Two years ago, President Obama issued the first ever 
Presidential directive on LGBT rights as international human 
rights. Secretary Clinton gave an incredibly powerful, epic 
speech in Geneva in the Human Rights Council, where many 
countries were very startled to see the United States out there 
leading in this way and insisting that LGBT persons were 
entitled to the same rights as everyone else around the world 
and are a central part of what it means to promote human 
rights.
    As part of the Presidential directive, we look at 
assistance; we look at asylum claims on the basis of 
persecution. And now, in many of these countries, people, of 
course, have a well-founded fear of persecution because there 
are mobs going door to door with lists of LGBT persons in 
countries like Nigeria. Russia was the first recent country to 
put these laws on the books. And unfortunately, in the old 
days, we used to talk about the importance of exporting best 
practices in development and security sector reform and all of 
that. Now we see countries like Russia exporting worst 
practices, and other countries taking the worst aspects of that 
law and putting them on their books.
    But President Obama, again, has been very outspoken on 
this, and we will continue to contest this and make it a 
subject of our bilateral diplomacy, and do what we can within 
the U.N. system along the lines that I described earlier to 
make sure that other countries are standing with us, 
particularly from other regions and not just from Europe and 
North America.
    Ms. Granger. Thank you very much.
    Thank you for being with us. I will be submitting for the 
record some questions about U.N. reforms, having to do with 
transparency and accountability, like spending plans for U.N. 
organizations and a report on funds withheld because of any 
provision of law. I will submit that to you. If you could just 
give me an answer in writing. Thank you.
    Thank you very much, Ambassador Power. Thank you.
    This concludes today's hearing. Members may submit any 
additional questions for the record. The Subcommittee on State, 
Foreign Operations, and Related Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 29, 2014.

                   UNITED STATES ASSISTANCE IN AFRICA

                                WITNESSES

LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY, BUREAU OF AFRICAN 
    AFFAIRS, DEPARTMENT OF STATE
SHEILA HERRLING, ACTING CHIEF EXECUTIVE OFFICER, MILLENNIUM CHALLENGE 
    CORPORATION
EARL GAST, ASSISTANT ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR 
    INTERNATIONAL DEVELOPMENT

              The Opening Statement of Chairwoman Granger

    Ms.  Granger. The subcommittee on State, Foreign Operations 
and Related Programs will come to order. Today we will hear 
from the panel before us on United States assistance to Africa.
    I would like to welcome our witnesses: Assistant Secretary 
of State for Africa, Linda Thomas-Greenfield; Assistant 
Administrator for Africa, Earl Gast; and Acting Chief Executive 
Officer for the Millennium Challenge Corporation, Sheila 
Herrling.
    Thank you all for being here.
    We are expecting more of the members, but we are going to 
go ahead and start because all they will miss is our opening 
remarks. Right?
    Mrs.  Lowey. Right.
    Ms.  Granger. Today's hearing is very important--given the 
significant funding that has been provided and the challenges 
facing the continent. There are also many achievements from our 
investments over the last several years, and I hope we can hear 
about the successes and learn from them.
    $6.9 billion of the fiscal year 2015 budget request for 
State and USAID is for Sub-Saharan Africa. That represents 35 
percent of the funds and is more than any other region except 
the Middle East.
    Additionally, all four countries proposed for Millennium 
Challenge Corporation funding in fiscal year 2015 are in Africa 
and three of those are in Sub-Saharan Africa.
    Africa also receives the majority of funds requested for 
the President's three major foreign aid initiatives, and last 
year the administration announced three new initiatives for 
Africa, focused on power, trade and youth leadership.
    We have seen proven results from some of the investments 
already made, such as life-saving programs in HIV/AIDS, malaria 
and maternal and child health, and conservation programs that 
have helped countries manage and protect Africa's unique 
natural resources.
    Our investments pay dividends in public diplomacy. In 
Africa, opinions of the United States ranks among the highest 
in the world.
    With respect to security, our assistance supports 
activities ranging from peacekeeping missions, counterterrorism 
initiatives, and programs to reform and professionalize police 
and military throughout the continent.
    The needs have never been greater. New and troubling 
conflicts have broken out in South Sudan and the Central 
African Republic. Longstanding violence continues in the 
Democratic Republic of Congo, and terrorism remains a 
significant threat not only to stability in Africa, but to our 
own national security.
    I want to hear from our witnesses how the programs we fund 
address those challenges.
    And, finally, the United States is responding to some of 
the most devastating humanitarian crises in years. In Africa 
alone, conflict, disease, and a threat of famine have put 
millions at risk, but the cuts to humanitarian assistance in 
the fiscal year 2015 request do not reflect this reality. I 
hope our panel can address this discrepancy.
    There is a wide range of topics we could discuss today, and 
I expect this will be a very productive hearing. I look forward 
to hearing about some of the issues I raised.
    I will now turn to my ranking member and friend, Mrs. 
Lowey, for her opening remarks.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     Mrs. Lowey's Opening Statement

    Mrs.  Lowey. Well, thank you, my friend, Chairwoman 
Granger. It is a pleasure for me to join you in welcoming 
today's distinguished panel.
    Today's hearing is important and a welcome opportunity to 
refocus our attention on Africa. We face numerous global 
challenges: the upheaval in Ukraine, the interminable civil war 
in Syria, Iran's nuclear program, our drawdown in Afghanistan 
and more.
    At the same time, we cannot neglect the alarmingly 
increasing number of crises in Africa and must continue to 
invest strategically in strengthening development and 
diplomatic ties.
    This is not the United States' responsibility alone. I want 
to repeat that. I believe fervently this is not the 
responsibility of the United States alone.
    I want to hear from you how the administration is engaging 
with other donors, the U.N., and multi-lateral institutions to 
address the challenges and opportunities on the African 
continent.
    From countries in crisis to counterterrorist operations, 
from conflict mitigation, humanitarian responses, to sustaining 
health and development initiatives, Africa is a microcosm of 
our diplomacy and development goals worldwide.
    I look forward to hearing the panel's insight regarding our 
assistance in Africa at this critical time, paying particular 
attention to three pillars in U.S. policy: mitigating 
humanitarian crises, promoting security and stability, and 
supporting health, human rights and democratic governance.
    Recent U.N. reports from South Sudan and the Central 
African Republic reveal haunting details of violence, 
instability, and human suffering. Ethnic groups are being 
systematically targeted for political retaliation, and 
atrocities are being committed against women and children.
    I hope to learn further details on the administration's 
diplomatic strategy and humanitarian response and on the U.N. 
peacekeeping missions in South Sudan and the Central African 
Republic.
    How can the international community prevent these countries 
from spiraling further into indefinite genocide? And given 
other ongoing needs in places like Syria, Somalia, and Mali, 
are the proposed cuts to the International Disaster Assistance 
and the Migration and Refugee Assistance accounts by 28 percent 
and 33 percent, respectively, appropriate?
    I am also deeply troubled by the rising tide of terrorism 
perpetrated by Islamic extremist groups. The merciless 
brutality demonstrated by al-Shabaab's 4-day siege of the 
Westgate Mall, Boko Haram's recent kidnappings of schoolgirls 
and bus station bombings, al Qaeda in the Islamic Maghreb's 
seizure of northern Mali all sent shockwaves throughout the 
world and threatened U.S. interests and citizens.
    I hope you will provide greater insight into the 
administration's strategy for enhanced security cooperation 
with African countries, European Union, and the U.N.
    We have seen tremendous success with our health 
investments, with over 6 million people on HIV treatment as 
well as advancement in child mortality rates due to improved 
access to vaccines and treatment for deadly illnesses such as 
malaria and pneumonia.
    I am pleased to hear reports of rapid economic growth and 
development in countries such as Ghana and South Africa. 
However, we must sustain these gains in health and accelerate 
progress in other areas such as food security, governance and 
the elimination of poverty.
    We need to ensure that every last foreign assistance dollar 
is programmed to deliver results in a cost-effective manner. 
Therefore, I was troubled to learn that the cost of training 
one person on countering extreme violence can cost up to 
$700,000. I hope you can tell me that this was a typo in a 
report.
    Because I ask myself: How many children can we educate for 
that amount of money instead? Is education a better strategy 
for countering extreme violence? Are we wisely spending our 
resources on programs and policies that work and are cost-
efficient? How are the difficult decisions and trade-offs made? 
And what evidence is used to support these decisions?
    I am encouraged to see that the year's request continues to 
prioritize investment in Power Africa, Trade Africa and the 
Young African Leaders Initiative; yet, it greatly concerns me 
that the administration is undercutting once again investments 
in basic education.
    So, in conclusion, I hope to learn more about how the U.S. 
Government is diplomatically engaging African leadership to 
invest resources in their own people and commit to improved 
transparency in governance.
    Both donor and host countries need to fully synchronize 
their efforts through a holistic strategic dialogue if we are 
to increase total investment across the key human development 
sectors of health, education, energy, and infrastructure.
    And, really, finally, I will close by saying I am very 
concerned about backsliding in the area of human rights, in 
particular, the proliferation of discriminatory and draconian 
legislation against LGBT in Uganda and Nigeria, and I remain 
deeply troubled about the impact on personal freedom and public 
health.
    Thank you again for joining us today. Thank you for your 
service. I look forward to your testimony.
    Ms. Granger. Thank you, Mrs. Lowey.
    I now call on the witnesses to give their opening 
statements. And I would encourage each of you to summarize your 
remarks so we can leave time for questions and answers. Your 
full written statements will be placed in the record.
    We will begin with Ms. Thomas-Greenfield.

               Opening Statement of Ms. Thomas-Greenfield

    Ms. Thomas-Greenfield. Thank you very much.
    Madam Chairwoman, Representative Lowey, members of the 
committee, I start by thanking you for the opportunity to speak 
today in support of the administration's fiscal year 2015 
budget request and to further detail--provide further details 
on our U.S. assistance to Africa.
    And, as you noted, a complete version of my testimony has 
been submitted for the record that will address the full range 
of issues that have been raised. And I will be prepared to 
answer any questions that you have.
    As Secretary Kerry noted in his testimony before you last 
month, we deeply appreciate the role that this committee and 
the subcommittee play in helping the American people understand 
why foreign affairs matters to them.
    Advancing the values and interests of our country and 
promoting stability in the world does matter to our citizens, 
whether it results in jobs and economic opportunities, 
connections between communities, or the safety and security 
that we aim to achieve. The Secretary was speaking in a global 
context; yet, we believe his words are applicable directly to 
U.S. relations with the continent of Africa.
    For far too long, images of poverty and insecurity have 
dominated the American perspective on Africa. Yes, these do, 
exist in Africa, and I would be remiss today if I did not 
express my deep concern with the continued violence and 
fighting in South Sudan, in Sudan, in Central Africa Republic 
and with the increasing atrocities committed by Boko Haram 
against schoolgirls and other innocent citizens committed by 
Boko Haram and attacks that are committed against all faiths in 
Nigeria, across the borders in neighboring countries as well.
    But as in other parts of the world, they are certainly not 
the whole story of what is happening on the continent. Those 
images illustrate only a narrow component of what our 
partnership on the continent are trying to address and to 
achieve.
    And, in fact, tonight I leave with the Secretary for his 
second trip to Africa to meet with our partners to address some 
of the challenges and the opportunities for cooperation.
    He will open a high-level dialogue--our fourth high-level 
dialogue with the African Union, and he will meet with our 
regional partners regarding the situation in the South Sudan 
and in the Great Lakes.
    We also have an exciting summer ahead, as you mentioned, 
with our Washington Fellows program, part of President Obama's 
Young African Leaders Initiative, or YALI, and the historic 
U.S.-Africa leadership summit to take place in August in 
Washington.
    Our fiscal year 2015 budget request reflects the policy 
priorities set forth in the presidential policy directive for 
Sub-Saharan Africa and the State-USAID joint regional strategy 
for Africa.
    The total request for Africa is $6.9 billion. It seems like 
a lot, but when you look at all of the priorities that we have 
and the crises that we are involved in, it is not. Of that 
total, roughly 68 percent, or $4.7 billion, of this goes toward 
bilateral assistance for 15 priority countries.
    And over the last 50 years, the relationship between the 
United States and these countries, as well as the whole 
continent of Africa, has evolved dramatically.
    In each of the priority countries, we are actively pursuing 
policies of partnerships, ways to promote solutions that yield 
benefits over the long term for both countries and as well as 
for their people.
    Their policy priorities--these--they are policy-priority 
countries not just because of the need, but also because of 
opportunities we see for mutual prosperity. Moreover, peace and 
prosperity in these countries will have a positive effect 
throughout the region.
    As in previous years, the request includes a robust support 
for the three global presidential initiatives: Global Health, 
$4.8 billion; Feed the Future, $500 million; Global Climate 
Change, $88 million.
    It also includes resources to continue support for the 
three Africa-specific initiatives begun in fiscal year 2013: 
Power Africa, $77 million; Trade Africa, $27 million; and the 
Young African Leaders Initiative, $10 million.
    The fiscal year 2015 budget request also includes a 
proposal to fund the Peacekeeping Resource Mechanism, PKRM, and 
I know that Ambassador Powers, who--was on April 2nd before you 
and she addressed this issue.
    I want to add my strong support for funding this account. 
Like many other parts of Africa--other parts of the world, 
Africa faces many complex crises. And the origins of these 
crises can be political. They can be ethnic or religious 
tensions, as we have lately seen in Central Africa Republic and 
in South Sudan.
    And despite our best efforts to plan for these 
contingencies and forecast the trends, we don't always know 
when the next crisis will play out.
    I don't think we knew that we were going to have the kind 
of crisis we are in in South Sudan right now. So the United 
States needs to be able to respond quickly and robustly, and 
the PKRM will help us do that.
    Our challenge is also to try to balance our near-term and 
urgent imperatives with our long-term priorities. There will be 
11 elections on the continent in 2014, 12 in 2015.
    And for that reason, our budget request is focused on 
providing support in all arenas, and most critical are 
stability and growth, such as promoting strong democratic 
institutions, building security sector capacity, facilitating 
economic development, and creating lasting connections between 
the United States and the people of Africa.
    So across the board, we are trying to move beyond outdated 
models for aid and focus on the objectives that link us with 
the private sector, with other African Governments, with local 
NGOs, with civil society, with other regional partners, with 
our other partners in the donor community, as well as citizens 
as partners.
    And this must be, we believe, the way forward in terms of 
budget realities and in recognition of how our relationships 
with African partners have evolved over the past 50 years.
    Thank you very much. And I look forward to your questions.
    Ms. Granger. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                     Opening Statement of Mr. Gast

    Ms. Granger. Mr. Gast, you are now recognized.
    Mr. Gast. Madam Chairwoman, Ranking Member Lowey and Member 
Schiff, it is my pleasure to appear before you today to discuss 
the President's budget for U.S. aid in Africa.
    Nowhere in the world is development such an important part 
of U.S. engagement efforts as it is in Africa, and the changing 
tide on the continent requires a new model for development.
    This new model is at the core of USAID's approach in 
Africa, which seeks to end extreme poverty by investing in 
Africa's greatest resource, its people, to sustain and further 
develop opportunity and human rights for this and future 
generations.
    Across the continent, we are implementing major initiatives 
to improve health, food security, electricity access, trade and 
resilience that are underpinned by commitments to good 
governance, education, gender equality and the environment.
    These programs are driven by a culture of innovation, 
powered by efforts like USAID's Development Lab, which brings 
together a diverse set of partners to discover, test, and scale 
break-through technologies and solutions to chronic development 
challenges.
    Our fiscal year 2015 request focuses on bilateral 
assistance for 15 priority countries in Sub-Saharan Africa that 
are critical to national security and economic trade. 80 
percent of the rest would go toward three of the President's 
global initiatives: Feed the Future, the Global Health 
Initiative, and Global Climate Change Initiative.
    The request also supports three Africa-specific initiatives 
launched by President Obama last year: Power Africa, Trade 
Africa, and the Young African Leaders Initiative. All 
complement the global initiatives and broaden our development 
impact.
    And when they are applied on a country or community basis, 
along with the work of other government agencies and other 
donor partners, they are designed to take root and fuel real 
long-term change.
    Each of the 42 countries where USAID works requires unique 
support, from the devastation in the Central African Republic 
to the rising prosperity in Tanzania, the violent crisis in 
South Sudan and the peaceful political transition in Senegal, 
the fragility of Niger and the anchor of South Africa.
    While the governing principles of our work applies across 
the continent, our strategies are tailored to each of these 
country's singular challenges and opportunities. The 
effectiveness of this approach is evident.
    The Millennium development goal of reducing the number of 
hungry people in the developing world is reachable by 2015. 
PEPFAR is supporting life-saving anti-retroviral treatment for 
more than 6 million persons.
    The number of people newly infected with HIV is decreasing 
for the first time since the epidemic struck, and 10 African 
countries have reduced the number of malaria cases and deaths 
by over 50 percent in the last decade.
    Our long-term investments in the Global Health Initiative 
half the burden of malaria for 450 million people, representing 
70 percent of the at-risk population in Africa.
    Over the past 20 years, with help from USAID maternal and 
child health programs, child mortality has dropped by nearly a 
third and maternal mortality has dropped by 41 percent.
    A focus on resilience is being institutionalized within 
Feed the Future, and progress has been steady, especially in 
areas that recently suffered from historic drought.
    And since the launch of the new Alliance for Food Security 
and Nutrition at the G8 Summit in 2012, more than 140 
companies--two-thirds of them are African--have committed to 
responsibly invest more than $3.7 billion in new alliance 
countries.
    In less than 1 year, Power Africa has closed deals that 
will add more than 2,800 megawatts, about 28 percent, committed 
through Power Africa, which is a remarkable achievement that 
will advance our efforts to mitigate the effects of climate 
change, promote economic development, and improve education and 
healthcare.
    Trade Africa, a partnership between the U.S. and the East 
African community, will aim to double intraregional trade and 
exports to the U.S. by 40 percent.
    In recent years, skilled civilians, statesmen, and women 
have begun to replace the big men that once dominated the 
continent. Africa's new leaders are now serving as role models 
for the next generation and they are increasingly becoming 
partners in development through initiatives such as the 
Partnership for Growth.
    This summer, President Obama will welcome the heads of 
state from across the continent to Washington, D.C., for a 
summit that will further strengthen U.S.-Africa ties and 
advance the administration's focus on trade and investment in 
Africa.
    It will also highlight America's commitment to Africa's 
security, its democratic development, and its people. This is 
our new model for development in action.
    USAID's work values partnership over patronage and 
innovation over convention. This approach enables us to make 
the greatest difference while making the most of every dollar.
    And as we continue to work with Congress to achieve our 
shared goals, we very much look forward to a continued 
conversation on our priorities in Africa.
    Thank you.
    Ms. Granger. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   Opening Statement of Mr. Herrling

    Ms. Granger. Ms. Herrling, you are now recognized.
    Ms. Herrling. Thank you very much, Chairwoman Granger, 
Ranking Member Lowey, members of the committee for inviting me 
here this morning.
    President Obama's 2015 budget request of $1 billion, an 11 
percent increase over last year, will show MCC is continuing to 
deliver results for the American people, for our partner 
countries that share our values, and for the administration's 
priority, from advancing transparency to supporting open data 
and evidence-based programming to building new partners and 
markets in Africa, including through Power Africa. We will 
continue to work hard to keep MCC successful, and that means 
working hand in hand with you.
    I am going to focus here on three things: what makes MCC 
work, what we have achieved particularly in Africa, and what is 
next.
    MCC was created 10 years ago with the model very purposely 
built on the lessons others learned before us. You referred to 
them, Ms. Lowey, in your opening remarks. And so, as you well 
know, we have a singular mission: reducing poverty through 
economic growth.
    We work with a limited number of countries, poor, but well 
governed, and they themselves design and implement the 
programs. We target our investments to programs that accelerate 
growth and generate a rate of return, and we evaluate every 
major program, sharing our results publicly, part of why MCC 
was ranked number one transparent agency in the world.
    Now, Africa has seen the bulk of MCC's work. Some 15 of our 
27 signed compacts have been with African countries, totaling 
close to $6 billion, and the results are impressive. I could 
list numbers.
    We often come up here and list numbers of kilometers of 
roads paved, farmers trained, land titles given particularly to 
women. We live by these numbers. We publish these numbers. We 
learn from these numbers.
    But a list of numbers doesn't often tell the whole story, 
and we want all of these outputs to add up to economic growth 
and increased incomes. That is the real impact that we are 
working to achieve. And with your support, MCC will continue to 
forge successful partnerships in Africa.
    Our 2015 request is slated for four African countries: 
Liberia, Morocco, Niger and Tanzania. Liberia and Niger are new 
compact partners, and it is always very exciting when new 
countries have worked very hard to pass our eligibility 
requirements and are in the investment pool.
    In other cases, the data shows that the greatest 
opportunity for impact is deepening partnerships with countries 
we have worked with before, like Ghana and Lesotho. In all 
cases, MCC's board is looking to put hard-earned taxpayer 
dollars where it will deliver the maximum results.
    In Africa and elsewhere, the question now is: What is next? 
Let me highlight three things that we would like to be working 
with you on over the coming year.
    First, creative financing mechanisms. Pay for performance 
and cash on delivery could give us ways to further innovate, 
scale, and sustain our investments.
    Second, regional impact. The port expansion program we 
funded in Benin, for example, has regional impact. Enhanced 
trade opportunities were certainly a benefit for Benin, but, 
also, for its land-locked neighbors. But perhaps there is more 
we can do on the assessment and operational front.
    And, third, very importantly, fighting corruption. You 
can't fight corruption if you can't measure it well. And to 
keep our measures cutting-edge, MCC is bringing together an 
alliance of experts and users of governance data to see if new 
and improved ways of assessing a country's efforts to combat 
corruption can be created.
    For 10 years now, you have supported MCC's work. Thank you 
very much for that support. It is very helpful to what we do, 
constantly adapting, applying, and we hope for your continued 
support going forward. And I am happy to answer any questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you all very much.
    I am going to start with a question and then turn to Mrs. 
Lowey. Conservation, of course, you know is critically 
important to our country's efforts. So I was very disappointed 
that the budget reflects for biodiversity a cut by half from 
the current level.
    The programs are really important, and you know they are 
important. Deforestation, over-fishing and wildlife poaching, 
which has increased significantly, these needs are not 
decreasing.
    So I would turn to Mr. Gast, please. Can you explain the 
proposed cuts at a time when the needs really have never been 
more urgent, I think especially in Africa.
    Mr. Gast. Thank you for the question.
    And we also take it very seriously. In fact, as I 
mentioned, we are looking at new models and innovations for 
development.
    And one area that we think where new technology can play a 
role is in anti-poaching efforts. And, in fact, very shortly we 
are going to be issuing a solicitation for ideas on how we can 
bring technology to bear to help on anti-poaching efforts.
    So, for example, very lightweight and very cost-effective, 
cost-efficient UAVs are being piloted in some of the parks with 
USAID funding.
    With that, though, getting back to your question about 
funding, I believe the funding from fiscal year 2013 to 2015 
represents a straight line and not a significant decrease, but 
I can say that we are looking at options on increasing the 
funding for this year--this current year.
    Ms. Granger. Thank you.
    One of the programs that receives this type of funding is 
the Central Africa Regional Program for the Environment. USAID 
and the U.S. Fish and Wildlife Service both implement this 
program.
    Can you explain who does what, how that is coordinated.
    Mr. Gast. Certainly. And, also, the Department of State is 
a key partner in this as well through the use of INCLE funds.
    We have a partnership with the U.S. Fish and Wildlife 
Service. It also receives a direct appropriation for the CARPE 
program, as you mentioned.
    Where we believe that we add value as a development agency 
is working with the communities and working with them in 
providing assistance in helping them themselves maintain and 
conserve the area of CARPE, where Fish and Wildlife Service 
brings its unique capacity, which is training the law 
enforcement side and the fish--and their counterpart, if you 
will, of the government enforcement agencies for conservation.
    Ms. Granger. Good.
    As you look at the technologies that you referred to, would 
you keep us involved and aware of what is happening?
    You know, Mrs. Lowey and I have talked about this before 
and certainly with our staff and said, ``You know, I would hate 
to think, as I served in Congress, that I watched those 
wonderful herds of elephants and rhinos disappear from 
wildlife.''
    And so we are willing to help, certainly. So keep us being 
involved.
    Mrs. Lowey.
    Mr. Gast. Thank you.
    Mrs. Lowey. Thank you very much.
    With regard to conflict mitigation and humanitarian 
response, Congress provided robust funding for the humanitarian 
accounts in the fiscal year 2014 omnibus act, yet, the fiscal 
year 2015 request cuts IDA by 28 percent and MRA by 33 percent 
from the fiscal year 2014 enacted levels.
    But the number of refugees, internally displaced persons, 
conflict victims, other populations of concern has risen to an 
18-year high with more than 45.2 million forcibly displaced 
predominantly due to violent conflict or more. The number is 
expected to grow as violent conflicts persist in the Central 
African Republic and South Sudan.
    So would the President's proposed deep cuts to these life-
saving accounts in his fiscal year budget provide your agencies 
the resources you need to respond adequately to humanitarian 
crises in Africa?
    What is the best plan to utilize finite resources to 
address increasingly complex deteriorating crises in DRC, 
Central African Republic, South Sudan, the Sahel, Nigeria?
    What programs in what countries would likely be cut?
    And is there enough funding in the IDA/MRA accounts to 
respond to a new emergency in Africa?
    And since we can't do it all and since our budget is 
decreasing, I would be very interested in having you address 
how you are working cooperatively with other donors so there is 
coordination, not repetitive efforts, and that you are 
accomplishing something.
    And if there is time in the couple of minutes, I would be 
very interested to know how all this relates to the corruption.
    So thank you. Maybe you can begin.
    Mr. Gast. Sure. Absolutely.
    And then--and, Congresswoman Lowey, let me get back to a 
point that you made in your opening statement, and that is that 
it is not the sole responsibility of the U.S.
    Mrs. Lowey. If you could answer that thoroughly.
    Mr. Gast. But it is our responsibility as leaders to bring 
together other donors. And that, I think, is where we have been 
applying a lot of our effort.
    Our administrator just 2 weeks ago co-hosted with Valerie 
Amos of the U.N. and, also, with ECHO Chairwoman Georgieva at a 
conference among donors here to talk about the situation in 
South Sudan.
    And we have been very generous in using 2013 and 2014. We 
have provided more than $400 million in humanitarian assistance 
combined.
    And this was an effort to bring together all the donors and 
development ministers and finance ministers to talk about the 
crisis and, also, the urgent need for additional funding. Some 
made pledges there, but Norway agreed to have a donors 
conference later this month.
    So I think that is one way that we are trying to ensure 
that these crises are not underfunded, just by exercising 
leadership and getting--and bringing in other donors.
    Getting back to your point of the reduced request, even 
with the crises that we have and two level-three emergencies 
within Africa--CAR and South Sudan--we believe that we will 
have carryover funding on the humanitarian side to help us 
support humanitarian efforts in 2015.
    Getting back to one other point--because you mentioned the 
Sahel--and that is we have the concept of resilience where we 
are actually marrying together our development assistance funds 
with humanitarian assistance so that we have a more regulated 
and sustained effort in supporting populations that face 
chronic emergencies.
    Ms. Thomas-Greenfield. And if I may add to Earl and agree 
with what he said before, we do work very, very closely with 
others in the donor community and we look for opportunities to 
find new donors as well to support our efforts.
    The primary solution to all of these problems is finding a 
peaceful solution in the DRC. Our special envoy, Senator 
Feingold, has been working relentlessly with the other special 
envoys to--we call them the five E's--to find a solution.
    We find an accord in Nairobi in December, ending the 
fighting in DRC with--in 2013, and we are working very closely 
with the Angolans to see, as chair of the International Contact 
Group for the Great Lakes regions, what additional role the 
government of Angola can play.
    It is a government with a lot of money, and they have been 
very, very helpful in providing assistance to CAR and we think 
that they can do more.
    On the corruption front, it is--our efforts are relentless. 
And I have to commend our colleagues from MCC. When I was in 
Liberia, the best tool that I had was the MCC indicators on 
corruption.
    And when those numbers went down, I would take those 
indicators in to the President and say, ``If you want an MCC 
compact, you need to deal with this.''
    And we see that Liberia has succeeded. Corruption still is 
an issue there, but it is something that I think governments 
realize, if they are to be taken seriously, they have to 
address.
    Ms. Herrling. So if I could briefly, you know, our model 
resides on this belief that the best antidote to poverty and to 
instability is economic growth and opportunity in these 
countries.
    We are in a limited set of countries, as I said in my 
opening remarks, but that does require the three of us to work 
hand in hand across those countries, most certainly to avoid 
duplication of effort. But in the best-case situation, we are 
looking to maximize impact, bringing to others comparative 
advantages to the situation.
    Thank you, Linda, for referencing the scorecard on the 
corruption point.
    You all know we do have a hard hurdle on control of 
corruption for our partners to get into our program. We take it 
seriously. We monitor it seriously. We message seriously, as do 
our counterparts.
    And we have seen it have an effect, as you referenced in 
Liberia. So thank you for doing that.
    The collaboration is both at the policy level. So on our 
board, we have the Secretary of State chairing, the USAID 
administrator. We have the Secretary of the Treasury, who 
covers the MDBs. We have the USTR. So all of these interests 
come together in a very purposeful way at the policy level.
    At the operational level, we get to two brass tacks: who is 
doing what? So if we are building a large irrigation project in 
Senegal, USAID is training the farmers.
    We are very purposeful in our collaboration. I think we 
have come a long way over the last couple of years on this 
front.
    Ms. Granger. Thank you for that.
    Before I go to Mr. Rooney, I thought--when you said you 
were going to answer Mrs. Lowey's questions, I thought you were 
going to address the $700,000 to educate one person.
    Who could answer that question?
    Ms. Thomas-Greenfield. I heard it and I made note of it. 
And I hope it is a mistake, because I know that we don't spend 
$700,000 to train one person on the security front. I know that 
we have a limited budget and we have trained thousands of 
African----
    Mrs. Lowey. It is vocational training used in which 
program?
    Mr. Gast. CVE program.
    Mrs. Lowey. CBE.
    Mr. Gast. CVE.
    Do you know which country? We will look into it.
    Mrs. Lowey. Okay. Yeah.
    Mr. Gast. We will look into it.
    Mrs. Lowey. Thank you very much. I was shocked when I saw 
that number, and I--my staff insists it wasn't a typo. Thank 
you very much.
    Ms. Thomas-Greenfield. Well, I am happy to know that it is 
not on the security, front spending that kind of money.
    Ms. Granger. Mr. Rooney.
    Mr. Rooney. Thank you, Madam Chair.
    I would like to talk about an issue which, for me, is a 
little bit personal. I have a cousin who has actually become a 
famous movie star named Rooney Mara.
    Before she was famous, she went to Kenya in high school to 
visit Kiberia--what they called urban slum outside of Nairobi, 
and it motivated her to start a non-profit called the Uweza Aid 
Foundation.
    And, apparently, there was a bunch of other similar-type 
charities that were supposed to be geared towards servicing 
areas like that. As you know, this slum specifically came out 
of Kenya's failure to recognize them as part of the country.
    They are sort of like a people without a government and a 
country, the way that I was explained to it. So they are kind 
of on their own.
    And one of the things that I came to learn was that they 
don't receive Federal funding from us. There are charities 
there that try to help them.
    But one of the things that became disconcerting to me is 
there was a lot of charities, just like in anything that you 
see with 501(c)(3)'s, where charities are set up or groups are 
made to look like they are going to help a certain situation, 
and then, as you know, they end up not doing that.
    They end up helping themselves or raising a lot of money 
for staff or what have you. So that was one of the reasons why 
she was motivated to do something different to actually try to 
help these people.
    So my question has to do with that, and I want to make sure 
that I get it right. So forgive me for reading it.
    But a history of failed aid projects and forced evictions 
have left many of these residents that I am talking about 
feeling exploited by these outsiders and what has compelled my 
cousin to start her own non-profit in the first place.
    There is a great deal of mistrust of the government and the 
NGOs not only in this area, which she focuses on this area 
called Kiberia, but, arguably, a number of other urban slums 
just like it all across Africa.
    Has State or USAID offices in Kenya implemented any 
programs or projects to provide either basic assistance, water 
sanitation, healthcare, education to the residents of Kiberia?
    And, also, can you address--does State or USAID do anything 
to sort of police or monitor these groups that are supposed to 
be coming in there trying to help--this might be outside of 
your lane; so, forgive me if I just don't know--that are just 
using these people to exploit for their own financial benefit?
    Ms. Thomas-Greenfield. Let me start.
    I was in Kiberia on my last trip to Kenya in December, 
visiting a project that USAID was funding with an NGO there. 
And there are a number of such projects.
    And not to speak on USAID's behalf, but I served in Kenya 
in the mid-1990s as the refugee coordinator working for PRM and 
working with NGOs that were working with displaced particularly 
Somali refugees, and part of my job there was to monitor those 
organizations that we were funding to provide assistance.
    I don't doubt--in fact, I would say I know that there are 
organizations that are not reputable, are not credible, that 
seek funds to line their own pockets.
    But I would say that any organization that we are funding 
would be monitored and monitored quite robustly by our people 
who are on the ground. And I think we take it very seriously.
    That doesn't mean that there may be some that slip through 
the cracks, but we would be interested in knowing so we can 
make sure that--our job is to protect U.S. taxpayers' dollars 
overseas and see that the funding that is being provided is 
going to where it needs to go.
    And, again, I saw one of the projects--and I was very 
impressed--that was providing water support in Kiberia--in the 
Kiberia slums.
    Mr. Gast. And if I may just add, we do a very thorough 
vetting process of the organizations that we fund, whether they 
are U.S.-based or on the continent.
    That doesn't mean that they don't fall down in meeting 
their--in meeting their requirements from time to time. But as 
the Assistant Secretary mentioned, we do have monitoring 
officers go out and monitor the impact of the work that the 
NGOs are performing.
    One thing we do do as well is, even if we are not funding 
an organization, an NGO has to adhere to international 
standards in providing humanitarian assistance.
    And if we do see NGOs falling down on the jobs, ones that 
we are not funding, that information is then reported to the 
government.
    Mr. Rooney. If I could ask a quick follow-up question.
    With regard to State, how do you deal with Kenya with 
regard to a place like this and our affiliation or our 
relationship with them? How do you deal with them when they are 
just ignoring these type of places?
    Ms. Thomas-Greenfield. I think that is a situation that 
exists across the continent of Africa, where we find people who 
are disenfranchised and who are not benefiting from the 
government services. We try to work with the government.
    For example, when I went out to Kibera, we took the 
Minister of Education with us out there to make sure that he 
also saw what we saw in those--in those slums, and we tried to 
help them build capacity to deal with some of those issues.
    But I would venture to say that Kenya is not the only one--
the only country with this kind of situation. I saw similar 
situations in the slums of Nigeria.
    And I have to commend your cousin for the work that she 
does, because there are a number of organizations like her 
organizations who are really reaching communities that nobody 
else cares about and they are able to provide assistance in a 
way that we all appreciate, and I think is a positive 
reflection on America as a country. So, again, I thank her.
    And we do deal with these governments. We push them. But it 
is still a work in progress for us.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Just briefly, I remember taking--I just wanted 
to associate myself with the remarks of my colleague. I 
remember I led--I think it was 2003 a trip to Kibera. And I was 
so angry at the mud and the filth and the fact that the council 
people were coming in and all taking their share.
    We met with people who were doing micro-enterprise, and the 
local gang, supposedly, elected officials, were taking their 
share. And I just felt we were facilitating this mess.
    I said as long as I had something to do with it, I don't 
want to give a dime--I said this to the housing administrator, 
that, ``I don't want to give a dime to you or anyone here 
unless you mow this down and build another housing complex.''
    So I just really want to associate myself with your 
remarks. And we just can't keep doing this kind of thing and 
perpetuating these conditions--were you on that trip, Barb?
    Ms. Lee. Yes.
    Mrs. Lowey. Oh. That is right.
    Ms. Lee. Yes. I remember it very well.
    Mrs. Lowey. I remember we got so angry there. And I don't 
remember the name of the housing administrator, but it was just 
the government was collecting from these people. They were 
living in inhumane conditions.
    And I am not saying that this is unique, and you are saying 
there are other places like that. But I remember talking to the 
U.N. staff. I said, ``Why are you here? You are just 
encouraging this whole way of life.''
    So I think there is a real question. I would like to 
continue that discussion. What are we doing? Maybe our money 
would be better used just building another decent housing 
settlement for these people, but keeping them in this abject 
poverty with filth and mud--was very upsetting to us. I think 
we are all making that point.
    I don't want to take up more time at this hearing. Many of 
my colleagues haven't spoken. But I thank you for bringing up 
Kibera again.
    And because there are so many other challenges, Barbara, I 
don't think we have talked about Kibera recently, but I would 
like to have a discussion with you.
    Ms. Granger. Thank you.
    Mr. Schiff.
    Mr. Schiff. Thank you, Madam Chair.
    There are so many issues to go over. Let me just throw out 
a few and then see if you can respond to as many as you are 
able to with the time.
    Can you tell us the status of the peacekeeping operation in 
Central African Republic (CAR), which the U.N. Security Council 
voted to deploy April 10th.
    Also, can you tell us what efforts we are making to address 
the violence in South Sudan.
    And then I wanted to ask you about Ethiopia. Nine bloggers 
and journalists were arrested in--out of Saboba last week, just 
days before Secretary Kerry's anticipated visit. Six bloggers 
for Zone 9 and Amharic-language website whose writers have 
criticized the government, and three freelance journalists were 
arrested. No formal charges have yet been filed.
    This is just the latest episode in an all-too-familiar 
pattern of harassment of journalists in Ethiopia, throughout 
all of Africa and, unfortunately, in all too many places around 
the world.
    I hope the Secretary will raise the issue of press freedom 
in his meetings, and I wish you could update us on the current 
situation with the nine specifically and more generally about 
the department's efforts to promote press freedom in Africa.
    Finally, on the issue of the LGBT attacks in Uganda, 
according to the Associated Press earlier this month, Ugandan 
police raided the offices of a U.S.-funded project. The 
Makerere University-Walter Reed project in Kampala was targeted 
for training youths in homosexuality, supposedly, said a 
government spokesman.
    The project later suspended its activities in Uganda after 
one of its staff, a Ugandan citizen, was arrested and briefly 
detained by police on Thursday. Now, this is a program that is 
funded through PEPFAR.
    I applaud the government--our government for its recent 
action to divert money away from the Ugandan Government and to 
NGOs.
    But if the Ugandan Government continues to harass health 
workers serving LGBT patients, it will be nearly impossible for 
LGBT patients to get access to appropriate healthcare.
    What are we prepared to do to ensure that U.S.-funded HIV-
related health services in Uganda and elsewhere are 
comprehensive and inclusive?
    Ms. Thomas-Greenfield. Thank you. Let me start, and I will 
go as long as you allow me to go.
    Let me start with CAR and the peacekeeping operations 
there. I was in CAR a few weeks ago with Ambassador Power and I 
was also there with her in December. And we continue to be very 
deeply concerned about the situation there.
    The U.N. did pass a resolution on April 10th for a PKO 
operation that will start in September of this year. But 
between now and September, we need to work with the African 
Union troops to ensure that they have what they need in terms 
of equipment and authority to address the ongoing violence in 
that country.
    I saw yesterday that the U.N. had moved 1300 Muslims out of 
Bangui to another area of the country. And from December to our 
visit a few weeks ago, the Muslim population has almost 
completely left Bangui because of the violence there.
    The situation, again, continues to be very, very troubling 
for us as well as for the French, who have troops on the 
ground, the African Union with troops on the ground.
    Part of what the Secretary will be doing on his trip to the 
region is meeting with the Angolan Government, as well as with 
the U.N., to talk about how we can more robustly address the 
security issues that exist in CAR.
    On the humanitarian side, I will leave that to Earl to talk 
about, but we have also been robustly involved with trying to 
provide humanitarian assistance to the government.
    On the situation in South Sudan, again, this is something 
that is high on the Secretary's agenda for our trip leaving 
tonight.
    He will be in Addis, meeting with the IGAD negotiators as 
well as the IGAD foreign ministers to talk about the way 
forward for South Sudan. And then he is going into South Sudan 
to meet with Salva Kiir and will be making contacts with Riek 
Machar as well.
    The violence there has led to thousands of deaths, and we 
have been working with both the A.U. as well as IGAD to address 
some of those concerns.
    Former President Obasanjo was in South Sudan last week. I 
spoke to him. He is chairing--heading the Commission of Inquiry 
for the A.U. to look at the atrocities that have been committed 
so that we have some record to hold people accountable for the 
actions that have occurred there. And, as you know, the 
President signed an executive order to provide sanctions on 
those people.
    On Ethiopia, we were very disappointed to hear once again 
that Ethiopian bloggers were arrested. They are added to the 
others who have also been arrested.
    And we continue to raise this on a regular basis with the 
Ethiopian Government and it is on the agenda for the Secretary 
to raise when he meets with the Prime Minister and the Foreign 
Minister while he is in Addis this week.
    And, finally, on the LGBT, we are very, very concerned 
about the increase in anti-LGBT legislation that has been 
proposed on the continent of Africa and elsewhere in the world. 
The legislation in Uganda has led to renewed violence against 
the LGBT community.
    As you know, the President announced that what has happened 
in Uganda will complicate our relationship. We are in the 
process of reviewing that relationship and our funding to see 
where changes can be made and, in particular, changes that will 
take funding away from those organizations and entities that 
discriminate against the LGBT community.
    This is still a work in progress. We are quietly working 
with other governments that may be considering such legislation 
and discouraging those governments from taking actions that 
might discriminate against the LGBT community.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    I first apologize because, as you know, we have----
    Ms. Granger. Absolutely.
    Mr. Diaz-Balart [continuing]. Conflicting hearings at the 
same time.
    Ms. Granger. Right.
    Mr. Diaz-Balart. Luckily, a few of them are right across 
the hall. And I--again, I apologize if this has already been 
touched on.
    But dealing a little bit with the increase of China's 
activity throughout, frankly, the world, the past decade or so 
has seen a huge increase in Chinese aid and development 
projects throughout Africa. It is apparent the regime's so-
called charm offensive is intended to secure political and 
economic influence throughout the continent.
    And, the Chinese have also been on this unrelenting quest 
for natural resources, and we see that wherever they are, 
including rare earth elements. They bring in, as you know, 
Chinese labor and equipment without transferring those skills 
and technology to the local level.
    It is also pretty clear that they are not, frankly, in the 
business of exporting, western values, like democracy and the 
rule of law and human rights.
    So how--are we using and what can we do--what can the 
United States do to use our considerable influence to counter 
and contain some of those actions that China is pursuing rather 
aggressively?
    Ms. Thomas-Greenfield. Thank you for that question.
    And I see this in two aspects. We talk about the fact that 
some of the problems that we are dealing with in Africa are not 
just U.S. problems.
    Interestingly, on South Sudan, we have been working with 
the Chinese, and they have come onboard with the special envoys 
to push for an end to the violence in South Sudan.
    And so I see that our work is partially to encourage change 
on how the Chinese approach Africa and encourage the Chinese 
economic activities in Africa to complement what other 
governments and donors are doing to the best interests of 
African countries.
    However, it is our view that a lot of the foreign 
investment that is going into Africa that the Chinese are 
providing does not support our values of good governance and 
transparency and responsible management of natural resources.
    And we have regular dialogue with African governments to 
encourage that they also understand why it is so important as 
they are dealing with the Chinese to have the Chinese take into 
account issues that are related to human rights and political 
freedoms and press freedoms.
    When I was in Liberia--and I use that as an example a lot 
because I know Mrs. Lowey knows Liberia quite well--the Chinese 
provided some very useful development projects to Liberia.
    And so I encouraged the government to make sure that they 
were getting the best out of those development projects to 
ensure that the Chinese used local labor as we would use local 
labor and that they abided by the same transparency rules that 
we abided by.
    Again, it is going to be up to African countries to 
negotiate the best deals for themselves, but we also have a 
responsibility to ensure that there is a level playing field 
for American companies that are going into Africa and competing 
with Chinese companies.
    So this is something that we are very conscious of, and we 
continue to work with both governments as well as the Chinese 
to ensure that their relationships with Africa are not just 
extractive, but they also contribute to their growth.
    Mr. Diaz-Balart. Madam Chairwoman, I see that the light is 
turning yellow; so, I will be very well behaved today. And I 
yield back.
    Ms. Granger. I am astounded and pleased. Thank you very 
much.
    Ms. Lee.
    Ms. Lee. It would be the first time.
    Thank you very much, Madam Chair, and thank all of our 
witnesses.
    And let me----
    Mr. Cuellar. Second time, 2 weeks ago.
    Ms. Lee. I especially thank you, Madam Chair, and our 
Ranking Member for this hearing, because I want to follow up on 
what my colleague just mentioned with regard to China.
    Part of the issue is the void that has been left as a 
result of the lack of focus of the United States as it relates 
to Africa, and I know that. I was on the authorizing committee 
for 8 years. I have been very involved on African issues since 
the 1970s.
    And so I am really pleased that we are having this hearing 
today, and I am pleased that Secretary Kerry is going to the 
continent, pleased about the President's visits, because it was 
only when we started working with President Bush on PEPFAR 
that, really, Africa became a focus of most members of 
Congress. And so it is really important to understand that 
history and where we are now.
    Not only China, but Brazil and India are making strategic 
gains in Africa. And very recently I was there, and part of the 
issue of promoting American values is a very delicate issue 
because Africans want to develop their continent and their 
countries in the way that they see fit, recognizing, though, we 
have to ensure democracy programs and insistence on the human 
rights standards and what have you, but we have to be very 
careful when we do this. And so thank you very much for that.
    As it relates to--the other thing I wanted to mention is 
the African heads of state meeting that is taking place here. 
Thank you very much for that. I want to commend the President 
and Secretary for this meeting. And I hope that you engage 
members of Congress in early August in participating in that 
meeting because that is going to be a very important meeting.
    Ms. Lee. LGBT issues, you have raised most of the answers 
to the questions, but we haven't received a formal response. I 
just want to say, the members of the Congressional Black 
Caucus, each and every member--unprecedented, historical--wrote 
to Secretary Kerry to ask exactly what Adam Schiff just 
mentioned, in terms of how we are going to ensure that 
comprehensive services are delivered and that people do not 
lose these lifesaving drugs as it relates to HIV and AIDS, but 
how we do this through NGOs. And so, we would like to have a 
formal response to our letter.
    I wanted to ask you, how are we addressing the issue of 
these laws in terms of encouraging African governments to look 
at these laws and how they violate, actually, international 
standards of human rights, understanding the issues of 
sovereignty?
    Ms. Thomas-Greenfield. Thank you for that question.
    And this is something that we in the Department and across 
the interagency have been engaged on in an intense way since 
the passing of these two recent laws in Nigeria and in Uganda, 
but we were engaged even before that. We were working very, 
very robustly with both the Nigerians and Ugandan President to 
discourage them from signing these laws. We clearly failed, but 
it was not from lack of trying, in terms of our engagement with 
them. We are engaged with other countries, as well, and we have 
had some success in discouraging them from passing these laws.
    This is a huge, huge problem for us. And I have constantly 
said it is not just an African problem, it is a global problem 
that we face. I have the issue of dealing with it on the 
African continent, but I want to make sure that Africans 
understand this is not just us against them.
    Ms. Lee. There are about 70 countries, right, throughout 
the world?
    Ms. Thomas-Greenfield. Eighty.
    Ms. Lee. Eighty countries. Okay.
    Ms. Thomas-Greenfield. Yeah, 80 countries throughout the 
world, 30-some of them in Africa.
    A lot of the legislation is old legislation. It is not 
being enforced. Even Nigeria and Uganda had old legislation 
that they were not enforcing. This new legislation, however, is 
much more restrictive in terms of the abilities to associate.
    So we are continuing to engage with these governments. We 
are engaging with the LGBT community in both countries, as well 
as in other countries, to find out from them what they want us 
to do to assist them.
    But our policy has been to, in terms of our dialogue with 
Africans, is to say to them, this is a human right. This is not 
just about LGBT; it is about how you treat your people across 
the board. And they have all signed on to human rights 
agreements, and we are pushing and encouraging them at every 
level to honor those agreements as it relates to their LGBT 
community.
    Ms. Lee. Okay.
    Just a closing comment--and we are going to have a second 
go-around, Madam Chair?
    I serve on the U.N. Commission on HIV and the Law. And 
while we didn't specifically look at discriminatory laws as it 
relates to the LGBT community, we looked at the laws which 
criminalize those living with HIV and the virus. Guess who one 
of the worst actors is? The United States. We have, I think, 32 
States, 2 territories which have criminalization laws on the 
books.
    And I want to thank the administration. I have legislation 
to begin to work with the States to get rid of these laws, 
because they, once again, are very dangerous and were put on 
the books in the early 1980s here.
    Ms. Thomas-Greenfield. And they make it hard for us when we 
are fighting these issues overseas, because they throw this 
back at us, that you have not resolved your issues in the 
United States and you are telling us what to do. And my 
response is, we are trying to help you avoid the mistakes that 
we made and do it in a much more efficient fashion.
    So, again, I do realize that we are still working this 
issue in the United States, and we will continue to work this 
issue on the continent of Africa.
    Ms. Lee. Thank you very much.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Dent.
    Mr. Dent. Thanks, Madam Chair.
    Good morning.
    A few issues. Last summer, some of us visited Ethiopia with 
the Aspen Institute, and one issue that came up repeatedly was 
the matter of accountability of foreign assistance and, I 
should say, probably the lack of flexibility in our ability, or 
your ability, to move funds from one area to another. As an 
example, you may have more funds than you can utilize in a 
particular country for HIV/AIDS, but malaria or TB or fistula 
might be a bigger issue.
    Do you see this as a big problem, this lack of flexibility 
to move money between accounts in some of these countries where 
you are oversubscribed in some accounts but undersubscribed in 
others?
    I don't know who wants to take this question.
    Ms. Thomas-Greenfield. Back to you.
    Mr. Gast. Sure, absolutely.
    So the way we receive our money is through initiatives and 
earmarks, and then we apply those funds to countries that meet 
the requirements for receiving funds.
    So I would say that the programming of the funds is done on 
a needs basis, but once the money is in country, it is very 
difficult to move the money into other areas. Within health, it 
is easier, but from health to other sectors, it is much more 
difficult.
    Mr. Dent. Yes, from health to agriculture, for example, 
that was an issue.
    Mr. Gast. Yes.
    Mr. Dent. That is just something we might want to consider 
as a committee at some point, to provide that level of 
flexibility.
    Another issue, too. We visited, actually, the Oprah Winfrey 
clinic, the fistula clinic, in Addis Ababa, Ethiopia. As you 
know, it is a very horrible, debilitating condition.
    What impediments do you see for the clinics working on 
these fistula treatments?
    I thought that was a very impressive facility we saw there. 
And it is a condition that in this country I guess we more or 
less dealt with last in the 19th century, but in Africa it is 
still very real and very problematic.
    Mr. Gast. Well, two issues I see, Congressman: One is, it 
requires a high level of training for doctors to treat fistula. 
And then the second one is, often, women who suffer from it are 
treated as pariahs. And so that is also very difficult.
    We have focused our efforts on about 45 locations on the 
continent. Many of those locations are in conflict-prone zones 
where often rape and other crimes of war take place, causing 
fistula. And so we feel that we have a very targeted approach 
to dealing with it.
    Mr. Dent. Are there barriers to utilizing U.S. Funding for 
this fistula work that you are aware of?
    Mr. Gast. No, there are no barriers. We program annually 
about $11 million to support fistula and fistula repair, and we 
believe that that is adequate.
    Mr. Dent. Thank you.
    The yellow light is on. I am yielding back.
    Ms. Granger. Great. Thank you.
    Mr. Cuellar.
    Mr. Cuellar. Madam Chair, thank you so much.
    And thank you all for being here.
    What I want to do is ask you all some questions on 
performance. As you know, back in 2010, we passed the 
modernization of GPRA, the Performance Accountability Act. And 
there, we asked for certain things to be done, and especially 
to go more into the performance. Because if we are going to 
appropriate billions of dollars, we expect to measure those 
documents.
    Last year, in the appropriation omnibus bill, we added more 
specific instructions for you all to follow. I have looked up 
in performance.gov, where you all have so many performance 
measures, and I would ask you, if we appropriate X amount of 
dollars, are these the right measures for us to look at and the 
public to look at as to your outcomes--you know, we are looking 
more for results-oriented, but there are different types of 
measures: outcomes, outputs; efficiency matters, which is what 
the ranking member mentioned a few minutes ago, how much money 
you are spending per unit; and, of course, a little bit on 
customer service.
    But let me just look at a couple things that you all list 
and ask your thoughts about this. Under the goal of priority--
one of your priority goals, food security, I believe one of the 
first measures you put in is the amount of Feed the Future 
funds disbursed since 2010. What does that measure, how much 
money we have put in in the last 3 or 4 years? Number one.
    And I am just picking just a few. Another priority goal, 
global health. As a performance indicator you have percent of 
shipments of contraceptive commodities that are on time. Okay, 
whether those contraceptives get there on time.
    And I can go on. Another one that you have under the USAID 
procurement reform, another performance measure you have is the 
percent of Office of Acquisitions and Assistance series 1102 
and BS 93 positions filled. Okay. And I can go on, but I think 
you get the gist of it.
    If we are supposed to provide oversight and we are supposed 
to look at your performance measures, or the taxpayers are 
supposed to look at the performance measures--and, remember, 
there are already two. There is the GPRA of 2010 Modernization 
Act; there is the language we added in the omnibus bill. What 
are we supposed to get from these performance measures? I mean, 
what do we get for the dollars? What are the results that we 
are supposed to get? And I believe these are your measures on 
performance.gov. Give me your thoughts on this.
    Mr. Gast. So, allow me to give you my thoughts, 
Congressman. And you raise very good questions.
    I think when one looks at the performance measures in 
isolation that it is not telling the complete story. And so we 
look at both performance indicators that are related to 
management actions and then also outcome indicators.
    And so some of the ones that you mentioned, for example, 
the amount of money disbursed or the number of agriculture 
officers that we have in the field, they relate more to 
management. Are we moving our resources quickly enough so that 
we can have the impact that we expect for our programming?
    But let me also address some of the things that we are 
doing as an agency----
    Mr. Cuellar. Are contraceptives getting in on time, is that 
a measure we should be looking at?
    Mr. Gast. I believe so, yes. Contraceptives arriving on 
time or antiretrovirals arriving on time, but--because 
logistics, especially in Africa, logistical systems aren't 
always the strongest.
    Mr. Cuellar. Right.
    And I would ask you--and I am sure there are other 
performance measures. I am just going on performance.gov.
    Mr. Gast. Sure.
    Mr. Cuellar. I am sure that what we want to look at is 
performance measures that measure results. And there are 
internal measures for management. I understand all that. But I 
would ask you that. If you are going to put certain things in 
public for legislators or for the taxpayers to look at, that 
you should put certain measures that are a little bit more----
    Mr. Gast. Results oriented.
    Mr. Cuellar. But, again, I appreciate it.
    Madam Chair, I will yield the balance of my time to 
Representative Mario Diaz-Balart because I am sure he has some 
other questions. I am just kidding. Just kidding. I yield back.
    Ms. Granger. I knew you were.
    Mr. Cuellar. The balance of my time.
    Ms. Granger. I knew you were just kidding.
    Mr. Cuellar. Thank you so much.
    Ms. Granger. Thank you.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    I want to ask about maternal and child health and the 
progress on addressing malnutrition. Because I think it goes 
without saying that we have made some substantial progress; 
there has been a sustained commitment to it, largely thanks to 
the leadership of our country. And this committee and our chair 
and ranking member have both personally been involved in this 
issue, legislatively.
    But we are still seeing newborn deaths increasing in some 
developing countries, you know, even as other indicators are 
improving. So what do you--and this is probably for USAID or 
the Millennium Challenge Corporation. To what do you attribute 
that glaring statistic? And what specifically are you doing to 
ensure that childhood mortality is declining in all under-5 
subgroups?
    Mr. Gast. I will start.
    You raised a very good point, Congresswoman, about 
malnutrition. And, you know, when we look at malnutrition, it 
is one of the causes of roughly 47 percent of the under-5 
deaths. So it is a major contributor to child death, early 
child deaths, and it is something that we take very seriously. 
And that is why it is also a tenet of the Feed the Future 
strategy, where we were focused on the first 1,000 days, from 
pregnancy to age 2, to address nutrition issues.
    Where----
    Ms. Wasserman Schultz. You probably know that Congressman 
Diaz-Balart and I were the sponsors of the 1,000-days 
resolution.
    Mr. Gast. Thank you.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Gast. We are beginning to focus on areas in countries 
where we have not been able to move the needle. And so that 
means a concerted effort in working with governments and 
working with development partners in countries like South 
Sudan, like Ethiopia, Nigeria, and the DRC.
    Together, the three--DRC, Nigeria, and Ethiopia--account 
for about 27 percent of under-5 deaths globally. And so we are 
working--Ethiopia has made substantial progress, but we are 
putting more effort into both DRC and into Nigeria, supporting 
the governments' program.
    We have just undergone a significant review over the past 
year with the governments in Nigeria and DRC to make sure that 
our programs are supporting the governments' strategies, that 
we are geographically targeted, and that we are using the right 
interventions to address under-5 death.
    Ms. Wasserman Schultz. Thank you.
    Ms. Herrling. So, if I could quickly, as you know, we have 
a model that we let the data take us to where the binding 
constraints to growth are in a country. And sometimes that is, 
in fact, things like stunting in Indonesia. It is incredible, 
right, it is such a severe problem that it is constraining 
growth and private investment in a country. And so we will 
invest in those particular cases.
    More broadly, I would say our greatest contribution to this 
space is that we are very purposefully looking to position 
women as economic agents of change in our countries. So 
everything we do, starting with that scorecard that is our 
first interaction with our partners, we are saying, "We expect 
you to educate your girls."
    And 3 years ago, we added--we were so thrilled to have an 
indicator in the global community that measures women's access 
to the economy. So we are asking our partners, do your women 
have the right to file for a passport? Can they file as head of 
household? Can they own a business? Can they sign a contract?
    This is the dialogue we want to have with our partner 
countries, and these are the kinds of partners that we end up 
having. Basically, we believe if women are greater components 
of the economy, the growth is going to go faster and fairer. 
And so that is the kind of policy aspect we have.
    On the operational one, as you know--you have been 
following our work--we do gender assessments and social 
assessments of all of our investments. Why? Because we want to 
make sure, if we can, in design, purposefully look at how to 
make sure the benefits are shared. We design it that way.
    Thank you so much for your support in this space, and we 
look forward to continuing to work on this very important 
issue.
    Ms. Wasserman Schultz. Me, too. Thank you very much.
    I will continue the tradition of the yellow light. Yield 
back.
    Ms. Granger. Thank you.
    Since we have been so efficient in the use of time, if we 
do that the second round, everybody will get another question. 
And I think that would be great because this is a very active 
subcommittee.
    Let me ask you, Ms. Herrling, about something we talked 
about earlier today. Recently, I read a draft report discussing 
with MCC the practice of having a compact and then a second 
round, and had this discussion. And it made some very good 
points about the second round and what is happening with those 
countries.
    Could you address that?
    Ms. Herrling. Well, I look forward to seeing the report you 
are talking about.
    Look, I appreciate the dialogue we have been having on this 
issue. You know that we agree that we want time-limited 
relationships with our countries. We are not looking to be 
there 20, 30, 40 years. That is not our model.
    I also appreciate, though, the foresight that this 
committee had when it established the MCC to recognize that 
development is a complex business and that, particularly with 
an agency like ours, where we are constantly looking at where 
to get the most return on American taxpayer dollars, sometimes 
that greatest opportunity is, in fact, with countries we have 
already worked with. And so you will find us there--not always, 
not in entitlements. The vast majority of our existing compact 
partners have not gotten second compacts.
    But I know this is an issue you care about deeply. I think 
there is lots of common ground. And I hope we can continue the 
dialogue on this issue.
    Ms. Granger. One of the points that was made is what a 
country learns in that first round and then to take them to the 
second round, then they are practicing what they have learned 
through that. So it was very compelling.
    Ms. Herrling. No, it is true. There is a lot of attention 
focused on what is called the ``MCC effect'' related to reforms 
countries are willing to take to get in, so our scorecard. But 
there is this whole other space of ``MCC effect'' on the 
operational front. So we see countries embracing U.S. 
procurement standards, environmental standards, design 
standards, and just implementation. It is quite amazing that 
these countries can do these large-scale infrastructure 
projects in 5 years. It is amazing.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. I have so many other questions, but in the 
limited time, because the Congressman was kind enough to bring 
up this issue of Kibera again. And, as you know and I think all 
of you know, there are probably many Kiberas around the world 
and many areas where women and children are just struggling to 
survive every day. I have visited many, but this was among the 
worst.
    And I really wonder, in situations like this--are we just 
perpetuating this, are we facilitating this, and is the U.N. 
facilitating it. And I wonder, in your interaction with 
officials who have the power to do something about it, do you 
have the power and determination to say, ``Enough''?
    Because this has been here--my staff corrected me, I was 
there in 2008, but it has been there a long time. No toilets, 
holes in the ground; government officials collecting money; the 
inability of micro-enterprise to thrive because they go around 
and collect from all the women.
    To what extent do you just, after seeing so much horror, do 
you get numb by it? Or is there any effort to talk tough to the 
leaders and say, rather than put another dime in here, we are 
going to build decent housing? Otherwise, we are just carrying 
on a situation that is not really living. It is intolerable.
    I just wonder if you get numbed by it.
    Ms. Thomas-Greenfield. You don't get numbed by it. I----
    Mrs. Lowey. Well, what can you do?
    Ms. Thomas-Greenfield [continuing]. I was there in 
December, and I was just horrified. And I was there the last 
time in 1996, and it hadn't changed. So you are not numbed by 
it, and you look for solutions. But you can't walk away from 
it. Because if you walk----
    Mrs. Lowey. No, no, I am not saying we should walk away. 
But I remember, we spoke with the housing minister and others. 
So, obviously, we had no impact, because it is still there.
    Ms. Thomas-Greenfield. There are some new houses that are 
being built away from Kibera, in the same vicinity, but away. 
But it is such a huge problem, housing across Africa. And 
sometimes what we will see happening is the government will go 
and plow down the place, but they are not able to provide 
alternative housing in an efficient enough fashion for people 
to have an alternative place to live, so they end up going back 
into the slums. Or as they push people out of the slums, maybe 
into decent housing, new people move into those slums.
    So it is an intractable problem that I think we all feel 
frustrated by. And we are all looking to work with governments 
to find solutions, because they have to find the solution. We 
can't do it on our own. We can't impose the solution on them.
    Mrs. Lowey. What if we cut off all the money? I guess it 
would be even more miserable.
    Ms. Thomas-Greenfield. That is the walking away, and that 
is the hard part.
    Mr. Gast. May I add just a few points, Congresswoman?
    I agree, no one is numbed by it.
    The trend in Africa is toward urbanization. And so, if 
families are moving out of slums or if one slum is destroyed, 
another one comes up, because that is how rapid the 
urbanization is. And people are leaving the rural areas because 
they are going to the cities, where they feel there are 
opportunities.
    And so one of the things that we are doing through our 
development programs, certainly Feed the Future is trying to 
keep people in rural areas to work on farms, to find 
agriculture as a profession, rather than just subsistence 
farming. I think it takes a lot of efforts from multiple--from 
governments, from donor agencies, as well, to resolve this 
problem.
    Mrs. Lowey. Well, let me just close. You were there in 
1996; I was there in 2008. It is just getting worse. What do 
you feel you have accomplished there? How much money have we 
put into Kibera, and what can you say as you look in the mirror 
and say, well, what have we accomplished? Could we have done it 
differently?
    I just feel we are facilitating this horror, and I guess it 
is hard for me to adjust to this. What do you feel you have 
accomplished there? Just kept people alive in this existence 
that is really not an existence?
    Mr. Gast. Education opportunities, health----
    Mrs. Lowey. You are cutting education, so that is not a 
priority, but it is my priority. Yes?
    Mr. Gast. It certainly is a priority. Opportunity, micro-
enterprise, focusing on women who are living----
    Mrs. Lowey. Well, I could say that, too, but, you know, 
they--I just think this is worth discussion again at some 
point. Because for those of us who have visited this and seen 
the corruption and the government involved in the corruption 
and the women barely struggling to feed their families, I just 
wonder whether we couldn't do it any differently.
    But thank you very much----
    Ms. Herrling. Well, and I think we would all agree on 
focusing on the results of our efforts, and we are all trying 
to tell those stories. And so keeping us accountable to what we 
are actually delivering is an important thing. And we all have 
a conversation about, is it value for money? I think we all 
agree to that, and we all are producing those numbers.
    Mrs. Lowey. But you notice, when I said, what have you 
accomplished since 1996, pretty silent here, other than 
facilitating, perpetuating--well, I----
    Ms. Granger. Thank you.
    Mrs. Lowey [continuing]. Have taken enough time on that 
one. Thank you.
    Ms. Granger. We will call on Mr. Diaz-Balart and then Ms. 
Lee, and then we will close.
    Mr. Diaz-Balart. Yes. Thank you.
    I just want to mention what Mrs. Lowey was just saying. 
This is the group of the strongest supporters that exists in 
Congress. And if those concerns are here, and they are--and I 
think she speaks for all of us--imagine how they are outside of 
this room. And so it is an issue that we need to continue to 
address, and thank you for bringing that up.
    My understanding is that USAID provides obviously not only 
TB resources for tuberculosis but also it is critical in 
technical assistance to countries with the highest TB burden. 
Also, USAID also plays a vital role, in my understanding, in TB 
research, including developing fast-reacting medications, et 
cetera.
    Now, my understanding is that the administration's budget 
proposal dramatically reduces TB spending through USAID by 19 
percent. And so this is at a time when drug resistance is 
spreading. And so here is my question: Can USAID absorb a cut 
of this magnitude and still carry out its vital mission?
    Mr. Gast. The short answer is that the President's budget 
for 2015 recognizes that TB is a problem that needs to be 
resolved and, also, that there are multidrug-resistant strains 
of TB that are moving from country to country. But we feel, 
with the cut, that it can sustain the effort that we currently 
have.
    Mr. Diaz-Balart. All right.
    And since I still have a little bit of time, let me kind of 
switch gears here. And, obviously, you know, this group is a 
strong supporter of these specific funding issues, because they 
play a key role in expanding not only, obviously, in the 
humanitarian assistance, health programs, the national security 
implications, but also that it can hopefully also expand our 
trading partners and our markets in future years.
    And I know that, you know, I have heard of anecdotes of 
U.S. Government-funded projects being awarded to non-U.S. 
business firms. And there was that picture of a sign posted 
outside on the Chinese-built storage facility project in Uganda 
that says it is funded by USAID.
    And so how are our embassies or the Department of State, 
what are we doing to help ensure as much as we can that sales 
of U.S. products and services have the best chance of competing 
abroad and that our funding is hopefully being used by--you 
know, that we are also going to be helping our domestic economy 
here? I mean, what are we doing? Are there specific programs to 
do that?
    Because, obviously, when you see something like a sign like 
that, you imagine what that does out there as far as people's 
perceptions, and, potentially, the reality.
    Ms. Thomas-Greenfield. Let me just start on the broader 
point, and that is that we need to do a better job of 
supporting American companies operating overseas. In many 
locations where we are in Africa, there may not be the American 
companies to bid on projects, and we need, again, to ensure 
that that happens.
    We have gotten a tremendous amount of support on getting 
more commercial officers in the field who are qualified and can 
help us in encouraging and supporting American companies.
    So that would be the first point of action for us.
    And then I will turn to my colleagues.
    Mr. Gast. Very good points, Congressman. Three of the 
President's initiatives focus on a better trade partnership 
with Africa: Trade Africa, certainly; Power Africa; as well as 
Feed the Future.
    One thing that we are doing, with Congress' support, is 
transforming our trade hubs. And we have three trade hubs that 
are on the continent. They were designed originally for African 
companies to take advantage of AGOA. What we are doing now is 
transforming them into trade and investment centers, where 
there is a better marrying of U.S. companies with African 
companies and associations. And we are beginning to see signs 
of good progress in enticing and encouraging U.S. companies to 
either invest or to sell equipment in Africa.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Ms. Granger. Just to add on to that, in discussing your 
successes, most of the successes involve a high level of 
collaboration with each other and with the countries. And so to 
keep that as a best practice, I think, would be very 
appropriate.
    Ms. Lee.
    Ms. Lee. Thank you very much. I will follow up on a couple 
of these issues.
    First of all, I am glad Mr. Diaz-Balart brought up the 
whole issue of investment and trade. And I want to ask you--and 
I was glad to see MCC's breakdown as it relates to the 
involvement of women-owned, minority-owned companies. I would 
like to ask you, did this aggregate that? I would like to see 
African-American, Latino, and Asian-Pacific American companies, 
how they break down.
    One of the issues, though, I just have to say, especially 
as it relates to--and I am not saying this is factual yet, but 
I am looking into it. Many of these trade missions that are led 
by Secretaries to Africa, to the continent, very few minority-
owned companies are on these trade missions. I am not sure what 
the reason is, but I have heard it over and over and over 
again, to the point where I am going to take my own. Because 
businesses, black, Hispanic, Asian-Pacific American companies, 
deserve the opportunities to participate on these trade 
missions and go over.
    For example, I want to ask you about Power Africa. How are 
small, minority-owned businesses, how are they able to get 
involved and participate in Power Africa?
    Secondly, following up from Congresswomen Lowey and 
Granger's question on Kiberia, one of the issues I think that 
we saw and that I noticed by talking to people who live there 
is the policies that we support aren't necessarily policies 
that help them transition from living in such squalor into 
decent housing. But one of the issues is the economic and 
social system that has been developed through their lifetime in 
these slums. If you just build a house and say, ``Move,'' well, 
what is going to happen to their business? What is going to 
happen to the benefits that they see by living there?
    And so I think you have to have, or we have to look at a 
comprehensive approach and maybe make some suggestions as to 
how to restructure what we are doing there so that people have 
that social and economic network as they move forward. Because 
some people felt they would be abandoned and would not have 
those structures in place. We definitely need to do something 
and look at that very, very closely.
    And, thirdly, as it relates to South Sudan, I don't know 
what is happening in Darfur because of the atrocities now 
taking place in South Sudan, but I hope that the Secretary and 
you all will engage in a sustained effort after his visit to 
try to really help reduce the violence and help South Sudan get 
back on course. And that is going to be very important, because 
if he goes and looks at it, talks to people, comes back, and 
nothing happens, then, you know, nothing happens.
    And so thank you again, Madam Chair. But I think Kiberia, 
all the issues we are talking about, we are talking about today 
is because there has been a void; we haven't really focused. 
And this hearing is one of the few that we have begun to focus 
on what is taking place in Africa. So thank you.
    Ms. Herrling. Quickly, on the MCC point, I know how much 
you care about minority businesses having access to our 
investments. And I hope the fact that we have exceeded the 
Federal targets on this issue, as well as our own agency 
targets, is testament to how much we care, as well.
    When you have a model that is driven around increasing 
economic growth, you have to know what private sector is 
identifying as the binding constraints to why they are not 
investing in these countries. And we seek purposely to unlock 
those constraints. So it requires us to be in quite careful 
coordination with the private sector, minority and otherwise, 
and we do that.
    So please keep us informed, and we will continue to send 
data to you. We are always looking for opportunities to gather 
private sectors together around our compacts, both at the 
identification-of-constraints stage and, as well, as the 
specific operations stage.
    As well, this data alliance that we are forming includes 
private sector because they, too, want to understand corruption 
in country, how it is playing out, what they have to be aware 
of, create an integrity screen, if you will, for their own 
investments. So there are many, many layers for interaction in 
our space.
    Ms. Lee. Darfur and South Sudan?
    Ms. Thomas-Greenfield. Let me take that question.
    As you know, Ambassador Booth, our Special Envoy, has been 
working around the clock. We just got a message from him. He is 
in Addis now. He was having meetings all day related to Darfur 
and to the situation in Sudan. So he has not neglected to 
continue to work on that.
    But our highest priority right now is cessation, a real 
cessation, of hostilities between the two sides. They have 
signed an agreement, and they have continued to fight. And 
people are continuing to die, and the humanitarian situation is 
getting worse.
    The Secretary is going with the goal of bringing about a 
solution to ending the violence. And that is our hope as we go 
into a series of meetings not just with the negotiators and the 
envoys but with the parties to the violence inside of Sudan. 
And we will be meeting with civil society there, as well, to 
talk to them about where they see the possibilities.
    Ms. Lee. Can we--Power Africa, very quickly, Madam Chair? 
Thank you very much.
    Mr. Gast. On opportunities for minority businesses, we 
recently, in the Africa Bureau--in fact, it was just last 
week--hosted a session with minority-owned businesses on ways 
that they can cooperate and work with AID, to include on Power 
Africa.
    We as an agency have exceeded our goal. We want to do 
better, but we are very pleased with the results that we have 
had.
    Ms. Lee. Okay. We will follow up with you on----
    Mr. Gast. And, also, you mentioned----
    Ms. Lee [continuing]. That.
    Thank you, Madam Chair.
    Ms. Granger. Certainly.
    Mr. Gast. May I on trade missions? We work very closely 
with Corporate Council on Africa, and so we can raise that 
issue with them. They are frequently sponsoring trade missions.
    Ms. Lee. I appreciate that very much.
    Ms. Granger. Before I turn to Ms. Lowey, when we are 
talking about Kiberia, one of the things that was very apparent 
was how important it is for us to see what you are doing and 
see what the needs are.
    I didn't know. I have never been there. I did not picture 
2.5 million people, which is what Mrs. Lowey was showing me, 
which means if you took the citizens from all three of the 
Members of Congress's districts here, it is more than that. So 
it is really important that we go out on the ground and see 
things.
    Mrs. Lowey.
    Mrs. Lowey. Yes. As we close, first of all, I want to thank 
our distinguished chairwoman for having this hearing and having 
you here today.
    And we appreciate Secretary Kerry focusing on Africa, and 
we do wish him success in ending the violence and finding 
solutions.
    As we focus on some of the terrible tragedies, I think it 
is important to end the hearing and congratulate all of us 
again on 6 million people on HIV treatment, advancement in 
child mortality rates due to improved access to vaccines, 
treatment for deadly illnesses--malaria, pneumonia. We have 
made progress.
    And I think it is very important as we put our budgets 
together--and we know the money is not enough to do what we 
have to do and face the challenges. Working with the Gates 
Foundation has proved enormously successful. I do hope that 
there are increased efforts to reach out to other donors, to 
the U.N., to make sure we are all working together, because we 
know the challenges are huge.
    So thank you. Thank you for all your work. We have a lot 
more work to do.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    I thank the witnesses for appearing before the subcommittee 
today.
    Members may submit any additional questions for the record.
    Ms. Granger. The committee will also accept additional 
statements for the record from other agencies.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Wednesday, May 7, 2014

         UNITED STATES ASSISTANCE TO COMBAT TRANSNATIONAL CRIME

                                WITNESSES

AMBASSADOR WILLIAM BROWNFIELD, ASSISTANT SECRETARY, BUREAU OF 
    INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT OF 
    STATE
AMBASSADOR LUIS CDEBACA, OFFICE TO MONITOR AND COMBAT TRAFFICKING IN 
    PERSONS, DEPARTMENT OF STATE

                Opening Statement of Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    Today's hearing is on U.S. assistance to combat 
transnational crime. I would like to welcome our two witnesses 
from the Department of State, Ambassador Brownfield, Assistant 
Secretary of the Bureau for International Narcotics and Law 
Enforcement Affairs, and Ambassador CdeBaca, U.S. Ambassador-
at-Large to Combat Trafficking in Persons.
    Today's hearing will address many of the subcommittee's 
priorities, such as combating human trafficking, countering the 
flow of illegal drugs, addressing the wildlife poaching crisis, 
and stopping the funding that supports terrorist activities. 
Many of us follow these issues for humanitarian reasons, public 
safety, or the cause of conservation. But these issues are all 
directly related to the security and stability in the countries 
we provide assistance to, as well as our own national security.
    The outrageous actions of Boko Haram abducting hundreds of 
girls and claiming to sell them as slaves should remind us all 
how very real these threats are. This case is also an example 
of how these issues are linked. Boko Haram is a terrorist 
organization, and there are reports in the press that some of 
its members have profited from poaching elephants for their 
ivory.
    Boko Haram has been terrorizing the Nigerian people for 
years, and now they are involved in this horrific case of human 
trafficking. We want to hear about how the funding this 
subcommittee provides is being used to confront these types of 
issues and what is needed for the next fiscal year.
    Transnational crimes share common traits. The sex and slave 
trade as well as the demand for animal parts and drugs drives 
the trafficking problem. Weak government institutions and 
corruption facilitate the criminal networks, and current laws 
and law enforcement are not effectively deterring the 
perpetrators.
    We would like to hear how these criminal enterprises are 
related and whether resources can be used to solve more than 
just one problem. We hope the agencies we fund are coordinating 
and applying these lessons learned from decades of 
counternarcotics and anti-trafficking work to other areas of 
transnational crime.
    We also want to be sure the funding we provide around the 
world to improve governance and reduce corruption is focused on 
addressing transnational crime. This subcommittee included 
funding in the Fiscal Year 2014 Appropriations Act for programs 
to combat human trafficking and also for the first time 
directed funds to address wildlife trafficking. I would like to 
know more about how those funds will be used, and what has been 
accomplished to date.
    In addition to the funding, I would like to hear what new 
technologies, partnerships, and diplomatic efforts are being 
used to address these challenges. I was pleased to see the 
budget request for fiscal year 2015 increased funding to combat 
trafficking in persons. We know the need is tremendous.
    The most recent human trafficking report concludes that 
40,000 trafficking victims were identified in the last year, 
and there are some estimates that as many as 27 million men, 
women, and children are trafficking victims at any given time.
    Turning to wildlife trafficking, I was disappointed to see 
the request is down more than 50 percent from what we had 
included in last year's bill. I should also note that I had to 
ask for that funding to be provided because it was not included 
in any of the budget materials. Secretary Kerry has said this 
issue is a priority, but that is not what was reflected in the 
budget.
    In 2013, over 1,000 rhinos were poached in South Africa. 
This was an all-time high. Cutting the funding in half does not 
seem like an appropriate response. I would like you both to 
discuss your plans for fiscal year 2015, including how the 
funding this subcommittee provides will address the most urgent 
needs.
    I will now turn to my ranking member, Mrs. Lowey, for her 
opening remarks.

                 Opening Statement of Chairwoman Lowey

    Mrs. Lowey. Thank you, Madam Chair.
    Assistant Secretary Brownfield, Ambassador CdeBaca, I join 
the chair in welcoming you and thank you for your service.
    Transnational criminal enterprises have grown in size and 
strength, aggressively intimidating and overwhelming government 
institutions. Transnational criminal syndicates, insurgent 
groups, and terrorist organizations are now joining forces in 
collaborative efforts. Reports show that transnational criminal 
and financial networks have become increasingly sophisticated 
and exploit countries and regions with weak governance and rule 
of law.
    The kidnapping of the schoolgirls in Nigeria is the latest 
and most glaring example of the nexus between lawlessness, 
terrorism, and human trafficking. I hope you will begin your 
testimonies by updating the subcommittee on what we are doing 
to assist the Nigerian government to find and free these girls. 
This is a time when we must advocate our values and do more to 
defend the defenseless.
    I know we agree that the practice of human trafficking and 
enslavement is abhorrent. Yet it continues unabated in many 
regions. Whether for forced sex or labor, estimates suggest 
that between 2 million to 4 million people, mostly women and 
children, are trafficked every year. And between 21 million to 
29 million people are enslaved. This is appalling.
    Poaching and wildlife trafficking have also escalated. 
According to environmental groups, an estimated 30,000 African 
elephants were killed in 2012. Nonstate armed groups and 
militias from Congo, Uganda, and Sudan, in addition to 
terrorist groups such as the Sudanese Janjaweed and al-Shabaab, 
profit from this horrific exploitation.
    While I commend the administration for its efforts to 
combat poaching and wildlife trafficking and the national 
strategy to combat wildlife trafficking, I am interested to 
learn what you are doing to address the seemingly insatiable 
demand for ivory in China and other East Asian countries, which 
is fueling the ruthless destruction of African wildlife and 
providing a financing source for terrorists. Have we sought 
cooperation with China to curb the demand? And what has been 
the response to date?
    I am also concerned about the continued reports of violence 
and abuses perpetrated by police and military units under the 
pretense of counternarcotics tactics in many Latin American 
countries. As you know, corruption, weak governance, lack of 
strong judicial institutions, all exacerbate the potential for 
systemic abuses of power.
    The President's strategy to combat transnational organized 
crime acknowledges that transnational crime cannot be solved 
through police and military actions alone, a principle I have 
strongly advocated in my years in leadership on this 
subcommittee. Our chances for success are greatly improved 
when, in addition to enforcement capacity, security forces 
institutionalize mechanisms to ensure transparency, 
accountability, and respect for human rights and the rule of 
law.
    We must continue to work with partner governments to 
address the underlying poverty and lack of opportunity which 
criminal organizations use to gain power and influence. More 
must be done to invest in alternative livelihoods, education, 
job opportunities for youth. I will continue to insist that any 
United States programs and funding to fight transnational 
criminal activities emphasize these tenets.
    Therefore, I hope to get a greater insight into the 
administration's objectives and strategies to combat these 
crimes and threats to international security. I would like the 
panel to assess the following key issues.
    What effect has the funding we have provided had on the 
activities of transnational criminal organizations? How do we 
break the power and impunity of criminal organizations? Is our 
policy overly dominated by a counternarcotics agenda while 
underestimating corruption and human rights concerns?
    Does the State Department overly rely on interdiction, 
eradication, training, and equipping law enforcement? How do we 
improve the capacity of justice systems to protect the rights 
of citizens? Can we do more to disrupt criminal financing 
networks? What type of coordination is necessary to succeed? 
And what challenges are not yet being addressed?
    Thank you for your testimony.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Before I call on the witnesses, I want to thank all the 
subcommittee members and tell the witnesses that we are having 
so many hearings to get our appropriations process finished 
that the Members are going from one to another, and that is 
what they have to do. So there will be people coming and going.
    I now call on the witnesses to give their opening 
statements. I would encourage each of you to summarize your 
remarks so we can leave enough time for questions and answers. 
Your full written statements will be placed in the record, and 
we will begin with Ambassador Brownfield.

               Opening Statement of Ambassador Brownfield

    Ambassador Brownfield. Thank you very much, Madam 
Chairwoman, Ranking Member Lowey, members of the subcommittee. 
Thank you all for this opportunity to appear before you to 
discuss INL efforts against transnational organized crime.
    I have a formal statement that, with your permission, I 
will submit for the record and summarize it orally.
    I have appeared before Congress many times to discuss 
trafficking in drugs, firearms, and persons, corruption, 
financial crime, and rule of law. I have never before testified 
on efforts to combat illegal wildlife trafficking. And while I 
am here to address any matter involving transnational organized 
crime, I would like to focus my oral remarks today on wildlife 
trafficking.
    Our information is anecdotal, but we estimate that the 
wildlife trafficking industry earns between $8 billion and $10 
billion in illegal revenue every year. A kilo of rhino horn may 
sell for more than a kilo of cocaine or heroin. And unlike 
their drug colleagues, wildlife traffickers are exterminating 
entire species.
    Last July, the White House released a new national strategy 
for combating wildlife trafficking. It directed greater efforts 
to strengthen enforcement, reduce demand, and build 
international cooperation.
    Members of the subcommittee, I do not claim the expertise 
of the conservation community whose noble work has led global 
efforts to protect wildlife for more than a century. But I do 
know something about criminal trafficking. I know that all 
trafficking has elements in common.
    Demand for the product creates a market, and the market is 
supplied by criminals growing, manufacturing, or butchering the 
product. Sophisticated logistics networks move the product to 
market by corruption and manipulation. An illegal retail system 
distributes the product to purchasers, and financial systems 
are corrupted to launder revenues into usable commodities.
    With strong leadership and support from this subcommittee, 
the INL bureau has developed a four-pillar strategy to combat 
this industry. First, we strengthen legislative frameworks so 
wildlife trafficking is, in fact, a crime around the world. 
Second, we work to improve law enforcement and investigative 
capabilities through training and support. Third, we build 
prosecutorial and judicial capacity to try these crimes. And 
finally, we enhance cross-border cooperation through wildlife 
enforcement networks.
    We have some progress and success to report. In April of 
last year at our instigation, the U.N. Crime Commission 
declared wildlife trafficking to be a ``serious crime,'' the 
most serious category they have. Last November, Secretary Kerry 
announced the first reward offer of up to $1 million under our 
new Transnational Organized Crime Rewards Program against the 
world's largest illegal wildlife trafficking organization, the 
Laos-based Xaysavang network.
    And in February of this year, law enforcement from 28 
different nations joined together in a month-long coordinated 
operation called Cobra II, resulting in more than 400 arrests 
and 350 major illegal wildlife seizures worldwide.
    Members of the subcommittee, I acknowledge that global law 
enforcement has been slow to add wildlife trafficking to our 
list of high priorities. We still have much to learn, but we 
are here now, and we intend to make an impact.
    Thank you, Madam Chairwoman, Mrs. Lowey, members of the 
subcommittee. I look forward to your questions and your 
guidance.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. And thank you very much.
    Ambassador CdeBaca, you are now recognized.

                Opening Statement of Ambassador CdeBaca

    Ambassador CdeBaca. Thank you, Madam Chair, Ranking Member 
Lowey, and members of the subcommittee. We appreciate your 
support and your ongoing commitment to this fight against 
modern slavery. And I use the term ``slaver'' purposefully.
    We use ``human trafficking'' as an umbrella term. It is all 
of the conduct involved in reducing a person to or holding them 
in a state of compelled service, whether for labor or 
commercial sex. Movement may sometimes occur, but it is not a 
necessary element, but rather a common vulnerability.
    The common thread in these cases is the deprivation of one 
person's freedom by another. That is why it is fitting to say 
slavery, especially this week.
    Our moral obligation against this crime is clear, but it is 
also a strategic imperative. Modern slavery undermines the rule 
of law, it feeds instability, breeds corruption, fuels 
transnational crime, and taints supply chains that drive the 
global economy.
    As you mentioned, Madam Chair, the events of the last week 
have demonstrated these interrelationships, and we must address 
it but also must pause to think about the victims, to think 
about the girls who don't know if someone is looking for them. 
And we have to answer, yes, we are.
    And so, I would like to talk about two major functions of 
our office. First, the annual Trafficking in Persons Report, 
which measures governments' efforts to fight trafficking. Every 
year, we look at each country, and we put them on one of four 
tiers as to what they are doing.
    The tier ranking system has been extremely effective in 
motivating governments to combat trafficking, and it has 
enabled them to more effectively fight this crime. Time and 
again, we have seen governments change course, often 
dramatically, when faced with a potential downgrade or 
confronted by a tough assessment. Time and time again, 
political leaders and advocates and academics have credited the 
report with spurring action.
    And so, in only about a decade, 159 countries have become 
parties to the United Nations trafficking protocol, modern 
anti-trafficking laws, specialized law enforcement units, 
victim assistance mechanisms, public awareness campaigns. And 
here at home, cutting-edge new laws in every State and almost 
every territory, again in just a little more than a decade.
    Now what is important, though, is not to simply think of 
this as a policy priority, but to think about the people. At 
the end of the day, the trafficking report doesn't just shine a 
light on what countries are doing. It is not just a name and 
shame exercise. Hopefully, at its best, it shines a light on 
the victims, on the responsibility toward the survivors, on the 
responsibility of all of us to stamp out slavery once and for 
all.
    It also guides our foreign assistance, and that is the 
second issue I would like to highlight. Since 2002, my office 
has funded 835 projects around the world worth over $216 
million.
    Every year, because the need so far exceeds the 
approximately $19 million we have to spend each year in 
programming funds, we innovate. We identify and we disseminate 
best practices. We maintain and set the international norms.
    And knowing that sometimes it will only happen if America 
does it, we fund support and services to trafficking victims--
not to labels, not to classifications, to people like the women 
victimized by modern slavery in Sierra Leone who now have 
access to shelter services for the first time, thanks to one of 
our grantees. The men who are now recognized as victims of 
trafficking and receive assistance in Bangladesh through one of 
our projects.
    Prior to the work of those organizations and those 
projects, these underserved populations had no access to 
service, had no voice. Like the South and Southeast Asian and 
increasingly African women who find themselves enslaved as 
domestic servants in the Middle East, the children in West 
Africa forced to beg on the city streets, and yes, the 
children, men, and women forced into prostitution and forced 
labor here at home in the United States.
    As you said, up to 29 million people, and yet only about 
40,000 victims have been identified last year. But because of 
our trainings, the laws we are helping to write, the service 
providers and NGOs that we support, and the standards that the 
TIP report is solidifying around the world, this is changing.
    In the last year, we have seen countries with their first 
convictions ever. Countries which once denied having a 
trafficking problem at all are now proud to work under the 
three P paradigm of prevention, protection, and prosecution, 
with robust interagency activities and good cops and social 
workers on the front lines.
    These are victories. And with every victory, with every 
law, with every liberation, with every trafficker brought to 
justice, we grow nearer to our shared vision, a world free from 
slavery.
    Thank you, and I am happy to answer any questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Granger. Thank you so much.
    I serve as a co-chair of the human trafficking caucus and 
started before I ever came on this subcommittee. And I am 
really glad, Ambassador, that you talked about parents who 
never know what happened to their children or children who 
wonder if their parents know what happened to them and where 
they are.
    And I know that technology--has a huge impact on law 
enforcement, especially forensics. And I believe that we should 
be using just every tool we have. I understand the State 
Department and USAID support programs that use DNA technology 
for general forensic law enforcement. Are any of these programs 
focused on preventing human trafficking? Are you considering 
using DNA technology?
    Ambassador CdeBaca. We have to some degree. It is something 
that we look at. I think that what we have seen, though, is 
with the crushing need to address the people who are identified 
and identifiable and in weighing the scarce resources against 
the cost of DNA testing and those large programs, we have 
instead put most of our eggs in the law enforcement training, 
victim identification, and national referral mechanisms, so 
that victims can get up and over to social services.
    But I do know this is something that a number of folks are 
working on, especially Interpol, with the notion of DNA 
testing. And we think it is an arrow in the quiver.
    Ms. Granger. Good. I had heard about a concept where people 
are being trafficked across borders, and the DNA technology 
could be used to identify where they came from. So I would like 
to talk to you at another date about some of that technology.
    Ambassador CdeBaca. I think that, but as well the notion of 
some of the even more rudimentary technology, like X-ray 
analysis of bones. So that we can see whether the person who 
has perhaps been liberated in a brothel raid is actually a 
child rather than an adult, given that a lot of these victims 
may not even know their own age.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much.
    I want to thank you, Mr. Ambassador and Assistant Secretary 
Brownfield, for your testimony. We know how difficult this work 
is, and we are all here in the United States listening to the 
horrors every day.
    And this last event in Nigeria is so shocking and so 
disturbing to all of us, and you very eloquently, Mr. 
Ambassador, listed all the things you are doing. Sometimes I 
wonder what can we really do?
    On the same news program we hear about the $23 million that 
has been invested in President Zuma's home. The corruption in 
Kenya, the corruption everywhere is so widespread.
    Maybe I will begin by starting with Assistant Secretary 
Brownfield. How do we actually break the power and impunity of 
criminal organizations and urge governments to do more to stop 
transnational crime? How do you measure or evaluate success?
    I was pleased, Ambassador CdeBaca, you mentioned some 
examples of success. What percentage of the total incidents you 
have been able to declare victory?
    But Assistant Secretary Brownfield, how do you measure or 
evaluate success, and how do we actually urge governments to do 
more to stop transnational crime?
    Ambassador Brownfield. Sure. Thank you, Mrs. Lowey.
    May I offer three observations, and these are based upon an 
inordinate number of years in this business where I have been 
serving either in INL or elsewhere in the Department of State.
    First observation, in order to have an impact on a criminal 
trafficking enterprise, we have to address all elements of the 
enterprise. We learned the hard way in past decades that if you 
just attack interdiction or you just attack production, it will 
not succeed.
    You have to hit every element. You may prioritize some over 
others, but you cannot ignore one to the exclusion of all of 
the others.
    Second, you must approach from a regional perspective. No 
country manages or is responsible for a transnational criminal 
trafficking enterprise on its own. Using Nigeria as an example, 
Nigeria is in a trafficking sense, in a transnational criminal 
sense, part of the larger West African region.
    We have been engaged for the past 3 years in what we call 
the West Africa Cooperative Security Initiative, linking 
together all 15 nations of West Africa in a common strategy 
that deals with Coast Guard capabilities, corrections 
capabilities, police training capabilities, prosecutorial 
capabilities across the board in a regional context.
    Third, you have correctly laid out a lesson that it took us 
probably 30 years to learn, and that is we must have specific 
criteria that we are measuring to determine how successful the 
program or the effort is. From the '70s through the '90s, our 
approach was to measure input. How many aircraft, how many 
vehicles, how many people did we push through a training 
program?
    We need to go, obviously, to the next step. Perhaps we are 
measuring homicide rate. Perhaps we are measuring number of 
individuals who are successfully prosecuted. Perhaps we are 
measuring number of victims of crime in whatever category, 
something that tells us in the long term what is our systemic 
impact.
    Finally, Congresswoman, if you would permit me, I am going 
to add a little response to what the chairwoman asked about 
technology.
    Madam Chairwoman, we have kind of a cool DNA program on 
wildlife trafficking as well. I signed off on it this morning. 
What we are doing is taking samples from the crushed ivory from 
throughout the world, doing the DNA on that, and using it to 
map where elephants and rhinos are most being impacted to allow 
us to focus our efforts.
    I am sorry, Mrs. Lowey. I took advantage of those 30 
seconds to answer a question that was not yours.
    Mrs. Lowey. First of all, the red light is on, and I know 
we both have many questions. So we will have another turn, I am 
sure. And we share the concerns. So I appreciate your 
responding to the chairwoman.
    Thank you.
    Ms. Granger. Thank you.
    I will now call on Members, alternating between majority 
and minority based on seniority of those present when the 
hearing was called to order.
    I will remind Members you have 5 minutes for your questions 
and responses from the witness. A yellow light on your timer 
will appear when you have 2 minutes remaining. If time will 
permit, and I think it will, we will have a second round.
    And now I will call on Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Madam Chairman.
    And thank you all for being here today.
    You know, you sit here and you listen. We have got a war 
against illicit drugs. We have got a war against illicit 
wildlife trafficking. We have got a war against human 
trafficking. And you always have to wonder, are we winning the 
war?
    And I want to focus on human trafficking because I know in 
Nigeria everything comes to the forefront. It is just awful. 
You can't find words to describe it. But that brings a lot of 
visibility. But the sad thing is every day, all around the 
world, this kind of activity is taking place.
    And quite frankly, sometimes when I travel internationally, 
I would ask the leaders of the country about the TIP sheet, the 
TIP list. And my impression is that they didn't know a whole 
lot about it.
    They would always say, ``Yes, we are level 1. We are level 
2.'' And you say, ``What are you doing about it?'' And they 
would say, ``We are working on it.''
    But it seems to me that we have got that TIP sheet, and you 
talked about some good things that are going on. But I really 
wonder what is your view of how we are doing worldwide?
    If 20 million people are part of this--and we don't do a 
very good job in the U.S. I understand that as well. Florida is 
probably one of the worst places. You get $20 million, $19 
million, and you mentioned you had 800 projects or some number 
and you have spent a lot of money. Are we really winning or is 
it getting worse? Is it getting better?
    Because sometimes I get the impression that nobody cares. 
There is no visibility. Every now and then some wild, awful, 
terrible thing happened, and we say that is terrible. You take 
300 women and say you are going to sell them. But that is going 
on every day, and it seems like in the shadows that people 
don't care about, A, how are we doing, and B, what can we do 
better? How can we help you do a better job of bringing 
awareness of this and win that war?
    Ambassador CdeBaca. I think you are spot on as far as no 
matter how many zeroes were to be added to the money that we 
spend, we are still playing catch-up against something that is 
both cultural as well as criminal. And it is something that 
only can change if there is political will to change it.
    You would see a cascade effect on the issues of corruption. 
The policemen who take bribes to cover this up or even own the 
bars or the brothels where the women are being held.
    You know, for me, one of the things that it comes back to 
is trying to break our own internal U.S. cycle. If you look at 
the last 250 years, you will have an administration that looks 
at this and that focuses heavily on it, and then the following 
administration will drop off. The good work that was being 
done, frankly, in Florida by the first Roosevelt administration 
dropped off.
    Now part of that could have been that we needed the pitch 
and the turpentine that was being made in the forests by people 
in debt bondage. We needed them for the war effort in World War 
I. But it dropped off.
    One of the things that we have seen in the modern era is 
this handing off of this issue from President Clinton to 
President Bush to President Obama, and instead of dropping off, 
we have seen an intensification. I think that that is where 
political will comes in, not just as far as the presidency, but 
as far as the Congress.
    One of the things that Secretary Kerry challenged all of us 
to do a few weeks ago at one of the staff meetings was to think 
about how we bring this up more in our travels. Not just me. Of 
course, I am going to bring this up everywhere I go. That is my 
job. But the notion of the regional Assistant Secretaries, the 
notion of himself when he is talking to Kuwait or someone in 
the Gulf to raise those issues.
    So I think part of it is raising it. Part of it is when you 
are out there, you continuing to raise it. But at the end of 
the day, I think that some of the things that we are seeing is 
the notion of how do we make that bigger systemic cultural 
change? To reject the notion that governments would buy 
products made with forced labor. To reject the notion that when 
our folks are on travel that they might, you know, go to 
prostitutes or engage in things that create the demand.
    So I think it is as much the cultural as it is the 
programs. Now, clearly, we are going to try to design our 
programs well, and we are going to try to disseminate the best 
practices as much as we can, but we need your help to create 
the political will.
    Mr. Crenshaw. Again, I just hope that we, in our country 
are not immune to this. We need to raise the visibility, and I 
am not blaming other countries any more than I am blaming 
ourselves. But I just don't think people focus on this.
    I mean, this is awful. We all sit here and say how bad it 
is, but somehow it doesn't get the visibility that it deserves. 
It needs to be stopped.
    Thank you.
    Ms. Granger. Thank you.
    Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    And thank you to both of the witnesses, Ambassador CdeBaca 
and, of course, Mr. Secretary, also, Brownfield. Good seeing 
you.
    Let me, first of all, I also want to record my support on 
what you are all doing for the young girls in the situation in 
Nigeria there with the Boko Haram. As the father of two young 
girls, I think it is just horrible that parents and the kids 
have to go through that particular ugly, ugly, ugly situation.
    I know that 3 weeks have gone by. That is a lot of time, 
you know, for law enforcement and military. But hopefully, you 
all can follow up on those leads, and I would also ask you all 
to keep us informed instead of us reading this in the media.
    Number two, let me direct my attention to south of our 
border with the traffic in Mexico. A couple of issues, Mr. 
Secretary. One is, as you know, the Mexican federal government 
and the state government deal with human traffic, and there is 
a lot of inconsistencies between the states and the federal 
government.
    I would ask you what are you all doing to help coordinate 
that across the 32 states and, of course, the federal 
government? What sort of united front are we looking at?
    The second thing has to do with the judiciary system, 
prosecutors, et cetera. As you know, a fraction of human sex 
trafficking is being reported in Mexico, and less than 2 
percent are being convicted. You know their conviction rates, 
generally speaking, are pretty bad.
    And tied into that, I know your boss, Secretary Kerry, and 
I disagree with him. I think he is talking about cutting 49 
percent of the aid to Mexico. There are some countries that get 
over $1 billion, and they are able to have ``the capacity to 
handle that.'' But for some reason, Mexico doesn't have the 
capacity to do that.
    And again, I say that simply because we have got a 2,000-
mile border, and we spend billions of dollars on the U.S. side. 
So I would ask you to, you know, if you can address those 
questions itself and comment on the last one.
    Ambassador Brownfield. Sure. Let me start, Congressman, and 
then I will defer to Ambassador CdeBaca, if he has any 
trafficking in persons specific comments. And I will give more 
of the Merida Initiative approach.
    First, the importance of state and local engagement in 
Mexico. It is a theme that we have been hammering in our 
dialogue, narrative, and engagement with the federal government 
of Mexico now for more than 2 years. Both the current 
administration and, in its last year, the previous 
administration endorsed the concept.
    We had about a year during which time, as is to some extent 
normal, when a new administration comes to office, most new 
programs were paused under Merida. Beginning with the start of 
this calendar year, January of 2014, programs have, in fact, 
begun again with endorsement and support and agreement by the 
national government of Mexico, and a substantial percentage of 
those, about 25 percent, are focused on the state and local 
municipal institutions in Mexico.
    About one quarter are also focused on the office of the 
attorney general, the PGR, in the Mexican government as well, 
85 million out of 350 million so far agreed to this year. And 
that is indicative, I hope, of a commitment, as well as a 
realization that prosecutors and a court structure and 
administration must be part of any long-term progress in terms 
of our cooperation with and engagement in Mexico.
    Finally, Congressman, I, of course, will have to start any 
commentary in terms of budget requests for support for the 
Merida Initiative by saying as a member of the Article II 
branch of Government, that, of course, I support the 
President's budget request for fiscal year 2015. I, too, 
noticed that the request level is 45 percent less than it was 
last year.
    I will work to ensure maximum effectiveness and value of 
whatever budget this body, the United States Congress, chooses 
to appropriate and make available to us. But, yes, I, too, 
noticed that the request level is 45 percent less than it was 
for the year before.
    Mr. Cuellar. Thank you for your great job, Mr. Secretary. 
Appreciate it.
    Ms. Granger. Mr. Dent. Mr. Dent is not here.
    Mr. Diaz-Balart. I am sorry.
    Mr. Diaz-Balart. Does that mean that I can have his time?
    Ms. Granger. No, it does not mean that.
    Mr. Cuellar. And I didn't yield any time to him.
    [Laughter.]
    Mr. Diaz-Balart. Thank you, Madam Chairwoman, for this, 
frankly, very, very important hearing.
    And again, thank you, gentlemen, for your service to our 
country.
    Secretary Brownfield, I remember that I had the pleasure of 
welcoming you to Miami last summer when the INL and the Port of 
Miami signed this Memorandum of Understanding expanding 
security collaboration at ports throughout the Caribbean. And 
it is an initiative that shares--again, it shares security 
threats and strengthens safety.
    And because of your efforts, sir, the Miami-Dade Police 
Department has trained and graduated members of anti-narcotics 
units in the national--in the Haitian National Police, 
something that you were trying to get done and you got done, 
and obviously without your leadership would have not happened.
    I mention that, Madam Chairwoman, because last month I had 
the opportunity to visit Haiti with some of my colleagues, and 
we met, among others, with the members of the Haitian National 
Police Academy. And there, we saw firsthand those efforts, how 
members of the Haitian National Police have been training with 
the Miami-Dade Police Departments.
    We also, by the way, met a group of I think it was 18 
women, Haitian National Police cadets, who had just gotten back 
from, I think, 9 months of training in Colombia. So I tell you 
that, Mr. Secretary, because your efforts and your leadership 
have made a huge difference. And I was able to witness it 
firsthand in Haiti and also again seeing the efforts that 
Colombia, and you were a big part of those efforts when you 
were Ambassador there.
    So, again, congratulations on a job well done, and it is 
great to see.
    Ambassador Brownfield. Thank you, Congressman.
    Mr. Diaz-Balart. Let me go a little bit to the issue of a 
lot of the violence and the human trafficking, as we all know, 
can be attributed to organized crime. And it is also the gang-
related violence or drug smuggling operations that are also 
involved in human trafficking.
    And according to INL's International Narcotics Control 
Strategy Report, 86 percent of the cocaine trafficked to the 
United States first transits through Mexico and the Central 
American corridor, to you, Mr. Cuellar's point. It goes through 
there first. About 75 percent of all cocaine goes, is smuggled 
through flights departing South America that first land in 
Honduras.
    Now strictly on a budgetary issue, Mr. Secretary, the 
fiscal year 2015 base budget request for your bureau includes 
an overall cut of $284 million, 28 percent. And again, 
specifically for the Western Hemisphere, where we have these 
issues, that request includes a reduction of $135 million.
    So given the increase of violence in Latin America, and we 
are seeing what goes on in Latin America with the violence and 
drug trafficking and obviously the proximity to the United 
States, let me have your comments as to the realistic--is that 
funding realistic? Can we really deal, seriously deal with the 
challenges that we face in our region with those levels of 
reductions in funding?
    Ambassador Brownfield. Thank you, Congressman. And 
sincerely thank you for your remarks in terms of our efforts to 
engage both State and local law enforcement in the United 
States, as well as regional efforts in the Caribbean, Central 
America, and Mexico in our efforts to address and make progress 
on drug trafficking and other law enforcement issues.
    Congressman, you put me in a position where once again I 
will preface my remarks by saying that I, of course, support 
and endorse the President's fiscal year 2015 budget request.
    You are correct in your math. The total budget request for 
international narcotics control and law enforcement is nearly 
30 percent reduced from last year's budget request, and you 
could even do the assessment, which I will not do for you here, 
as to what the overall State Department budget request has 
happened to it between 2014 and 2015. You have those figures 
before you already.
    I did my own arithmetic while--while listening to you. Our 
Colombia budget request is, in fact, down 30 percent. Our 
Mexico budget request is down 45 percent. Our CARSI, Central 
America budget request is down 30 percent.
    I believe we are doing good, important, and necessary work 
in each of those budget accounts. I believe they deliver real 
value for the American people. I believe we are, in fact, 
delivering on each of those program areas. But I, of course, 
support and endorse the President's fiscal year 2015 budget 
request.
    Ms. Granger. Thank you.
    Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair.
    Gentlemen, thank you for your testimony today. A wide 
variety of topics that I know you are working on, and we 
certainly appreciate your service.
    I wanted to ask you a couple of follow-up questions related 
to human trafficking, and particularly human trafficking into 
the United States. Do we have an idea of how many people are 
brought into the United States in a form of either work or sex 
slavery or some form of human trafficking into the United 
States each year?
    How are they most likely to come into the United States; by 
what means do they get here? What is their easiest form of 
access? Where are they most likely to be from, how we--where 
their point of origin is?
    And then, just with what basic information, as we debate 
solutions to our national immigration challenges in this 
country, what components of immigration reform should we look 
towards that would help your efforts to combat human 
trafficking into the United States?
    Ambassador CdeBaca. Thank you, Mr. Yoder, for that 
question. I think that it shows the interplay between migration 
and human trafficking very well.
    Clearly, we have seen over the last 35 years or so, 35 or 
40 years, a changing in the percentage of foreign victims of 
involuntary servitude and slavery as African-American 
communities have had other opportunities and have no longer 
been in the fields, on farms and homes around the country. And 
that has been replaced by--in many ways by foreign workers, 
often from Latin America, but not always.
    The vulnerabilities, the previous vulnerabilities of social 
exclusion of the black community have been replaced by the 
particular vulnerabilities of the immigrant community. Not 
having their legal status, not having policing that really is 
able to talk to them, the language barriers, the cultural 
barriers. Maybe coming from a place where peonage and debt 
bondage was the norm, and so they don't even necessarily know 
that there is not a difference here in the United States.
    The numbers are tough. The United States, for the last 10-
plus years, has chosen not to necessarily try to look at the 
numbers of who is coming in. The folks over at the Joint Intel 
Center, the Human Smuggling and Trafficking Center, are doing 
some work on prevalence issues by now looking at it not as what 
percentage of border crossers subsequently become enslaved, but 
rather looking at the very questions that you were asking.
    Of the people who we have rescued, of the people who have 
come forward who are getting victim benefits from the 
government or from the nongovernmental organizations that we 
fund through HHS and others, what was their story? And by 
learning from them, by learning from the survivors, I think 
that we are actually getting a little bit better idea than in 
the early part of the last decade when there was some 
preliminary research that didn't really have a strong basis 
that was talking about 18,000 people a year.
    Rather, one of the things that we are seeing is what do the 
victims need, and where are they coming from? Every year, a 
large percentage of the foreign victims who are enslaved in the 
United States are from Mexico. Other countries such as 
Thailand, China, et cetera, kind of rise and fall, depending on 
the year, depending on the situation.
    We have seen more people entering through either work-based 
visas or other legal means than simply coming over the southern 
border, although either way the vulnerabilities are present. 
And interestingly enough, one of the things that we have been 
able to glean from the survivors is that even if they were here 
illegally--excuse me, even if they were here legally on a visa 
category, the threat of being turned over to the immigration, 
even if they didn't do anything wrong, is enough sometimes to 
make them submit to the traffickers.
    You asked about components of immigration reform, and I 
think that is one of the things that we certainly have looked 
at. And as you know, the United States has been included now in 
the trafficking report for the last few years, and one of the 
things that consistently is brought to our attention and that 
we report on as one of their particular vulnerabilities is the 
fear of the immigrants in going forward to the local police.
    Instead of thinking of the local police as being someone 
who you can go to for help to get out of a brothel, that you 
can go to for help when you have been beaten up in the field or 
the house that you work in, rather there is that fear. And 
whether it is under 287(g), whether it is under Secure 
Communities, whatever we call it, as long as those people are 
afraid and in the shadows, somebody is going to take advantage 
of them.
    Mr. Yoder. Just so I understand your testimony, is it the 
majority or a portion? How many of these folks are here under 
some sort of legal status, but yet they are being corralled in 
a way that are allowing them to be enslaved in some way?
    Ambassador CdeBaca. You know, I would have to check in with 
the folks over at the Human Smuggling and Trafficking Center. I 
know that they have been trying to suss out those numbers. That 
is something that we can get with them and try to circle back 
to you.
    Mr. Yoder. I just think for all of us to understand how 
this is occurring, how they are getting into the country--Are 
they being smuggled in? Are they here legal status?--that has 
an impact on how we decide our efforts, where we put our 
resources to try to fix the problem.
    So thanks for your testimony.
    Thank you, Madam Chair.
    Ambassador CdeBaca. Thank you, Mr. Yoder.
    Ms. Granger. Thank you very much.
    We will have time and make a second round. I will say I 
want to associate myself with the concerns on both sides of the 
aisle on the President's funding request on issues that that 
truly are a crisis. The number of humans trafficked is just 
enormous, and then on the poaching situation, I can't even 
remember how many meetings I have been to talking about that 
situation.
    So I won't ask you the question, Ambassador, about wildlife 
trafficking, which is less than half of what the Congress 
provided in 2014 on this issue. But I will ask you about the 
rangers and law enforcement officials. Do they have the 
training and the equipment they need to respond?
    I know we have talked about--the equipment, the funding 
that came from this subcommittee on poaching at one time really 
had to do a lot with education, how important it is. And now it 
turned to criminal behavior. And so, it has been directed more 
to crime fighting because it is a crime.
    And so, the equipment that is needed is very different. Are 
they getting the equipment they need?
    Ambassador Brownfield. I am going to give you a yes and a 
no answer, Madam Chairwoman.
    We have concluded that given the amount of resources that 
we have available to us, that we get greater value by focusing, 
at least initially, in training and capacity building. The 
argument being that if you give them equipment, but they don't 
have the capability, the experience, the understanding in terms 
of how to use it effectively, you get very little value from 
your equipment. Whereas, if you train them, even if they are 
lightly equipped, you get value, and as you can then process or 
feed equipment in, they are able to use it more effectively.
    We also have to deal with the fact that wildlife--illegal 
wildlife trafficking is broadly dispersed, particularly in 
Southern and Central Africa. And in order to have an impact 
throughout the region from an equipment perspective, it would 
come with a price tag that is enormous. I mean, that would 
dwarf any amount of money that this subcommittee has so far 
thought about to dedicate to the wildlife trafficking issue.
    We are trying to compensate to a certain extent for that by 
using international organization partners. There is the United 
Nations Office on Drugs and Crime, UNODC, which has taken on 
illegal wildlife trafficking as a priority issue. And there is 
a consortium of international organizations that goes by the 
acronym I-C-C-W-C, or ICCWC, which tries to bring all of the 
international organizations together to work in a coherent 
manner on illegal wildlife trafficking.
    And we believe we can get at least a greater range and 
scope for our efforts and our support by using, particularly in 
the Africa context, those international organizations.
    Ms. Granger. Thank you.
    Mr. Cuellar. Oh, I am sorry. Mrs. Lowey.
    Mrs. Lowey. Go ahead. No, you go right ahead.
    Mr. Cuellar. Oh, no, no. No. Ranking Member?
    Mrs. Lowey. First of all, before I ask a question on 
another topic, I want to say bravo. Because my mantra has been 
``coordination, coordination, coordination.'' And when we visit 
countries, the various people don't even know each other that 
we meet at the Ambassador's house.
    Thank you. I hope this will be effective.
    I also want to say this is one area where there is such 
great cooperation between the chair and the ranking member, 
between Republicans and Democrats, to increase money for a 
particular account, I also want to say bravo. I hope you take 
that message back.
    I also want to make another quick statement that I was in 
Kenya several years ago, I think it was 2007, and the Secretary 
gave an extraordinary speech on corruption. The country is just 
as corrupt as it was in 2007. So we still have a lot of work to 
do in that regard.
    But, Mr. Ambassador, I want to focus on children in 
adversity and the Action Plan for Children in Adversity to help 
increase coordination between 7 agencies, 30 offices on 
international programs working with children. The three primary 
objectives of APCA are strong beginnings for infants and young 
children, a family for every child, protection of children from 
abuse, exploitation, violence, and neglect.
    Now I know this program is basically USAID. So I would like 
to know, since it is a USAID program, what oversight does your 
office have on USAID's implementation, and how are you and the 
Special Adviser for Children in Adversity coordinating to reach 
the intended outcomes of this interagency action plan?
    Thank you.
    Ambassador CdeBaca. We have been--as you know, there have 
been a few changes over at USAID as far as some of the 
personnel around that. So that has been one of the things that 
we have had to meet that challenge. But I think that what we 
have seen is that the action plan and the coming together as 
the task force on children in adversity has given a good 
platform to really start to front these issues and look at kind 
of a coordinated strategy.
    Obviously, each of us has our own statutory mandates, and 
we have to bring those to bear. But I think that even just the 
fact of the working groups, the fact of our staff. The person 
who I put on it, I am proud to say, is one of the folks who 
started the modern U.S. victim rights movement back in the 
1980s and 1990s, a psychologist by training, somebody who is 
very familiar with this.
    And I think that what this structure has allowed us to do 
is identify those people within our own organizations who have 
the best insights into the needs of the children in adversity 
and come together that way and harness that. So I think it is 
something that is really hitting its stride.
    Right now, I don't think that we can necessarily say that 
there is a project out there that is a specific children in 
adversity project that has gone through the entire pipeline. 
But I think that we are certainly seeing exactly what you 
suggested, which is through this coordination, through this 
complementariness between us and USAID, it really is what we 
have been striving to do on all of our programs, whether it is 
trafficking persons where we have the lead, whether it is them 
having the lead on the child protection issues.
    Mrs. Lowey. Just in conclusion, because I don't know that 
we are going to have another round, I just want to repeat again 
my view from the work that we have done together. The American 
people are good people. We have a philanthropic sector that 
is--frankly, it is not comparable to any other philanthropic 
sector anyplace in the world that I have seen.
    So I am very pleased, Assistant Secretary Brownfield, that 
you talked about the coordination. But as money is tight and as 
budgets are going down, and we can mention this area that was 
discussed today or other areas, it is so important for you to 
share with us your successes. Because there are too many people 
who have been our friends, who have been our advocates, that 
will tell me, well, what can you really do? Where is this money 
really going? We need the money here at home. What are we doing 
to accomplish our goals?
    So the more you can coordinate and the more you can share 
with us your successes, the better the chair and I and the good 
members of this committee can back up the importance of this 
committee and the work we can do on a whole range of issues.
    Ambassador CdeBaca. And ma'am, the notion of the money that 
you provide, we are trying to use that as seed money. So if you 
look, for instance, at one of our projects in India through 
International Justice Mission, so successful in getting people 
out of debt bondage that now Google Philanthropy and other 
philanthropic organizations are picking up that funding and 
running with it.
    So we were able to fund proof of concept. We were able to 
get it off the ground and really act as an angel investor. I 
think that is the future of how we tie in that type of 
partnership. So it is not just intergovernmental coordination, 
but it is with the philanthropic community as well.
    Mrs. Lowey. And with the philanthropic community with deep 
pockets, I think it is going to be more important for us than 
ever before to coordinate and emphasize what the government 
money is doing. We have to get that message out because not 
everyone in the Congress are believers as we have here on this 
committee.
    So thank you very much. Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Let me shift a little bit now to Venezuela, if I may? INL's 
2014 International Narcotics Control Strategy Report lists 
Venezuela as both a major money laundering country and a major 
drug transit country. The report goes on to say that in 2013 
Venezuela and U.S. counternarcotics authorities increased 
regular communications and some case-by-case cooperation. But 
the fact remains that Venezuela is a major, major--again, as I 
just mentioned, we have a major problem with Venezuela.
    Despite the fact that on the surface, there would seem to 
be some bilateral communications, Venezuela is also listed as a 
Tier 2 watch list country. And according to State's Trafficking 
in Persons report, Venezuela is a source of transit, a 
destination country for men, women, and children subjected to 
sex trafficking and forced labor.
    We have seen in the past, and I don't have to get into 
details, but we have seen in the past how the Venezuelan 
military has been a part of the problem there. So let me ask 
you gentlemen, with the--again, the report talks about a porous 
border with Colombia, the fact the FARC next door, the 
proximity to the Caribbean. What role is now, if any that you 
can tell us, does the Venezuelan military play in the drug 
trade, also in the human trafficking trade?
    If you want to talk about that, and also is drug 
trafficking and human trafficking a revenue source for the 
Venezuelan government? If you could just comment on both those 
issues, all those issues?
    Ambassador Brownfield. Shall I start, Lu? Congressman, in 
about the year 2005, 2006, during the tenure of an obviously 
very unsuccessful United States Ambassador to Venezuela, the 
government at that time elected to cease direct cooperation 
with United States Government on drug trafficking issues and, 
in a natural process of attrition, eventually attrited down the 
U.S. presence at the embassy through DEA to support drug 
trafficking. I think they hit bottom at a number of one, 
leading the then-subsequent Ambassador never to allow that poor 
rascal ever to leave country for fear that he would never be 
allowed back in.
    As a consequence, we, on an interagency basis and an 
international basis, developed a strategy, which I guess I call 
the periphery strategy, and that is operate on the assumption 
that you do not have cooperation from the government itself and 
try to address the problem through partners that surround that 
particular country. And it produced some results, I would 
argue. Certainly better than not doing anything at all. And 
every other government of every other country that surrounds 
Venezuela did cooperate in this effort.
    As our INCS report for 2012-2013 notes, sometime in the 
course of the year 2013, for the first time in like 6 or 7 
years, there was evidence of some effort on the part of the 
government to address drug trafficking. Your guess is as good 
as mine as to why.
    Was it because they realized that the amount of product 
that was transiting through Venezuela had exploded by a factor 
of 10 between roughly 2004 and 2010? Was it because they 
realized that their own institutions were being hollowed out 
and corrupted by billions and billions of dollars of illicit 
revenue? Or was it a power struggle within--within and between 
members of the government itself?
    I don't know for sure. We did acknowledge there were some 
steps. There was some communication, and quite frankly, there 
was evidence of a reduction in the amount of air traffic that 
was flowing from Venezuela north through the Central America-
Mexico corridor.
    We still have a challenge there. There still is an 
estimated 200 tons of cocaine that processes, in our judgment, 
through Venezuela every year, compared to an estimated 15 to 20 
tons 10 years ago. We still have a challenge. I believe it is 
only right that I acknowledge those areas of progress while at 
the same time state we clearly have a challenge remaining to 
address.
    Mr. Diaz-Balart. Madam Chairman, it is yellow, but if later 
on, you want to also deal with Ecuador, speaking of Ecuador, of 
a problem where they expelled 20 civilian military DoD 
employees. And that is another area.
    Ms. Granger. Thank you.
    Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Madam Chair.
    Let me direct your attention back to transnational crime in 
Mexico since we got a 1,954-mile border with Mexico. We were in 
Mexico City with some members of the Appropriations, including 
Chairman Rogers, a couple of weeks ago. One of the things we 
spoke about in our discussion with President Pena Nieto and 
some of the Mexican officials was the southern border, and the 
three-ring strategy.
    So I would like to get your thoughts on the three-ring 
strategy on the southern border, which includes Guatemala and 
Belize. Number one, your thoughts on that to help stop some of 
the drugs and people coming in from Central and South America.
    Number two, I wish Mexico would establish--I know there is 
a pilot program, a small pilot program on having joint border 
patrol work together on the U.S. and Mexican side. I wish they 
would do that for the whole northern border.
    And then the third thing is what caught my attention since 
Texas has allied with Tamaulipas, and you know the state of 
Tamaulipas, where it is Matamoros or Reynosa or Nuevo Laredo, 
those areas, I mean, that state is in very, very difficult, 
very violent situation. The Mexicans at least in Mexico City 
said they are going to start sending reinforcements. When, how 
much, I know their resources are being stretched so many ways, 
but I wish they would do that because that ties in directly to 
our border there.
    So your thoughts on a joint Mexican border patrol; two, the 
southern border; and number three, Tamaulipas.
    Ambassador Brownfield. Sure. Thanks, Congressman.
    May I suggest, since I am not unaware of the fact that 
there are at least three Texans sitting in the room right now--
two sitting on the panel up there and one sitting at the table 
right here--you make a good point when you remind us and we 
remind ourselves that when we say southern border, we are 
thinking one thing. When citizens of Mexico say southern 
border, they are thinking another thing. But the truth of the 
matter is we actually have interest in cooperating at both of 
those borders.
    I do not have the figures with me right now, although I 
suspect I could get them within about an hour. But at this 
point, the overwhelming majority of those entering the United 
States without proper documentation across our border are, in 
fact, not citizens of Mexico. They are citizens of, for the 
most part, Central American countries.
    Mr. Cuellar. By 53 percent.
    Ambassador Brownfield. And in order to enter through the 
U.S. Southwest border, they obviously must have a process 
through Mexico. And if there were a stronger, more modern, more 
effective system of controls along Mexico's southern border, 
that would actually have a positive impact for the United 
States of America as well.
    So we have signaled, we have said, and I do intend to 
support efforts to work with, cooperate with, the government of 
Mexico in their efforts to strengthen and modernize their own 
border. A much less complicated process, for reasons of 
geography. Our border, up between Mexico and the U.S., as you 
point out, is about 2,000-plus miles long. The border between 
them and Central America is about 1/10th of that length.
    Joint patrols. I would--I would say to you we have been 
working on this issue with the government of Mexico for a 
number of years. There are sensitivities that you, more so 
probably than anyone in this room, Congressman, are aware of in 
terms of Mexican willingness to work jointly with uniformed 
members of the United States Government or, for that matter, 
the State governments of Texas, New Mexico, Arizona, and 
California.
    I believe we are making progress in that area. We should do 
it, in my opinion, one step at a time, and we should be careful 
not to talk too much about it, at least in the early stages, 
for fear of spooking those that are carefully trying to do such 
patrolling in the border regions between the United States and 
Mexico.
    Third--fire away.
    Ambassador CdeBaca. I am going to take this as Secretary 
Brownfield's third, if I might? One of the things that we have 
seen that has been very effective on the anti-trafficking front 
is not joint patrol at the border patrol level, but with 
interior enforcement. And we have been able to work with the 
Mexican government now in the last few years so that they can 
come to the United States, take affidavits from the victims in 
the U.S. that they can use in court in Mexico.
    Saves the wear and tear on the victims. They can be 
interviewed in a responsible way. It doesn't retraumatize them. 
It is allowing us to share our skills with our Mexican 
counterparts, and it is one of the first times that we have 
actually seen that notion of joint law enforcement really 
working.
    And I think that it is because we see it as a shared 
responsibility toward those Mexican citizens who found 
themselves enslaved, whether it was in Mexico or here. It is 
allowing us to trace the networks all the way from New York 
City down to a small town in Tlaxcala. And if it wasn't for 
that kind of cooperation between the two police forces, it 
wouldn't be happening.
    Ms. Granger. Thank you. Some Members have one last 
question, and then I will wrap up.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairman.
    Just if you gentlemen want to, you know, Mr. Secretary, you 
talked about in the case of Venezuela you look at other 
partners. Now, for example, Ecuador is now a serious problem. 
If you want to just briefly touch on your thoughts on that?
    And lastly, we heard recently, and I think he also 
testified to the fact, but General John F. Kelly, who is the 
commander of USSOUTHCOM, stated that--and let me just make sure 
that I get this right--because of asset shortfalls that, in 
essence, we are unable to get after 74 percent of suspected 
maritime drug smuggling. He went on to say that a much larger 
amount of drugs will flow up from Latin America and that he 
believes that U.S. authorities only seize about 20 percent of 
the narcotics in transit to the United States.
    And a lot of times, by the way, he sees them coming up, but 
he doesn't have the assets. This is the United States of 
America we are talking about, in our hemisphere doesn't have 
the assets to go after them. So it would seem to me that that 
would be probably one of the most cost-effective ways to deal 
with that.
    Now, gentlemen, do you agree with General Kelly's 
assessment that we are basically only seizing about 20 percent 
of the narcotics heading to the United States? And again, we 
have to remember that the same folks that are responsible for 
drug trafficking, these organized crime groups, tend to be a 
lot of the same folks who do human trafficking, that do a lot 
of other--frankly, you know, commit a lot of other atrocities.
    So let me just kind of throw those both open-ended 
questions to you to finalize.
    Ambassador Brownfield. Congressman, may I take your first 
question first? In some ways, that is the easiest one, and that 
is the state of play in our cooperation with and engagement in 
Ecuador.
    There has been public and press play on the fact that the 
government of Ecuador has announced their intention that the 
United States military group will close down and depart 
Ecuador. They have not announced, but I am quite prepared to 
acknowledge it right now, the INL section, which has been in 
Ecuador now for more than 30 years, is also going to close up 
shop, and we will have them all out by the end of September of 
this year.
    There, I think, is going to be one program that extends 
into the next fiscal year, but you may assume that that 
decision reflects the reality of the nature of the cooperation 
that we have with that government as well. And I am not trying 
to make a political point. I am merely acknowledging where 
things stand right now in that regard.
    Your second, larger question, the simplest answer, of 
course, is I would never disagree with General Kelly. He is 
much bigger than I am and, quite frankly, I suspect could wipe 
the floor with me at any time he might choose to do so. But I 
do not disagree in this particular instance because he is in a 
position to offer a fairly accurate assessment of what, in his 
judgment, is getting through, to use kind of a simple term.
    And it allows me to make a point that I would have made to 
Mrs. Lowey had time not run out, and that is the challenge that 
we now confront, ladies and gentlemen of the subcommittee, is 
we do not have the sorts of budget and resources that we have 
had in past years. We do have to figure out, to use the truism, 
how to do more with less.
    We have got to explore things such as how to work in the 
interagency community to find out if other parts of the United 
States Government can perform missions that we previously were 
doing, but that are roughly consistent with what they are going 
to be doing anyway. What can we do with international 
organizations that we haven't done in the past? What can we 
squeeze out of other potential donors?
    Because one of the things that is happening on the drug 
front, Congressman, is much of that cocaine, which, for the 
last 50 years, flowed from the South to North America, is now 
flowing east-west. It is flowing from South America to West 
Africa and Europe or to East Asia. Might we find greater 
cooperation and willingness to participate by some of them as 
donors?
    And finally, even in my line of work, what philanthropic 
organizations would be prepared to support us? There are very 
few that work with law enforcement entities, but there are 
those that do demand and--drug demand reduction, that do 
treatment and rehabilitation. I believe that is our challenge 
in this front for the years to come.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Well, in closing, one comment and then a 
question. I have enormous respect, as you can see, for both 
Assistant Secretary Brownfield and Ambassador CdeBaca, but 
neither of you have addressed what you are going to do, what 
are you doing with regard to this--there aren't even words to 
express what just happened in Nigeria and Boko Haram. So I may 
give you the opportunity if the red light--you can think about 
it, the red light doesn't go on.
    But I also want to ask you a more general question. Natural 
disasters, such as the earthquake in Haiti or the hurricane in 
the Philippines, or manmade disasters, such as the civil war in 
Syria, cause massive movements of people and are fertile ground 
for transnational criminal organizations.
    Each year, millions of people are also affected by smaller 
disasters--floods, droughts--many of which go unreported are 
recurring and destroy livelihoods. These small-scale chronic 
disasters roll back development gains, trap people in cycles of 
poverty, and make them vulnerable to abuse, exploitation, and 
violence.
    So are there lessons that you have learned from the 
conflicts in Syria, the massive movements of people? How can we 
mitigate the exploitation of these refugees and displaced 
persons?
    In your opinion, what is preventing the U.S. Government and 
the international community from disrupting and dismantling 
current transnational crime? Is there a need to expand or 
adjust existing congressional authorities to combat the 
combined transnational crime threats? Are the available U.S. 
foreign policy tools sufficient to meet today's challenges? And 
are such tools effectively implemented? If not, what can we 
improve?
    And I want to go back to that first comment I made, 
Assistant Secretary Brownfield. You may be getting cuts, but 
there is still a lot of money out there. We are still the most 
generous nation in the world, and I hate to say this as a 
Democrat, but we can't always be asking for more money.
    We have to constantly look at how we are coordinating, how 
we are using the money. So perhaps you can respond to these 
root causes of transnational crime and what you are doing about 
it?
    Ambassador CdeBaca. One of the things that we have really 
been looking at over the last few years, the Haiti earthquake I 
think brought it home to us, but it is something that we had 
always been focused on. And frankly, with the help of our 
colleagues at PRM, we are all part of the now what we are 
calling the ``J enterprise.'' We all report to the same Under 
Secretary.
    And Under Secretary Sewall I think is keenly interested in 
figuring out how she can leverage all of our synergies together 
so that we don't have me working on one thing, Ambassador 
Brownfield working on something else, Anne Richard in PRM going 
in a different direction. And I think that Haiti really showed 
us the necessity for that.
    As is often the case, the first response is going to be 
something that USAID and often the military commands are in 
charge of. PRM is often going to be coming in very quickly 
thereafter, using its implementing partners like the 
International Organization for Migration and others to try to 
set up shelters, to try to set up the refugee camps and other 
things.
    But then we have recognized, and we are thinking that it is 
about a 6- to 9-month lag time that the traffickers then start 
coming. They start coming to the refugee camps. People start 
leaving the refugee camps because they are not feeling that 
their needs are being met, and they are vulnerable to the 
allure of the traffickers. And not just the sex traffickers who 
are almost overtly kidnapping, but even the labor recruiters 
saying come up and we will see something somewhere else.
    One of the things that we have heard from the International 
Organization for Migration, who is the holder of our emergency 
services contract, is that they are starting to see women now 
in the Angeles City and Manila area who are coming up from the 
typhoon damage. That hadn't been happening, but because we use 
them for anti-trafficking work as well as PRM using them to try 
to come in and set up shelter and emergency camps and things 
like that, we think that we have got a bit of an early warning 
system through the IOM.
    I do think that there continues to be a challenge, though, 
because the response is often let us just get the pallets of 
order in, and we will deal with the Mafia later. But the Mafia 
guys are already starting to preposition their responses, and 
we have seen that in southeastern Europe with the Bulgarians 
coming around where the new Syrian refugees are, just as much 
as we are seeing it in the Philippines.
    And I would be happy to address the Nigeria situation as 
well, depending on how much time.
    Mrs. Lowey. Maybe because it is the end and because I know 
how passionately our chair is concerned, we can let you respond 
to Nigeria as well. Is that okay?
    Ms. Granger. Sure. Absolutely.
    Ambassador CdeBaca. One of the things that we have seen in 
Nigeria over the last few years is the power of innovation, the 
National Agency for the Prevention of Trafficking, or it is 
called NAPTIP, which is atypical for its nimbleness in perhaps 
the Nigerian government, especially on the security side, is a 
small group that is doing some very good things.
    We have not yet been able to get in touch with them as far 
as the situation because I think it is largely being dealt with 
as a security issue. Certainly the United States help that you 
may have heard about, which Secretary Kerry offered and that 
President Jonathan welcomed yesterday, is more operational than 
it is programmatic.
    And so, I think that what we will be doing with the NAPTIP, 
the National Agency to Prevent Trafficking in Persons, is to 
follow up with our counterparts and our colleagues then to try 
to make sure that their expertise is actually brought to bear. 
They are unique in Africa in that they are not simply a police 
force. They are a combination of police, prosecutors, and 
social workers because they realize that you have to think 
about the psychosocial response and the victim care once you 
are dealing with a trafficking case.
    This is something--this situation is something that is 
going to dwarf them as far as what they have done in a given 
year in the past if, indeed, they are brought in to bear. And 
we want to make sure that we are as supportive of our 
colleagues as possible.
    And I think it is that kind of follow-up, and I know that 
Assistant Secretary Brownfield has been looking at various 
policing support as well, and I don't know, Bill, if you want 
to?
    Ambassador Brownfield. Sure, I can give it just 30 seconds, 
Madam Chairwoman. I mean, as----
    Mrs. Lowey. We got the okay.
    Ambassador Brownfield. Our assessment right now is that 
there is an urgent crisis in Nigeria. It is an operational 
crisis, and that is to say to rescue some 300 girls who have 
been kidnapped and are being, at a minimum, misused, if not 
worse, in terms of what Boko Haram is doing. That is an 
operational issue. That is a security issue. And the people 
from the United States Government that are now in the lead are 
AFRICOM and the Department of Defense and the FBI representing 
the Federal law enforcement community.
    That is not a foreign assistance issue. That is an 
operational issue. It is a foreign assistance issue for which I 
will be held accountable for us to try to develop programs, 
equipment, training, capacity building, exchanges that will 
actually improve the capabilities of Nigerian law enforcement 
to prevent this from happening again and to be more effective 
and more responsive against those that would attempt to repeat 
this sort of thing.
    And that is our challenge, to be able to take on that 
activity without undercutting the immediate urgent requirement 
to put 100 percent of all available assets on the mission of 
rescuing these girls.
    Mrs. Lowey. As you know, and Madam Chair and I have talked 
about this, in Nigeria the government has not responded. And we 
are dealing with governments that are in too many places 
corrupt and do not respond.
    We keep hearing, for example, in Haiti that there are 
10,000 NGOs, and I am sure they are all doing good work. We 
have sent billions of dollars, as have others, but there may be 
questions about the government in Haiti as to their 
effectiveness, their efficiency, and their concern about doing 
the right thing.
    So we know the challenges that you have, and I know that 
you have a great deal of support from all of us, and we look 
forward to continuing to work with you to make sure that all 
our assets, all the good people like yourselves that are 
working on these issues are coordinated as effectively as we 
can, despite failings in government leadership in too many 
parts of the world.
    And I thank you. Turn it back to the chair. Thank you very 
much.
    Ms. Granger. Thank you.
    I just have just three brief not questions, just comments 
as we went through this. One of them had just what Mrs. Lowey 
was talking about, the coordination.
    Before I even came on the subcommittee, I was asked by the 
State Department to take a delegation to look at human 
trafficking. And I remember we had a meeting, and I was asked, 
you know, when you think about human trafficking, where do you 
think it is the most prevalent? And I was wrong on every count.
    And it is sometimes countries that we don't expect. And so, 
there has to be a better awareness. And on this trip that we 
took, we went to donor countries. Moldova was one of them. And 
recipient. And Greece was one of them. And I think about when 
we are--when we are working, we, as the United States, there 
may be less funding, but there is not less attention and not 
less leadership. And that is what has to occur.
    In this case, in Moldova, met personally and helped a young 
woman who had been kidnapped, and she was in Turkey and she 
tried to escape. She crawled out a window of a seven-story 
building because the entire building was filled with people who 
had been trafficked.
    She fell to the sidewalk. The police found her, found that 
she was--what happened to her, and gave her back to the people 
that were trafficking her. And I know you see that still today. 
And she finally escaped another time, but at great cost to her.
    So we know so much. There is just so far we can go with how 
we identify more. We need to attack the problem, and it is just 
horrendous.
    The other thing has to do with the use of technologies, and 
I think about all the improvements and what we know about DNA. 
And I just think it is a real opportunity in making sure we are 
using the technologies today in trafficking.
    In Africa, where--and I think it made a huge difference 
when I saw it, and it is more attention now, but identifying 
where they are truly killing whole herds, poisoning the water, 
all that is happening. And the use of drones to see where are 
they when it is happening I think we need to certainly--and 
that we would certainly consider. And that is a coordination 
situation again, and we just have to do it the very best we 
can.
    I appreciate the work both of you have done and continue to 
do. And please keep us involved. Obviously, we are passionate 
about this.
    I thank you for appearing before this subcommittee today. 
Members may submit any additional questions for the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs stands adjourned.






                               WITNESSES

                              ----------                              
                                                                   Page
Brownfield, Ambassador William...................................   839
CdeBaca, Ambassador Luis.........................................   839
Gast, Earl.......................................................   691
Herrling, Sheila.................................................   691
Kerry, Hon. J. F.................................................     1
Mendelson, Dr. S. E..............................................   795
Mendes, Andre....................................................   803
Power, Samantha..................................................   597
Shah, Dr. Rajiv..................................................   431
Thomas-Greenfield, Linda.........................................   691
Zeya, Uzra.......................................................   786

                                  [all]
</pre></body></html>
